19-1077
UNITED STATES COURT OF APPEALS FOR THE SECOND CIRCUIT

Kravitz v. Leis
Decided May 7, 2020

19-1077
05-07-2020

Jay S. Kravitz, Plaintiff-Appellant, v. Kenneth Leis, Greene County Corrections Lieutenant, John and Jane
Does, Unknown Employees of the Greene County Jail, Defendants-Appellees, Greene County, New York,
Michael J. Spitz, Greene County Jail Superintendent, Gregory R. Sealey, Greene County Sheriff, Defendants.
For Plaintiff-Appellant: Jay S. Kravitz, pro se, Earlton, NY. For Defendant-Appellee Kenneth Leis: Thomas K.
Murphy, Murphy Burns LLP, Loudonville, NY.
FOR THE COURT: Catherine O'Hagan Wolfe, Clerk of Court
SUMMARY ORDER RULINGS BY SUMMARY ORDER DO NOT HAVE PRECEDENTIAL EFFECT.
CITATION TO A SUMMARY ORDER FILED ON OR AFTER JANUARY 1, 2007, IS PERMITTED AND
IS GOVERNED BY FEDERAL RULE OF APPELLATE PROCEDURE 32.1 AND THIS COURT'S LOCAL
RULE 32.1.1. WHEN CITING A SUMMARY ORDER IN A DOCUMENT FILED WITH THIS COURT, A
PARTY MUST CITE EITHER THE FEDERAL APPENDIX OR AN ELECTRONIC DATABASE (WITH
THE NOTATION "SUMMARY ORDER"). A PARTY CITING TO A SUMMARY ORDER MUST SERVE A
COPY OF IT ON ANY PARTY NOT REPRESENTED BY COUNSEL.

2

At a stated term of the United States Court of Appeals for the Second Circuit, held at the Thurgood Marshall
United States Courthouse, 40 Foley Square, in the City of New York, on the 7th day of May, two thousand
twenty. PRESENT: JOHN M. WALKER, Jr., ROSEMARY S. POOLER, GERARD E. LYNCH, Circuit
Judges. *2 For Plaintiff-Appellant: Jay S. Kravitz, pro se, Earlton, NY. For Defendant-Appellee Kenneth Leis:
Thomas K. Murphy, Murphy Burns LLP, Loudonville, NY.
Appeal from a judgment of the United States District Court for the Northern District of New York (McAvoy,
J.).
UPON DUE CONSIDERATION, IT IS HEREBY ORDERED, ADJUDGED, AND DECREED that the
judgment of the district court is AFFIRMED.
Appellant Jay Kravitz, proceeding pro se, appeals from the March 25, 2019 grant of summary judgment for
Appellees Lieutenant Kenneth Leis and unnamed employees of the Greene County Jail in Kravitz’s action
under 42 U.S.C. § 1983 alleging that prison officials violated his right to freely exercise his religion by denying
him access to his prayer items, including a tallit and tefillin. We assume the parties' familiarity with the
underlying facts, the procedural history of the case, and the issues on appeal.

casetext

1

Kravitz v. Leis

19-1077 (2d Cir. May. 7, 2020)

We review a grant of summary judgment de novo, "resolv[ing] all ambiguities and drawing] all inferences
against the moving party." Garcia v. Hartford Police Dep't, 706 F.3d 120, 126-27 (2d Cir. 2013) (per curiam).
"Summary judgment is proper only when, construing the evidence in the light most favorable to the non­
movant, 'there is no genuine dispute as to any material fact and the movant is entitled to judgment as a matter
of law.'" Doninger v. Niehoff, 642 F.3d 334, 344 (2d Cir. 2011) (quoting Fed. R. Civ. P. 56(a)).
As an initial matter, we conclude that Kravitz abandoned any claims related to the unnamed employees by
failing to raise the issue in his brief on appeal. See LoSacco v. City ofMiddletown, 71 F.3d 88, 92-93 (2d Cir.
1995). The sole issue on appeal is whether the district court properly granted summary judgment to Leis.
"[I]n this Circuit personal involvement of defendants in alleged constitutional deprivations is a prerequisite to
an award of damages under § 1983Back v. Hastings on Hudson Union Free Sch.Dist., 365 F.3d 107, 122 (2d
Cir. 2004) (internal quotation marks omitted). "The liability of a supervisor under § 1983 can be shown in one
or more of the following ways: (1) actual direct participation in the constitutional violation, (2) failure to
remedy a wrong after being informed through a report or appeal, (3) creation of a policy or custom that
sanctioned conduct amounting to a constitutional violation, or allowing such a policy or custom to continue, (4)
grossly negligent supervision of subordinates who committed a violation, or (5) failure to act on information
indicating that unconstitutional acts were occurring." Hernandez v. Keane, 341 F.3d 137, 145 (2d Cir. 2003).

3

Kravitz alleged that Leis violated his First Amendment rights by "overriding" the grievance coordinator's
recommendation and denying his April 2015 grievance at the behest of the jail superintendent. But the
documentary record demonstrates that the evidence showed that the *3 superintendent agreed with the
coordinator and granted Kravitz's request to have his tefillin and tallit in his cell for prayer on May 20. Kravitz
points to no evidence that Leis, or indeed anyone else, reversed the grievance coordinator's ruling or denied his
grievance.
Kravitz argues that he offered evidence that Leis was personally involved because Leis responded to his facility
complaint. But this specific allegation was not contained in his amended complaint. The only allegation he
made against Leis was that Leis was aware he needed access to his tefillin and tallit and that Leis "overrode"
the grievance coordinator's decision to allow Kravitz his prayer items on behalf of the superintendent. Kravitz
first claimed in his objections to the magistrate judge's report and recommendation that Leis violated his
constitutional rights by failing to remedy the issue of his access to his tefillin and tallit when Leis received the
facility complaint. The issue then is whether the district court erred by failing to consider this additional claim.
There was no error. Generally, parties may not amend their complaints through their submissions on summary
judgment. See Greenidge v. Allstate Ins. Co., 446 F.3d 356, 361 (2d Cir. 2006) (concluding that district court
did not err by declining to consider claim raised for the first time in opposition to summary judgment). Instead,
the litigant should move to amend his complaint or raise the matter in a motion for reconsideration if the
district court has already ruled on the summary judgment motion. Id. Kravitz did neither. The district court
therefore did not err by not considering Kravitz's new claim that Leis failed to respond to Kravitz's facility
complaints.
We have reviewed the remainder of Kravitz's arguments and find them to be without merit. For the foregoing
reasons, the judgment of the district court is AFFIRMED.
FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk of Court

2

;}

'c.
9:17-cv-0600 (TJM/TWD)
UNITED STATES DISTRICT COURT NORTHERN DISTRICT OF NEW YORK

Kravitz v. Leis
Decided Mar 25, 2019

9:17-cv-0600 (TJM/TWD)
03-25-2019
JAY S. KRAVITZ, Plaintiff, v. KENNETH LEIS; JOHN/JANE DOE(S), Defendants.
THOMAS J. McAVOY, Senior United States District Judge
THOMAS J. McAVOY, Senior United States District Judge

DECISION & ORDER
I. INTRODUCTION
This pro se action brought pursuant to 42 U.S.C. § 1983 was referred to the Hon. Therese W. Dancks, United
States Magistrate Judge, for a Report and Recommendation pursuant to 28 U.S.C. § 636(b) and Local Rule
72.3(c). In her February 11, 2019 Report-Recommendation and Order, Magistrate Judge Dancks recommends
that Plaintiffs First Amendment Free Exercise claim against Defendants John/Jane Doe(s) be dismissed
without prejudice, and Defendant Leis' motion for summary judgment (Dkt. No. 21) be granted for lack of
personal involvement. Dkt. No. 29, at 15. Plaintiff objects only to the recommendation to grant Defendant Leis'
motion for summary judgment. Dkt. No. 30.

II. STANDARD OF REVIEW
2

When objections to a magistrate judge's report and recommendation are lodged, the district court makes a "de
novo determination of those portions of the report or *2 specified proposed findings or recommendations to
which objection is made." 28 U.S.C. § 636(b)(1); see also United States v. Male Juvenile, 121 F.3d 34, 38 (2d
Cir. 1997) (The Court must make a de novo determination to the extent that a party makes specific objections to
a magistrate's findings). "[Ejven a pro se party's objections to a Report and Recommendation must be specific
and clearly aimed at particular findings in the magistrate's proposal, such that no party be allowed a second bite
at the apple by simply relitigating a prior argument." DiPilato v. 7-Eleven, Inc., 662 F. Supp. 2d 333, 340
(S.D.N.Y. 2009)(intemal quotation marks and citation omitted). When no objection is made to a portion of a
report-recommendation, the Court subjects that portion of the report-recommendation to only a clear error
review. Fed. R. Civ. P. 72(b), Advisory Committee Notes: 1983 Addition. When performing such a review, "the
court need only satisfy itself that there is no clear error on the face of the record in order to accept the
recommendation." Id.
After reviewing the report recommendation, the Court may "accept, reject, or modify, in whole or in part, the
findings or recommendations made by the magistrate judge. The judge may also receive further evidence or
recommit the matter to the magistrate judge with instructions." 28 U.S.C. § 636(b)(1)(C).

^ casetext

1

Kravitz v. Leis

9:17-cv-0600 (TJM/TWD) (N.D.N.Y. Mar. 25, 2019)

III. DISCUSSION
a. Portion of Rep. Rec. & Ord. With No Objections

3

The Court finds no clear error in Magistrate Judge Dancks1 recommendation to dismiss without prejudice
Plaintiff’s First Amendment Free Exercise claim(s) against Defendants John/Jane Doe(s). See Rep.-Rec. &
Ord., at 5-7. Further, even considering *3 this portion of Magistrate Judge Dancks1 Report-Recommendation
and Order de novo, the Court adopts her recommendation for the reasons stated. Id.
b. Portion of Rep. Rec. & Ord. With Objections
Having reviewed de novo Defendant Leis’ motion for summary judgment, and having considered Plaintiffs
objections, the Court adopts the conclusions reached by Magistrate Judge Dancks at pages 7-15 of the ReportRecommendation and Order.

V. CONCLUSION
For the reasons discussed above, the Court ACCEPTS and ADOPTS Magistrate Judge Dancks’
recommendations in the Report-Recommendation and Order (Dkt #29) for the reasons stated in her report.
Therefore, it is hereby
ORDERED that Plaintiffs First Amendment Free Exercise claim(s) against Defendants John/Jane Doe(s)
is/are DISMISSED without prejudice; and it is further
ORDERED that Defendant Leis’ motion for summary judgment (Dkt. No. 21) is GRANTED and the claims
against him are DISMISSED with prejudice.
The Clerk of the Court may close the file in this matter.

IT IS SO ORDERED.
Dated:March 25, 2019
/s/

Thomas J. McAvoy
Senior, U.S. District Judge

0 casetext

2

Case 9:17-cv-00600-TJM-TWD Document 29 Filed 02/11/19 Page 1 of 77

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF NEW YORK
JAY S. KRAVITZ,
Plaintiff,
9:17-cv-0600
(TJM/TWD)

v.

KENNETH LEIS; JOHN/JANE DOE(S),
Defendants.
OF COUNSEL:

APPEARANCES:
JAY S. KRAVITZ
Plaintiff, pro se
P.O. Box 206
Earlton, NY 12058
MURPHY BURNS, LLP
Attorneys for Defendant Kenneth Leis
407 Albany Shaker Road
Loundonville, NY 12211

THOMAS K. MURPHY, ESQ.

THERESE WILEY DANCKS, United States Magistrate Judge
REPORT-RECOMMENDATION AND ORDER
This pro se civil rights action, brought under 42 U.S.C. § 1983, has been referred for a
report and recommendation by the Honorable Thomas J. McAvoy, Senior United States District
Judge, pursuant to 28 U.S.C. § 636(b) and Northern District of New York Local Rule 72.3(c).
Plaintiff Jay S. Kravitz, a member and practitioner of the Jewish faith, commenced this action on
June 1,2017, asserting claims arising out of his confinement at the Greene County Jail (“GCJ”)
between March 2015, and June 2015. (Dkt. No. 1.) In the amended complaint, the operative
pleading, Plaintiff alleges a First Amendment free exercise claim against Defendants John/Jane
Doe(s) and a supervisory claim against Defendant Kenneth Leis. (Dkt. No. 17.)

Case 9:17-cv-00600-TJM-TWD Document 29 Filed 02/11/19 Page 2 of 77

Defendant Leis now moves for summary judgment pursuant to Rule 56 of the Federal
Rules of Civil Procedure. (Dkt. No. 21.) Plaintiff has responded in opposition to the motion.
(Dkt. No. 26.) For the following reasons, the Court recommends that Defendant Leis’ motion for
summary judgment (Dkt. No. 21) be granted and that Plaintiffs amended complaint (Dkt. No.
17) be dismissed in its entirety.
I.

BACKGROUND AND PROCEDURAL HISTORY
Plaintiff was incarcerated at the GCJ between February 26, 2015, and June 19, 2015.

(Dkt. No. 21-5 at

11; Dkt. No. 26 at 1.) In the amended complaint, Plaintiff alleges that

within days of his arrival at that GCJ, his family brought personal prayer items to the jail
including a skullcap (Yarmulke), prayer shawl (Tallit), and phylacteries (Tefillin). (Dkt. No. 17
at

10, 11.) Defendants John/Jane Doe(s) informed Plaintiff that he would be allowed to

possess his Yarmulke but not his Tefillin. Id. at 111. Plaintiff would be permitted to wear his
Tallit for twenty minutes each day during Passover. Id.
Plaintiff filed a complaint with an officer on duty, which was denied. Id. at

12.

Plaintiff then filed a grievance and the Grievance Coordinator issued a decision recommending
.is

that Plaintiff should have access to his Tallit and Tefillin in his cell. Id. at If 13. Defendant Leis,
on behalf of Superintendent Michael J. Spitz, overturned the Grievance Coordinator’s decision.
Id. at Tf 14.
By Decision and Order filed June 15, 2017, only Plaintiffs (1) First Amendment free
exercise claims against Defendants John/Jane Doe(s); and (2) supervisory claim against
Defendant Leis survived initial review. (Dkt. No. 16.) The Court further advised:
Since service cannot be effected on a “Doe” defendant, if Plaintiff
wishes to pursue the claims against this defendant, he must take
i

Paragraph references are used where documents identified by CM/ECF docket number contain
consecutively numbered paragraphs.
2

Case 9:17-cv-00600-TJM-TWD Document 29 Filed 02/11/19 Page 3 of 77

reasonable steps through discovery to ascertain his/her identity.
Upon learning the identity of this individual, Plaintiff must seek
permission to amend his Amended Complaint to properly name
him or her as a defendant herein. If the Plaintiff fails to ascertain
the identity of any Doe defendant so as to permit the timely service
of process, this action will be dismissed as against that individual.
Id. at 6.2 Defendant Leis filed his answer to the amended complaint on January 2, 2018. (Dkt.
No. 18.)
Defendant Leis moves for the entry of summary judgment (Dkt. No. 21) dismissing
Plaintiffs supervisory claim against him based upon (1) lack of personal involvement; (2);
qualified immunity; and (3) judicial estoppel. (Dkt. No. 21-6 at 5-12.) Plaintiff opposes the
motion. (Dkt. No. 26.) Defendant Leis filed a reply. (Dkt. No. 28.)
II.

APPLICABLE LEGAL STANDARD
Summary judgment may be granted only if the submissions of the parties taken together

“show that there is no genuine issue as to any material fact and that the moving party is entitled
to judgment as a matter of law.” Anderson v. Liberty Lobby, Inc., All U.S. 242, 251-52 (1986);
Fed. R. Civ. P. 56(c). The party moving for summary judgment bears the initial burden of
showing, through the production of admissible evidence, no genuine issue of material fact exists.
Salahuddin v. Goord, 467 F.3d 263, 272-73 (2d Cir. 2006). A dispute of fact is “genuine” if “the
[record] evidence is such that a reasonable jury could return a verdict for the nonmoving party.”
Liberty Lobby, All U.S. at 248.
Only after the moving party has met this burden is the nonmoving party required to
produce evidence demonstrating genuine issues of material fact exist. Salahuddin, 467 F.3d at
272-73. The nonmoving party must do more than “rest upon the mere allegations ... of the

2 Page references to documents identified by docket number are to the numbers assigned by the
CM/ECF docketing system maintained by the Clerk’s Office.
3

Case 9:17-cv-00600-TJM-TWD Document 29 Filed 02/11/19 Page 4 of 77

[plaintiffs] pleading” or “simply show that there is some metaphysical doubt as to the material
facts.” Matsushita Elec. Indus. Co. v. Zenith Radio Corp., 475 U.S. 574, 585-86 (1986). A party
opposing summary judgment is required to submit admissible evidence. See Spiegel v.
Schulmann, 604 F.3d 72, 81 (2d Cir. 2010) (“It is well established that in determining the
appropriateness of a grant of summary judgment, [the court] .. . may rely only on admissible
evidence.”) (quotation marks omitted). “Conclusory allegations, conjecture and speculation ...
are insufficient to create a genuine issue of fact.” Kerzer v. Kingly Mfg., 156 F.3d 396, 400 (2d
Cir. 1998).
In Jeffreys v. City ofNew York, the Second Circuit reminded that on summary judgment
motions “[t]he mere existence of a scintilla of evidence in support of the plaintiffs position will
be insufficient; there must be evidence on which the jury could reasonably find for the plaintiff.”
Jeffreys v. City ofNew York, 426 F.3d 549, 554 (2d Cir. 2005). “To defeat summary judgment,.
.. nonmoving parties may not rely on conclusory allegations or unsubstantiated speculation.” Id.
426 F.3d at 554 (citation and quotation marks omitted). “At the summary judgment stage, a
nonmoving party must offer some hard evidence showing that its version of the events is not
wholly fanciful.” Id. (citation and internal quotation marks omitted). “[T]o satisfy Rule 56(e),
affidavits must be based upon ‘concrete particulars,’ not conclusory allegations.” Schwapp v.
Town ofAvon, 118 F.3d 106, 111 (2d Cir. 1997) (citation omitted). “Statements that are devoid
of any specifics, but replete with conclusions, are insufficient to defeat a properly supported
motion for summary judgment.” Bickerstaff v. Vassar Coll., 196 F.3d 435, 452 (2d Cir. 1999).
In determining whether a genuine issue of material fact exists, the court must resolve all
ambiguities and draw all reasonable inferences against the moving party. Major League
Baseball Props., Inc. v. Salvino, Inc., 542 F.3d 290, 309 (2d Cir. 2008). Where a party is

4

Case 9:17-cv-00600-TJM-TWD Document 29 Filed 02/11/19 Page 5 of 77

proceeding pro se, the court is obliged to “read [the pro se party’s] supporting papers liberally,
and .. . interpret them to raise the strongest arguments that they suggest.” Burgos v. Hopkins, 14
F.3d 787, 790 (2d Cir. 1994). However, “apro se party’s ‘bald assertion,’ unsupported by
evidence, is not sufficient to overcome a motion for summary judgment.” Cole v. Artuz, No. 93
Civ. 5981 (WHP) (JCF), 1999 WL 983876, at *3 (S.D.N.Y. Oct. 28, 1999)3 citing Carey v.
Crescenzi, 923 F.2d 18, 21 (2d Cir. 1991)).
III.

DISCUSSION
Construed liberally, Plaintiff claims Defendants violated his constitutional rights under

the First Amendment’s Free Exercise Clause in two ways. First, Plaintiff claims Defendants
John/Jane Doe(s) did not allow Plaintiff to possess Tallit and Tefillin in his cell. (Dkt. No. 17 at
Tf 11.) Second, Plaintiff alleges Defendant Leis “overrode” the recommendation of the Grievance
Coordinator that Plaintiff be allowed to possess Tallit and Tefillin in his cell, and that he did so
at the behest of Superintendent Spitz. Id. at
A.

13, 14.

First Amendment Free Exercise Claim against John/Jane Does

“Prisoners have long been understood to retain some measure of the constitutional
protection afforded by the First Amendment’s Free Exercise Clause.” Ford v. McGinnis, 352
F.3d 582, 588 (2d Cir. 2003) (citing Pell v. Procunier, 417 U.S. 817, 822 (1974)). However, the
right “is not absolute or unbridled, and is subject to valid penological concerns, including those
relating to institutional security.” Johnson v. Guiffere, No. 04-CV-57 (DNH/DEP), 2007 WL
3046703, at *4 (N.D.N.Y. Oct.17, 2007) (citing O’Lone v. Estate ofShabbaz, 482 U.S. 348
(1987)).

.3

Copies of all unpublished decisions cited herein will be provided to Plaintiff in accordance
with Lebron v. Sanders, 557 F.3d 76 (2d Cir. 2009) (per curiam).

5

Case 9:17-cv-00600-TJM-TWD Document 29 Filed 02/11/19 Page 6 of 77

To succeed on a claim under the Free Exercise Clause, the plaintiff must show at the
threshold that the challenged conduct “substantially burdens his sincerely held religious beliefs.”
Pugh v. Goord, 571 F. Supp. 2d 477, 497 (S.D.N.Y. 2008) (quoting Salahuddin, 467 F.3d at 27475) (citing Ford, 352 F.3d at 591). Although the Second Circuit has applied the “substantial
burden” test in its most recent prison free exercise cases, it has done so while explicitly refusing
to adopt or endorse the test. See Williams v. Doe, 639 F. App’x at 55, 56 (2d Cir. 2016) (“We
have not yet decided whether a prisoner asserting a free-exercise claim must, as a threshold
requirement, show that the disputed conduct substantially burdened his sincerely held religious
beliefs.”); Holland v. Goord, 758 F. 3d 215, 220-21 (2d Cir. 2014) (declining to decide whether a
prisoner must show, as a threshold matter, that the defendant’s conduct substantially burdened
his sincerely held religious beliefs in connection with a First Amendment free exercise claim).
In the absence of any controlling precedent to the contrary, courts in this District have continued
to apply the substantial burden test. See, e.g., Wright v. Stallone, No. 9:17-CV-0487
(LEK/TWD), 2018 WL 671256, at *9 (N.D.N.Y. Jan. 31, 2018) (applying substantial burden
test); Berisha v. Ferrell, No. 9:13- CV-1191 (LEK/ATB), 2016 WL 1295178, at *3 (N.D.N.Y.
Mar. 8, 2016) (same); Skates v. Shusda, 9:14-CV-1092 (TJM/DEP), 2016 WL 3882530, at *4 &
n.6 (N.D.N.Y. May 31, 2016) (same).
Once a plaintiff establishes that a sincerely held religious belief has been substantially
burdened, “[t]he defendants then bear the relatively limited burden of identifying the legitimate
penological interests that justify the impinging conduct; the burden remains with the prisoner to
show that these articulated concerns were irrational.” Salahuddin, 467 F.3d at 275 (quoting
Ford, 352 F.3d at 595) (punctuation omitted).

6

Case 9:17-cv-00600-TJM-TWD Document 29 Filed 02/11/19 Page 7 of 77

Here, despite the Court’s explicit warning that failure to identify the Doe Defendants
would result in dismissal of the action as against that individual, Plaintiff has not yet done so.
(Dkt. No. 16 at 6.) The Docket maintained by the Clerk’s Office does not reflect the
identification of, or service on, any of the Doe Defendants during the more than twenty-one
months this action has been pending. Therefore, the Court recommends dismissal of the First
Amendment free exercise claims against the Doe Defendants without prejudice.4 See Cusamano
v. Sobek, 604 F. Supp. 2d 416, 440 (N.D.N.Y. 2009) (dismissing without prejudice the plaintiffs
claims against the defendants designated as Does for failure to timely serve and name those
individuals); Pravda v. City ofAlbany, 178 F.R.D. 25, 26 (N.D.N.Y. 1998) (dismissing a
plaintiffs claims against the Doe defendant after plaintiff had been given over two years to
identify and serve those individuals, including the full discovery period”); Reed v. Doe, No. 11 CV-250 (TJM/DEP), 2015 WL 902795, at *5 (N.D.N.Y. Mar. 3, 2015) (dismissing the plaintiffs
claim against a Doe defendant without prejudice after the plaintiff “failed to . . . take timely
measures reasonably calculated to ascertain the John Doe’s identity”).
B.

Supervisory Claim against Defendant Leis

Plaintiff brings a supervisory liability claim against Defendant Leis. (Dkt. No. 17 at ^
13, 14.) The law is clear that “personal involvement of defendants in alleged constitutional
deprivations is a prerequisite to an award of damages under § 1983.” McKinnon v. Patterson,
568 F.2d 930, 934 (2d Cir. 1977). “Because vicarious liability is inapplicable to ... § 1983 suits,
a plaintiff must plead that each government-official defendant, through the official’s own
individual actions, has violated the Constitution.” Ashcroft v. Iqbal, 556 U.S. 662, 676 (2009)
(“Government officials may not be held liable for the unconstitutional conduct of their
4 In so recommending, the Court expresses no opinion as to whether Plaintiffs First
Amendment Free Exercise claim against the Doe Defendants would be time barred.
7

Case 9:17-cv-00600-TJM-TWD Document 29 Filed 02/11/19 Page 8 of 77

subordinates under a theory of respondeat superior”). Thus, “[hjolding a position in a
hierarchical chain of command, without more, is insufficient to support a showing of personal
involvement.” Groves v. Davis, No. 9:11-CV-1317 (GTS/RFT), 2012 WL 651919, at *6
(N.D.N.Y. Feb. 28, 2012) (citing McKinnon, 568 F.2d at 934); see also Wright v. Smith, 21 F.3d
496, 501 (2d Cir. 1994) (noting that a defendant may not be held liable in a § 1983 action merely
because he or she held a high position of authority).
The Second Circuit has held that personal involvement by a supervisor necessary to state
a claim under § 1983 may be found where:
(1) the defendant participated directly in the alleged constitutional
violation, (2) the defendant, after being informed of the violation
through a report or appeal, failed to remedy the wrong, (3) the
defendant created a policy or custom under which unconstitutional
practices occurred, or allowed the continuance of such a policy or
custom, (4) the defendant was grossly negligent in supervising
subordinates who committed the wrongful acts, or (5) the
defendant exhibited deliberate indifference to the rights of inmates
by failing to act on information indicating that unconstitutional
acts were occurring.
Colon v. Coughlin, 58 F.3d 865, 873 (2d Cir. 1995).5
Here, Plaintiff claims unidentified individuals “denied him access to and possession of
his sacred ritual prayer objects[.]” (Dkt. No. 17 at^| 11, 12.) Plaintiff further alleges Defendant
Leis reversed the Grievance Coordinator’s recommendation that Plaintiff be allowed to possess
Tallit and Tefillin in his cell. Id. at fflf 13, 14. To be sure, district courts have found personal
involvement based on the denial of a grievance where the alleged constitutional violation
complained of in the grievance was “ongoing [...] such that the ‘supervisory official who
reviews the grievance can remedy [it] directly.’” Burton v. Lynch, 664 F. Supp. 2d 349, 360
5 The Second Circuit has thus far expressly declined to determine whether Iqbal eliminated any
of the Colon bases for liability. See Grullon v. City ofNew Haven, 720 F.3d 133, 139 (2d Cir.
2013).
8

Case 9:17-cv-00600-TJM-TWD Document 29 Filed 02/11/19 Page 9 of 77

(S.D.N.Y. 2009) (citation omitted). This standard, however, presupposes a finding of underlying
Unlawful conduct. Blyden v. Mancusi, 186 F.3d 252, 265 (2d Cir. 1999) (“[F]or a supervisor to
be liable under [§] 1983, there must have been an underlying constitutional deprivation.”); Alston
v. Bendheim, 672 F. Supp. 2d 378, 388-89 (S.D.N.Y. 2009) (“A necessary factor ... of. ..
supervisory liability is that a constitutional violation have occurred.”); Hayes v. Dahkle, No.
9:16-CV-1368 (TJM/CFH), 2018 WL 555513, at *1 (N.D.N.Y. Jan. 19, 2018) (“absent a
subordinate’s underlying constitutional violation, there can be no supervisory liability”) (citing
Hernandez v. Keane, 341 F. 3d 137, 145 (2d Cir. 2003); (Elekv. Inc. Vill. ofMonroe, 815 F.
Supp. 2d 801, 808 (S.D.N.Y. 2011)).
Here, inasmuch as the Court is recommending dismissal of the underlying Free Exercise
claim against the Doe Defendants, Plaintiff cannot sustain a supervisory liability claim against
Defendant Leis. Thompson v. Carlson, No. 9:08-CV-487 (TJM/RFT), 2010 WL 843872, at *7
(N.D.N.Y. Mar. 10, 2010) (citing Blyden, 186 F.3d at 265 (“Of course, for a supervisor to be
liable under [§] 1983, there must have been an underlying constitutional deprivation.”)).
Even if the Court were to assume solely for purposes of this motion that Plaintiff
demonstrated an underlying First Amendment constitutional violation, the evidence demonstrates
Defendant Leis is entitled to summary judgment on the supervisory claim for lack of personal
involvement.
Defendant Leis was employed by the Greene County Sheriffs Office from February
1991 until 2017. (Dkt. No. 21-2 at ]fl[ 1, 2.) From 2011 until his retirement, he held the rank of
Lieutenant and his duties and responsibilities included assisting Superintendent Spitz in running
the day-to-day operations of the GCJ. Id. at ^ 2.

9

Case 9:17-CV-00600-TJM-TWD Document 29 Filed 02/11/19 Page 10 of 77

At the GCJ, there is a formal Grievance Program, as required by County Jails, which
allows a complaining inmate to file a formal written Grievance, which is then investigated by a
Grievance Coordinator who makes a recommendation. Id. at f 20. If the recommendation is not
accepted by the inmate, the inmate can appeal the Grievance to the Chief Administrator Officer
(“CAO”). Id. If the CAO renders a decision denying the grievance, the inmate may appeal the
decision to the New York State Commission on Corrections Citizen’s Policy and Complaint
Review Council (“CPCRC”). Id. The CPCRC issues a written decision, which is sent to the
inmate and the CAO. If the determination is in favor of the inmate, the GCJ will be directed to
comply with the grievance and provide an appropriate remedy. Id.
In addition to the formal Grievance Program, there is an informal complaint process at
the GCJ whereby an inmate can file a “Facility Complaint” that is reviewed and responded to at
the housing unit level, possibly avoiding the necessity of filing a formal Grievance. Id. at If 21.
In this case, Plaintiffs supervisory claim is premised entirely upon his allegation that
Defendant Leis “overrode” the recommendation of the Grievance Coordinator that Plaintiff be
allowed to possess Tallit and Tefillin in his cell, and that he did so at the behest of
Superintendent Spitz. (Dkt. No. 17 at ^ 13, 14.) Defendant Leis argues Plaintiffs claim simply
does not withstand security and is belied by the record. (Dkt. No. 21-6 at 5-8.) The Court agrees
with Defendant Leis.
On or about April 13, 2015, Plaintiff submitted a “Facility Complaint” regarding
observance of Passover 2015 dated April 13, 2015, stating:
In letters & conversations w/ Lt. Leis the answer I get for the two
problems I will mention have been . .. not my call. The decisions
have come from above.
Issue (1) My prayer tefillin were not allowed at all not allowing
me the ability to do morning prayers properly.

10

Case 9:17-cv-00600-TJM-TWD Document 29 Filed 02/11/19 Page 11 of 77

(2) My Tallit was held & given to me on some mornings &
requested back immediately not allowing me time needed for
morning prayer.
You Supt Spit [sic] know better than most w/ DOCCS career that
both prayer items are allowed in the possession of DOCCS inmate
at all facilities. I have also had them in other, all surrounding
county Jails.
What is your reasoning?
(Dkt. No. 21-3 at 18.) By memorandum dated April 14, 2015, Defendant Leis acknowledged
receipt of the Facility Complaint and, in relevant part, responded:
Before Passover began I spoke with Rabbi Zoe B. Zak and she
assisted me in getting all the items necessary for your observance
of Passover. ...
The religious items that were needed were placed in a tote that was
issued to you each morning and evening. You refused these items
on some of the days of Passover, but they were still offered. ...
Your Facility Complaint has no merit. Rabbi Zak reviewed all
religious articles and menu’s [sic] and advised the Jail that you had
everything that was needed to observe Passover.
(Dkt. No. 21-3 at 19.) Plaintiff responded, in relevant part:
Your letter 4/14 speaks of Passover. Your response addresses only
the provisions for that holiday observance. I clarify now my
complaint. Passover was perfect. The Seder was outstanding.
You did your due diligence. I thank you again. THE PROBLEM
IS:
(1) Who made the decision to not allow the Tefillin in at all &
WHY?
(2) Why was the Tallit held from my constant possession & who
made the decision?
PLEASE EX PI AIN WHO & WHY my daily prayer items were
not in my constant possession. Why was Tefillin rejected and
Tallit controlled?

11

Case 9:17-cv-00600-TJM-TWD Document 29 Filed 02/11/19 Page 12 of 77

Id. at 20. By memorandum dated April 20, 2015, Defendant Leis responded, in part, “Your
Facility Complaint has already been answered. . . . This is the last time I will address this
issue.” Id. at 21.
The next day, Plaintiff filed a grievance, which was titled “Not Being Allowed to have
Religious Items.” Id. at 23. Plaintiff described the grievance as follows:
In end of March I submitted a letter to the commanding brass of
GC Jail alerting them that I would like to have my personal daily
prayer traditional standard articles brought in by my family. Also I
requested that the jail provide the essential provision to observe a
major Jewish holiday of Passover. I wrote down what was needed,
the name & number of the local Rabbi.
Id. He requested the following action: “I want in writing who & why the decision to violate my
First Amendment & the Jail rules occurred!” Id. On April 21, 2015, a facility staff member
responded: “It is beyond my control to allow such items to be given to I/M Kravitz, to keep in
cell.” Id. Plaintiff indicated he did not accept the resolution and wished to file a formal
grievance. Id. Plaintiff s grievance was assigned Grievance No. 15-0007. Id. at 23-24. On
April 23, 2015, the Grievance Coordinator issued the following decision:
As the Grievance Coordinator, I feel that I/M Kravitz should be
allowed to receive and be allowed to keep such items the Tallit and
Tefillin in his cell. He is a practicing person of the Jewish faith.
Id. at 24. Plaintiff acknowledged reading the Grievance Coordinator’s decision and indicated he
wished to appeal to the CAO. Id. On May 20, 2015, the CAO, Superintendent Spitz, issued the
following decision:
After speaking with a local Rabbi, I will allow you to have (1)
Tallit & (1) Tefillin in your cell. These items are for in cell use
only. These items will not be provided by the facility but you will
be allowed to receive them from an outside source.

12

Case 9:17-cv-00600-TJM-TWD Document 29 Filed 02/11/19 Page 13 of 77

Id. On May 21, 2015, Plaintiff signed and dated the decision of the CAO and indicated he
wished to appeal to the CPCRC. Id.
Here, it is undisputed that “Defendant Leis’ duties and responsibilities at the GCJ did not
include involvement in the Grievance Program.” (Dkt. No. 21-5 at 17; Dkt. No. 26 at

17.)

Defendant Leis declares in his affidavit:
1 was not part of the Grievance Program and I did not participate in
any decision making with regard to [Plaintiffs] Grievances. I was
only involved in providing the assistance necessary to be sure that
[P]laintiff was able to observe the holidays of Passover and
Shavuot while in GGJ. Further, as the Grievance documents filed
earlier indicate, Plaintiff acknowledged that he received and read
on May 21, Superintendent Spitz’s determination allowing him the
Tallit and Tefillin.
(Dkt. No. 21-2 at Tf 34.) Indeed, Defendant Leis unequivocally states, “At no time during
[PJlaintiff s incarceration at the [GCJ] between February 26 and June 19, 2015, did I ‘overrule,
‘reverse’ or otherwise became involved in a Grievance filed by Plaintiff regarding his religious
items.” Id. at ^ 35. Further, Defendant Leis was not aware of any efforts made by Plaintiff to
have the items brought to the jail after Superintendent Spitz’s May 20, 2015, decision, and prior
to his release on June 19, 2015. Id. at 36.
Plaintiff has offered no evidence, admissible or otherwise, to rebut Defendant Leis’
affidavit. (See Dkt. Nos. 26; 26-1; 26-2.) Instead, Plaintiff argues, in wholly conclusory and
speculative fashion, that Defendant Leis “did participate in the investigation or determination of
[P]laintiff s Grievance No. 15-0007.” (Dkt. No. 26 at 118.) He also “maintains that [Defendant
Leis] was involved in the determination of Grievance No. 15-0007.” Id. at If 19. However,
assertions of personal involvement that are merely speculative are insufficient to establish a
triable issue of fact. See e.g., Brown v. Artus, 647 F. Supp. 2d 190, 200 (N.D.N.Y. 2009).

13

Case 9:17-cv-00600-TJM-TWD Document 29 Filed 02/11/19 Page 14 of 77

Upon review, the Court finds the summary judgment record simply does not support
Plaintiffs claim that Defendant Leis was personally involved in any decision whatsoever related
to Plaintiffs First Amendment claims based on his right to possess and use Tallit and Tefillin,
nor does the record support Plaintiffs allegation that Defendant Leis “overruled” the Grievance
Coordinator’s recommendation.
Further, the Court finds Plaintiffs reliance on Defendant Leis’ general knowledge of his
religious affiliation and/or Defendant Leis’ conduct as it related to other areas of his religious
observance, including holiday observances, is misplaced and insufficient to demonstrate personal
involvement in the claims pending in this action. Indeed, in order to prevail on a § 1983 cause of
action against an individual, a plaintiff must show some “tangible connection” between the
unlawful conduct and the defendant. Bass v. Jackson, 790 F.2d 260, 263 (2d Cir. 1986).
Regardless, it is undisputed that Defendant Leis researched the requirements for Passover
on the New York State Department of Corrections and Community Supervision website,
contacted a local Rabbi and consulted with her as to the requirements of Passover, which was to
begin April 3, 2015, and end April 11, 2015, and personally shopped in three different stores to
acquire items needed by Plaintiff for Passover that he was unable to obtain through the GCJ’s
food distributors. (Dkt. No. 21 at

20-22; Dkt. No. 26 at

20-22.) In response to a request

from Plaintiff to have a quiet location in order to pray during Passover, Defendant Leis arranged
for a change in Plaintiffs housing assignment to a location with the maximum amount of
privacy. (Dkt. No. 21 at Tf 23; Dkt. No. 26 at f 23.) Defendant Leis issued a memorandum to
staff detailing the instructions and requirements necessary to be followed for Plaintiff to observe
Passover in the GCJ. (Dkt. No. 21 at Tf 24; Dkt. No. 26 at 14.) Indeed, Plaintiff expressed his
thanks to Defendant Leis by writing: “You have done well. I thank you. Your professionalism

14

Case 9:17-cv-00600-TJM-TWD Document 29 Filed 02/11/19 Page 15 of 77

and diligence to accomplish my Passover will not go unnoticed by High of High Power. God
bless you and Yours.” (Dkt. No. 21 at If 25; Dkt. No. 26 at If 25.)
On May 11, 2015, Plaintiff requested the assistance of Defendant Leis to obtain items
necessary to observe Shavuot in accordance with his Jewish faith from May 23 through May 25,
2015. (Dkt. No. 21 at If 26; Dkt. No. 26 at 126.) On May 20, 2015, Plaintiff sent a note to
Defendant Leis thanking him for the provisions he obtained enabling Plaintiff to observe
Shavuot while incarcerated at the GCJ. (Dkt. No. 21 at ^f 27; Dkt. No. 26 at ^ 23.)
Based on the foregoing, the Court recommends that Defendant Leis’ motion for
summary judgment be granted for lack of personal involvement.6
ACCORDINGLY, it is hereby
RECOMMENDED that Plaintiffs First Amendment Free Exercise claim against
Defendants John/Jane Doe(s) be DISMISSED WITHOUT PREJUDICE; and it is further
RECOMMENDED that Defendant Leis’ motion for summary judgment (Dkt. No. 21)
be GRANTED for lack of personal involvement; and it is further
ORDERED that the Clerk provide Plaintiff with a copy of this Order and ReportRecommendation, along with copies of the unpublished decisions cited herein in accordance
with Lebron v. Sanders, 557 F.3d 76 (2d Cir. 2008) (per curiam).
Pursuant to 28 U.S.C. § 636(b)(1), the parties have fourteen days within which to file
written objections to the foregoing report.7 Such objections shall be filed with the Clerk of the
6 Inasmuch as the Court recommends granting summary judgment to Defendant Leis for lack of
personal involvement, the Court declines to address Defendant Leis’ alternative grounds for
summary judgment. (See Dkt. No. 21-6 at 8-12.)
7 If you are proceeding pro se and are served with this Order and Report-Recommendation by
mail, three additional days will be added to the fourteen-day period, meaning that you have
seventeen days from the date the Order and Report-Recommendation was mailed to you to serve
and file objections. Fed. R. Civ. P. 6(d). If the last day of that prescribed period falls on a
15

Case 9:17-cv-00600-TJM-TWD Document 29 Filed 02/11/19 Page 16 of 77

Court. FAILURE TO OBJECT TO THIS REPORT WITHIN FOURTEEN DAYS WILL
PRECLUDE APPELLATE REVIEW. Roldan v. Racette, 984 F.2d 85 (2d Cir. 1993) (citing
Small v. Sec’y of Health and Human Servs., 892 F.2d 15 (2d Cir. 1989) (per curiam)); 28 U.S.C.
§ 636(b)(1) (Supp. 2013); Fed. R. Civ. P. 72, 6(a).

Dated: February 11,2019
Syracuse, New York
Tnerese Wiley Dancks
United States Magistrate Judge

Saturday, Sunday, or legal holiday, then the deadline is extended until the end of the next day
that is not a Saturday, Sunday, or legal holiday. Fed. R. Civ. P. 6(a)(1)(C).
16

Cole v. A ^»%KrSyd9Pg99pHM-,WP

Document 29 Filed 02/11/19 Page 17 of 77

1999 WL 983876

1999 WL 983876
Only the Westlaw citation is currently available.
United States District Court, S.D. New York.
Craig COLE, Plaintiff,

ORDERED that defendant Pflueger's motion for
summary judgment is granted, and the amended
complaint is dismissed; and it is further
ORDERED that the Clerk of the Court shall enter
judgment accordingly and close this case.

v.

Christopher P. ARTUZ, Superintendent, Green
Haven Correctional Facility, R. Pflueger, A.
Glemmon, Sgt. Stevens, Lt. Haubert, Capt.
W.M. Watford, Capt. T. Healey, and John
Doe # 1-5, all as individuals, Defendants.
No. 93 Civ. 598l(WHP) JCF.
Oct. 28,1999.
Attorneys and Law Firms
Mr. Craig Cole, Bare Hill Correctional Facility, Malone,
New York, Legal Mail, Plaintiff, pro se.
William Toran, Assistant Attorney General, Office of the
Attorney General of the State of New York, New York,
New York, for Defendant.

MEMORANDUM & ORDER
PAULEY, J.
*1 The remaining defendant in this action, Correction
Officer Richard Pflueger, having moved for an order,
pursuant to Fed.R.Civ.P. 56, granting him summary
judgment and dismissing the amended complaint, and
United States Magistrate Judge James C. Francis IV
having issued a report and recommendation, dated
August 20, 1999, recommending that the motion
be granted, and upon review of that report and
recommendation together with plaintiffs letter to this
Court, dated August 28, 1999, stating that plaintiff does
“not contest the dismissal of this action”, it is
ORDERED
that
the
attached
report
and
recommendation of United States Magistrate Judge
James C. Francis IV, dated August 20, 1999, is adopted in
its entirety; and it is further

REPORT AND RECOMMENDA TION
FRANCIS, Magistrate J.
The plaintiff, Craig Cole, an inmate at the Green Haven
Correctional Facility, brings this action pursuant to 42
U.S.C. § 1983. Mr. Cole alleges that the defendant
Richard Pflueger, a corrections officer, violated his First
Amendment rights by refusing to allow him to attend
religious services. The defendant now moves for summary
judgment pursuant to Rule 56 of the Federal Rules of Civil
Procedure. For the reasons set forth below, I recommend
that the defendant's motion be granted.

Background
During the relevant time period, Mr. Cole was an
inmate in the custody the New York State Department
of Correctional Services (“DOCS”), incarcerated at the
Green Haven Correctional Facility. (First Amended
Complaint (“Am.Compl.”) If 3). From June 21, 1993 to
July 15, 1993, the plaintiff was in keeplock because of
an altercation with prison guards. (Am.Compl.ini 1725). An inmate in keeplock is confined to his cell for
twenty-three hours a day with one hour for recreation.
(Affidavit of Anthony Annucci dated Dec. 1, 1994 H
5). Pursuant to DOCS policy, inmates in keeplock must
apply for written permission to attend regularly scheduled
religious services. (Reply Affidavit of George Schneider
in Further Support of Defendants' Motion for Summary
Judgment dated September 9, 1996 (“Schneider Aff.”) If
3). Permission is granted unless prison officials determine
that the inmate’s presence at the service would create
a threat to the safety of employees or other inmates.
(Schneider Aff. If 3). The standard procedure at Green
Haven is for the captain's office to review all requests
by inmates in keeplock to attend religious services.
(Schneider Aff. H 3). Written approval is provided to the
inmate if authorization is granted. (Affidavit of Richard
Pflueger dated April 26, 1999 (“Pflueger Aff.”) 1f 5). The
inmate must then present the appropriate form to the

WESTLAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

1

Cole v. Art

DoCUment29 Filed 02/11/19 Page 18 of 77

1999 WL 983876

gate officer before being released to attend the services.
(Pflueger Aff. ^ 5).
*2 On June 28, 1993, the plaintiff submitted a request
to attend the Muslim services on July 2, 1993. (Request
to Attend Scheduled Religious Services by Keep-Locked
Inmate dated June 28, 1993 (“Request to Attend
Services”), attached as Exh. B to Schneider Aff.) On
June 30,1993, a supervisor identified as Captain Warford
signed the request form, indicating that the plaintiff had
received permission to attend the services. (Request to
Attend Services). Shortly before 1:00 p.m. on July 2,1993,
the plaintiff requested that Officer Pflueger, who was on
duty at the gate, release him so that he could proceed to
the Muslim services. (Pflueger Aff. K 3). However, Officer
Pflueger refused because Mr. Cole had not presented the
required permission form. (Pflueger Aff. T| 3). The plaintiff
admits that it is likely that he did not receive written
approval until some time thereafter. (Deposition of Craig
Cole dated February 28, 1999 at 33-35, 38).
On August 25, 1993, the plaintiff filed suit alleging
that prison officials had violated his procedural due
process rights. On December 4, 1995, the defendants
moved for summary judgment. (Notice of Defendants'
Motion for Summary Judgment dated December 4,1995).
The Honorable Kimba M. Wood, U.S.D.J., granted the
motion and dismissed the complaint on the grounds that
the plaintiff failed to show that he had been deprived of
a protected liberty interest, but she granted the plaintiff
leave to amend. (Order dated April 5, 1997). On May 30,
1997, the plaintiff filed an amended complaint, alleging
five claims against several officials at the Green Haven
Correctional Facility. (Am.Compl.) On November 16,
1998, Judge Wood dismissed all but one of these claims
because the plaintiff had failed to state a cause of action
or because the statute of limitations had elapsed. (Order
dated Nov. 16, 1998). The plaintiffs sole remaining claim
is that Officer Pflueger violated his First Amendment
rights by denying him access to religious services on July
2,1993. The defendant now moves for summary judgment
on this issue, arguing that the plaintiff has presented no
evidence that his First Amendment rights were violated.
In addition, Officer Pflueger contends that he is entitled
to qualified immunity. (Defendants' Memorandum of
Law in Support of Their Second Motion for Summary
Judgment).

Pursuant to Rule 56 of the Federal Rules of Civil
Procedure, summary judgment is appropriate where “the
pleadings, depositions, answers to interrogatories, and
admissions on file, together with the affidavits, if any,
show that there is no genuine issue as to any material
fact and that the moving party is entitled to judgment as
a matter of law.” Fed.R.Civ.P. 56(c); see also Tomka v.
Seiler Corp., 66 F.3d 1295,1304 (2d Cir.1995); Richardson
v. Selsky, 5 F.3d 616,621 (2d Cir. 1993). The moving party
bears the initial burden of demonstrating “the absence
of a genuine issue of material fact.” Celotex Corp. v.
Catrett, All U.S. 317, 323 (1986). Where the movant
meets that burden, the opposing party must come forward
with specific evidence demonstrating the existence of a
genuine dispute concerning material facts. Fed.R.Civ.P.
56(c); Anderson v. Liberty Lobby, Inc., All U.S. 242,
249 (1986). In assessing the record to determine whether
there is a genuine issue of material fact, the court must
resolve all ambiguities and draw all factual inferences
in favor of the nonmoving party. Anderson, All U.S. at
255; Vann v. City of New York, 72 F.3d 1040, 1048—
49 (2d Cir.1995). But the court must inquire whether
“there is sufficient evidence favoring the nonmoving party
for a jury to return a verdict for that party” and grant
summary judgment where the nonmovant's evidence is
conclusory, speculative, or not significantly probative.
Anderson, All U.S. at 249-50 (citation omitted). “The
litigant opposing summary judgment may not rest upon
mere conclusory allegations or denials, but must bring
forward some affirmative indication that his version of
relevant events is not fanciful.” Podell v. Citicorp Diners
Club, Inc., 112 F.3d 98, 101 (2d Cir.1997) (citation and
internal quotation omitted); Matsushita Electric Industrial
Co. v. Zenith Radio Corp., 475 U.S. 574, 586 (1986) (a non­
moving party “must do more than simply show that there
is some metaphysical doubt as to the material facts”);
Goenaga v. March of Dimes Birth Defects Foundation,
51 F.3d 14, 18 (2d Cir.1995) (nonmovant “may not rely
simply on conclusory statements or on contentions that
the affidavits supporting the motion are not credible”)
((citations omitted)). In sum, if the court determines that
“the record taken as a whole could not lead a rational
trier of fact to find for the non-moving party, there is no
‘genuine issue for trial.” ’ Matsushita Electric Industrial
Co., 475 U.S. at 587 (quoting First National Bank of
Arizona v. Cities Service Co., 391 U.S. 253, 288 (1968));
Montana v. First Federal Savings & Loan Association, 869
F.2d 100, 103 (2d Cir. 1989).

A. Standardfor Summary Judgment
WE5TLAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

2

Cole v. Arttem,Wo-®dWg£liW-W

Document 29 Filed 02/11/19 Page 19 of 77

1999 WL 983876

*3 Where a litigant is pro se, his pleadings should
be read liberally and interpreted “to raise the strongest
arguments that they suggest.” McPherson v. Coombe, 174
F.3d 276, 280 (2d Cir.1999) (quoting Burgos v. Hopkins,
14 F.3d 787, 790 (2d Cir.1994)). Nevertheless, proceeding
pro se does not otherwise relieve a litigant from the
usual requirements of summary judgment, and a pro
se party's “bald assertion,” unsupported by evidence,
is not sufficient to overcome a motion for summary
judgment. See Carey v. Crescenzi, 923 F.2d 18, 21 (2d
Cir.1991); Gittens v. Garlocks Sealing Technologies, 19
F.Supp.2d 104, 110 (W.D.N.Y.1998); Howard Johnson
International, Inc. v. HBS Family, Inc., No. 96 Civ.
7687, 1998 WL 411334, at 3 (S.D .N.Y. July 22,
1998); Kadosh v. TRW, Inc., No. 91 Civ. 5080, 1994
WL 681763, at *5 (S.D.N.Y. Dec. 5, 1994) (“the work
product of pro se litigants should be generously and
liberally construed, but [the pro se' s] failure to allege
either specific facts or particular laws that have been
violated renders this attempt to oppose defendants'
motion ineffectual”); Stinson v. Sheriffs Department, 499
F.Supp. 259,262 (S.D.N.Y. 1980) (holding that the liberal
standard accorded to pro se pleadings “is not without
limits, and all normal rules of pleading are not absolutely
suspended”).

B. Constitutional Claim
It is well established that prisoners have a constitutional
right to participate in congregate religious services even
when confined in keeplock. Salahuddin v. Coughlin, 993
F.2d 306, 308 (2d Cir.1993); Young v. Coughlin, 866 F.2d
567, 570 (2d Cirl989). However, this right is not absolute.
See Benjamin v. Coughlin, 905 F.2d 571, 574 (2d Cir.1990)
(right to free exercise balanced against interests of prison
officials). Prison officials can institute measures that limit
the practice of religion under a “reasonableness” test that
is less restrictive than that which is ordinarily applied
to the alleged infringement of fundamental constitutional
rights. O'Lone v. Estate of Shaabazz, 482 U.S. 342, 349
(1986). In O'Lone, the Court held that “when a prison
regulation impinges on inmates' constitutional rights, the
regulation is valid if it is reasonably related to legitimate
penological interests.” Id. at 349 (quoting Turner v. Safley,
482 U.S. 78, 89 (1987)). The evaluation of what is an
appropriate and reasonable penological objective is left
to the discretion of the administrative officers operating
the prison. O'Lone, 482 U.S. at 349. Prison administrators
are “accorded wide-ranging deference in the adoption and

execution of policies and practices that in their judgment
are needed to preserve internal order and discipline and to
maintain institutional security.” Bell v. Wolfish, 441 U.S.
520, 547(1979).
The policy at issue here satisfies the requirement that a
limitation on an inmate's access to religious services be
reasonable. The practice at Green Haven was to require
inmates in keeplock to present written approval to the
prison gate officer before being released to attend religious
services. This policy both accommodates an inmate's right
to practice religion and allows prison administrators to
prevent individuals posing an active threat to security
from being released. The procedure is not overbroad since
it does not permanently bar any inmate from attending
religious services. Rather, each request is decided on a
case-by-case basis by a high ranking prison official and
denied only for good cause.
*4 Furthermore, in order to state a claim under §
1983, the plaintiff must demonstrate that the defendant
acted with deliberate or callous indifference toward the
plaintiffs fundamental rights. See Davidson v. Cannon
474 U.S. 344, 347^48 (1986) (plaintiff must show
abusive conduct by government officials rather than mere
negligence). Here, there is no evidence that the defendant
was reckless or even negligent in his conduct toward
the plaintiff or that he intended to violate the plaintiffs
rights. Officer Pflueger's responsibility as a prison gate
officer was simply to follow a previously instituted policy.
His authority was limited to granting access to religious
services to those inmates with the required written
permission. Since Mr. Cole acknowledges that he did
not present the necessary paperwork to Officer Pflueger
on July 2, 1993, the defendant did nothing improper in
denying him access to the religious services. Although it is
unfortunate that the written approval apparently did not
reach the plaintiff until after the services were over, his
constitutional rights were not violated.
1

l

In light of this finding, there is no need to consider the
defendant's qualified immunity argument.

Conclusion
For the reasons set forth above, I recommend that the
defendant's motion for summary judgment be granted and
judgment be entered dismissing the complaint. Pursuant
to 28 U.S.C. § 636(b)(1) and Rules 72, 6(a), and 6(e) of
the Federal Rules of Civil Procedure, the parties shall

WESTIAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

3

Cole v. Art

Document 29 Filed 02/11/19 Page 20 of 77

1999 WL 983876

have ten (10) days to file written objections to this report
and recommendation. Such objections shall be filed with
the Clerk of the Court, with extra copies delivered to
the chambers of the Honorable William H. Pauley III,
Room 234, 40 Foley Square, and to the Chambers of the
undersigned, Room 1960, 500 Pearl Street, New York,
New York 10007. Failure to file timely objections will
preclude appellate review.
End of Document

Respectfully submitted,

All Citations
Not Reported in F.Supp.2d, 1999 WL 983876

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

WEST LAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

4

Johnson

^

Filed 02/11/19

Page 21 of 77

2007 WL 3046703

2007 WL 3046703
Only the Westlaw citation is currently available.
United States District Court,
N.D. New York.
John Earl JOHNSON, Plaintiff,

prejudice as to defendant Pecora. Objections to the Report
Recommendation have been filed by the plaintiff.
Based upon a de novo review of the portions of
the Report-Recommendation to which the plaintiff has
objected, the Report-Recommendation is accepted and
adopted. See 28 U.S.C. 636(b)(1).

v.

Joseph GUIFFERE1 and John
Pecora, Administrator, Defendants.
l

Defendant Joseph A. Guiffere, who is alleged
to have been a corrections sergeant at the
Montgomery County Jail during the times relevant
to plaintiffs claims, was mistakenly named by the
plaintiff in his complaint as Sergeant Guiffery. In
my earlier report and recommendation, dated May
17,2005,1 directed the clerk to revise his records to
reflect that defendant's name as Sergeant Guiffrie.
See Dkt. No. 48. Because it now appears that the
proper spelling of this defendant's name is Guiffere,
I will once again ask the clerk's office to adjust its
records accordingly.

Accordingly, it is
ORDERED that
1. The defendant Sergeant Guiffere's motion for summary
judgment is GRANTED;
2. The complaint is DISMISSED in all respects, with
prejudice with regard to defendant Guiffere;
3. The complaint is DISMISSED in all respects, without
prejudice as to defendant Pecora; and
4. The Clerk shall file judgment accordingly.
IT IS SO ORDERED.

No. 9:04-CV-57.
Oct. 17, 2007.
Attorneys and Law Firms
John Earl Johnson, Albany, NY, pro se.
Donohue Sabo, Fred Hutchison, Esq., Kenneth G.
Varlely, Esq., of Counsel, Albany, NY, for Defendant
Guiffere.

ORDER

REPORT AND RECOMMENDATION
DAVID E. PEEBLES, U.S. Magistrate Judge.
Plaintiff John Earl Johnson, who is now a federal prison
inmate, has commenced this action pursuant to 42 U.S.C.
§ 1983 alleging violation of his constitutional rights during
a one and one-half month period while confined as a
federal detainee within the Montgomery County Jail
(“MCJ”). Johnson, a practicing Muslim, claims that jail
officials at the MCJ violated his constitutional rights by
depriving him of a diet consistent with his religious beliefs.

DAVID N. HURD, United States District Judge.
*1 Plaintiff, John Earl Johnson, brought this civil
rights action pursuant to 42 U.S.C. § 1983. In a Report
Recommendation dated August 10, 2007, the Honorable
David E. Peebles, United States Magistrate Judge,
recommended that the defendant Sergeant Guiffere's
motion for summary judgment be granted and the
plaintiffs complaint be dismissed in all respects, with
prejudice regarding defendant Guiffere, but without

Currently pending before the court is a motion
by Sergeant Guiffere, the lone remaining defendant
appearing in the action, seeking the entry of summary
judgment dismissing plaintiffs claims against him.
Defendant's motion is predicated upon his assertion that
the policy in place at the MCJ, requiring only that Islamic
inmates be provided a “no pork” diet but that requests
for vegetarian or other religious alternative meals be
denied, is constitutional under existing law. Defendant
Guiffere further contends that if a constitutional violation

WESTLAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

1

Johnson vC*.?SWiBi;mi»nmTOc,BPCUment 29 Filed 02,11,19 Pa°e 22 °f 77
2007 WL 3046703
occurred, he is nonetheless entitled to qualified immunity
from suit based upon the legal uncertainties surrounding
plaintiffs claims. For the reasons set forth below, I
recommend that Guiffere's summary judgment motion
be granted and that plaintiffs claims against him be
dismissed on the basis of qualified immunity.

I. BACKGROUND
At the times relevant to his complaint the plaintiff, who
subscribes to strict Islamic religious tenets, was a federal
detainee held in the custody of the United States Marshals
Service, and incarcerated within the MCJ pursuant to an
apparent arrangement between that agency and officials
operating the facility for the housing of federal prisoners
awaiting trial and/or sentencing. Complaint (Dkt. No.
1) U 3, Facts
1, 20; see also Defendant's Motion
for Summary Judgment (Dkt. No. 62) Exh. B, at 37.
On June 13, 2003, following his transfer into the MCJ,
plaintiff informed jail officials that his religion required
he be fed meals consistent with his Islamic beliefs, though
without providing elaboration regarding the diet being
requested.2 Complaint (Dkt. No. 1), Facts UU 1, 2;
Johnson Aff. (Dkt. No. 30) 1. After an ensuing series
of discussions with various prison officials at the MCJ
regarding the issue, plaintiff formalized his dietary request
on June 16, 2003 through the submission of a special
diet request form asking that he not be served any meats
“such as beef, chicken, turkey etc.” because of his religious
affiliation. Johnson Aff. (Dkt. No. 30)
1-2; Complaint
(Dkt. No. 1), Facts IflJ 2-9; see also Guiffere Aff. (Dkt.
No. 33-4) Exh. B. That request was denied on June 18,
2003 by defendant Guiffere, who responded that the MCJ
is a “no pork facility” which does “not honor vegetarian
diets.” Guiffere Aff. (Dkt. No. 33-4) Exh. B; Complaint
(Dkt. No. 1), Facts H 12.
2

Plaintiff apparently adheres to a strict Islamic diet,
which has been described by one court as follows:
[practicing Muslims eat food that is Halal, which
means allowed or lawful. The opposite of Halal
is Haram, which means prohibited or unlawful.
A Halal diet includes fruits, vegetables and all
things from the sea. The flesh of herbivorous
animals, such as cows, lambs, chickens and
turkeys, is Halal if it is slaughtered with
the appropriate prayer and in the appropriate
manner.... Haram items include pork and all
pork by-products, carrion and the flesh of
carnivorous animals, such as cat, dog, rat,

lion, tiger, and eagle.... Halal does not require
separate preparation and serving facilities after
Halal meat is slaughtered according to ritual.
Abdul-Malik v. Goord, No. 96 CIV. 1021,1997 WL
83402, at *1 (S.D.N.Y. Feb. 27, 1997); see also
Smith v. Nuttal, No. 04-CV-0200, 2007 WL 837111,
at *1 n. 3 (W.D.N.Y. Mar. 14, 2007). During his
deposition, plaintiff explained the four mandatory
characteristics of properly prepared Halal food at
length by quoting a translation of the relevant
sections of the Koran (Quran). See Defendant's
Motion for Summary Judgment (Dkt. No. 62) Exh.
B, at 18-22,
*2 Plaintiff filed a formal grievance regarding the
denial of his special dietary request on June 18, 2003.
Complaint (Dkt. No. 1), Facts K 13; Johnson Aff. (Dkt.
No. 30) 3. That grievance was denied by the facility's
grievance coordinator, Candus M. Kwiatkowski, on June
25, 2003, based upon her finding that the facility's policy
of reasonably accommodating prisoners' religious dietary
beliefs had been followed. Complaint (Dkt. No. 1), Facts
1}14; Johnson Aff. (Dkt. No. 30) f 5. That grievance denial
was later upheld on appeal to John F. Pecora, the facility's
chief administrative officer, on June 27, 2003. Complaint
(Dkt. No. 1), Facts 1| 19; Johnson Aff. (Dkt. No. 30) U 7.
Plaintiff appealed the matter further to the Citizens' Policy
and Complaint Review Council (the “CPCR Council”)
on or about June 27, 2003. Complaint (Dkt. No. 1),
Facts If 19; Johnson Aff. (Dkt. No. 30) f 8. While
plaintiff, who was transferred out of the MCJ on July 29,
2003, see Complaint (Dkt. No. 1), Facts 1) 20, maintains
that he never received a response with respect to that
appeal, defendants assert that the CPCR Council voted
on November 19,2003 to deny the grievance, and notified
both the Montgomery County Sheriff and the plaintiff
of that determination by letter dated November 25, 2003
from Daniel B. Reardon, Commissioner and Chair of the
New York Commission of Correction. Guiffere Aff. (Dkt.
No. 33) f 10.

II. PROCEDURAL HISTORY
Plaintiff commenced this action on January 16, 2004.
Complaint (Dkt. No. 1). In his complaint, plaintiff named
as defendants the CPCR Council as an entity, as well
as John F. Pecora, the Administrator of the MCJ, and
■y

Sergeant Guiffere, a corrections employee at the facility.
Id. Plaintiffs complaint asserts various constitutional
claims stemming from the denial of his dietary request,

WESTLAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

2

Johnson »c«.?oW;fteS8mWpW<R2oBPcument 29 Filed 02/11/19 pa°e 23 of 77
2007 WL 3046703

including interference with the free exercise of his religious
beliefs, procedural and substantive due process violations,
and the denial of equal protection, and seeks recovery of
compensatory and punitive damages. Id.
3

Defendant Pecora has neither been served, nor
has he appeared in the action. See Dkt. Nos. 13,
16, 22. In light of plaintiffs failure to serve him
within the allotted 120 days under Rule 4(m) of
the Federal Rules of Civil Procedure, and in the
absence of anything which would constitute good
cause to extend that period, plaintiffs claims against
defendant Pecora are subject to dismissal, without
prejudice. Fed.R.Civ.P. 4(m); see Shuster v.. Nassau
County, No. 96 Civ. 3635, 1999 WL 9847, at *1
(S.D.N.Y. Jan. 11, 1999) (Rule 4(m) authorizes
dismissal where no service within 120 days after
filing of the complaint); Michelson v. Merrill Lynch,
Pierce, Fenner & Smith, Inc., 709 F.Supp. 1279, 1282
(S.D.N.Y.1989) (citing Mississippi Publ'g Corp. v.
Murphree, 326 U.S. 438, 444-45, 66 S.Ct. 242, 245-46
(1946)) (court lacks jurisdiction until defendants
properly served with summons and complaint).

On July 15, 2004, in lieu of answering, the CPCR Council
moved seeking dismissal of plaintiffs claims against it
for failure to state a cause of action upon which relief
may be granted, pursuant to Rule 12(b)(6) of the Federal
Rules of Civil Procedure. Dkt. Nos. 10, 11. In a report
dated May 17,2005,1 recommended that all claims against
the CPCR Council as an entity be dismissed as barred
by absolute immunity under the Eleventh Amendment,
with leave for plaintiff to replead to assert claims against
individual members of the council, and further urged
the court to deny plaintiffs cross-motion for summary
judgment on the merits of his claims.4 Dkt. No. 48. Those
recommendations were adopted by order issued by U.S.
District Judge David N. Hurd on December 7, 2005. Dkt.
No. 51.
4

Plaintiff has not availed himself of this limited
opportunity to replead.

On October 31, 2006 defendant Guiffere, the only other
defendant served in the action, filed a summary judgment
motion with the court, arguing both that the denial of
plaintiffs dietary request did not violate a constitutional
right because it was reasonably related to a legitimate
penological interest, and that in any event he is protected
from suit under the doctrine of qualified immunity. Dkt.
No. 62. Plaintiff responded in opposition to Guiffere's

motion by submission filed on January 22, 2007, Dkt. No.
67, and defendant Guiffere has since countered with the
filing on February 1, 2007 of a reply memorandum in
response to plaintiffs opposition. Dkt. No. 69. Defendant
Guiffere's summary judgment motion, which is now ripe
for determination, has been referred to me for the issuance
of a report and recommendation, pursuant to 28 U.S.C.
§ 636(b)(1) (B) and Northern District of New York Local
Rule 72.3(c). See also Fed.R.Civ.P. 72(b).

III. DISCUSSION
A. Summary Judgment Standard
*3 Summary judgment is governed by Rule 56 of the
Federal Rules of Civil Procedure. Under that provision,
summary judgment is warranted when “the pleadings,
depositions, answers to interrogatories, and admissions
on file, together with the affidavits ... show that there
is no genuine issue as to any material fact and that the
moving party is entitled to a judgment as a matter of law.”
Fed.R.Civ.P. 56(c); see Celotex Corp. v. Catrett, 477 U.S.
317, 322, 106 S.Ct. 2548, 2552 (1986); Anderson v. Liberty
Lobby, Inc., All U.S. 242, 247, 106 S.Ct. 2505, 2509-10
(1986); Security Ins. Co. of Hartford v. Old Dominion
Freight Line, Inc., 391 F.3d 77, 82-83 (2d Cir.2004). A
fact is “material”, for purposes of this inquiry, if it “might
affect the outcome of the suit under the governing law.”
Anderson, All U.S. at 248, 106 S.Ct. at 2510; see also
Jeffreys v. City of New York, 426 F.3d 549, 553 (2d
Cir.2005) (citing Anderson ). A material fact is genuinely in
dispute “if the evidence is such that a reasonable jury could
return a verdict for the nonmoving party.” Anderson, All
U.S. at 248, 106 S.Ct. at 2510. Though pro se plaintiffs
are entitled to special latitude when defending against
summary judgment motions, they must establish more
than mere “metaphysical doubt as to the material facts.”
Matsushita Elec. Indus. Co. v. Zenith Radio Corp., 475
U.S. 574, 586, 106 S.Ct. 1348, 1356 (1986) (citations
omitted); but see Vital v. Interfaith Med. Ctr., 168 F.3d
615, 620-21 (2d Cir.1999) (noting obligation of court to
consider whether pro se plaintiff understood nature of
summary judgment process).
When summary judgment is sought, the moving party
bears an initial burden of demonstrating that there is no
genuine dispute of material fact to be decided with respect
to any essential element of the claim in issue; the failure to
meet this burden warrants denial of the motion. Anderson,
All U.S. at 250 n. 4, 106 S.Ct. at 2511 n. 4; Security

WESTLAW © 2019 Thomson Reuters. No claim to original U.S. Government: Works.

3

Johnson vC^?Sftffe88mm'W20{?PCUment 29 Filed 02/11/19 P39e 24 °* 77
2007 WL 3046703
Ins., 391 F.3d at 83. In the event this initial burden is
met, the opposing party must show, through affidavits or
otherwise, that there is a material issue of fact for trial.
Fed.R.Civ.P. 56(e); Celotex, All U.S. at 324, 106 S.Ct. at
2553; Anderson, All U.S. at 250, 106 S.Ct. at 2511.
When deciding a summary judgment motion, a court must
resolve any ambiguities, and draw all inferences from
the facts, in a light most favorable to the nonmoving
party. Jeffreys, 426 F.3d at 553; Wright v. Coughlin,
132 F.3d 133, 137-38 (2d Cir.1998). Summary judgment
is inappropriate where “review of the record reveals
sufficient evidence for a rational trier of fact to find in
the [non-movant's] favor.” Treglia v. Town ofManlius, 313
F.3d 713, 719 (2d Cir.2002) (citation omitted); see also
Anderson, All U.S. at 250, 106 S.Ct. at 2511 (summary
judgment is appropriate only when “there can be but one
reasonable conclusion as to the verdict”).

B. First Amendment Free Exercise Claim 5
5

Although his complaint does not contain such a
cause of action, plaintiffs factual allegations could
support a claim under the Religious Land Use and
Institutionalized Persons Act of 2000 (“RLUIPA”),
which provides, in pertinent part, that
[n]o government shall impose a substantial
burden on the religious exercise of a person
residing in or confined to an institution ....
even if the burden results from a rule of
general applicability, unless the government
demonstrates that imposition of a burden on
that person-1) is in furtherance of a compelling
governmental interest; and 2) is the least
restrictive means of furthering that compelling
governmental interest.
42 U.S.C. § 2000cc-l(a). Because the principles
which inform analysis of plaintiffs free exercise
claim are similar to those applicable to his
potential RLUIPA cause of action, although the
two claims are analyzed under somewhat different
frameworks, see Salahuddin v. Goord, 467 F.3d 263,
274 (2d Cir.2006), and my finding of defendant's
entitlement to qualified immunity applies equally
to this potential claim, it is unnecessary to
separately determine whether plaintiffs pro se
complaint should be liberally construed as asserting
such a cause of action.

*4 In his summary judgment motion, Guiffere initially
argues that plaintiffs First Amendment rights were not
abridged while being held in the MCJ, since New York

State guidelines for religious dietary needs and the
facility's local practices, providing that a “pork-free”
meal satisfies the constitutional dietary requirements for
Muslim inmates, are reasonably related to legitimate
penological interests. Defendant's Motion for Summary
Judgment (Dkt. No. 62-6) at 2. Plaintiff counters that the
budgetary concerns implicitly advanced by the defendant
in defense of the relevant dietary practices at the MCJ
do not support their position, since all that he asked was
that his meals consist only of fish and vegetables, not that
prison officials incur the expense of preparing Halal meals.
The First Amendment to the United States Constitution
guarantees the right to the free exercise of religion.6
Cutter v. Wilkinson, 544 U.S. 709, 719, 125 S.Ct. 2113,
2020 (2005). That clause, as is true with regard to the First
Amendment generally, applies to prison inmates, subject
to appropriate limiting factors. Ford v. McGinnis, 352
F.3d 582, 588 (2d Cir.2003) ( “Prisoners have long been
understood to retain some measure of the constitutional
protection afforded by the First Amendment's Free
Exercise Clause.”) (citing Pell v. Procunier, 417 U.S. 817,
822, 94 S.Ct. 2800, 2804 (1974)). Thus, for example,
under accepted free exercise jurisprudence inmates are
guaranteed the right to participate in congregate religious
services under most circumstances. See, e.g., Salahuddin v.
Coughlin, 993 F.2d 306, 308 (2d Cir.1993) (citing cases).
6

That amendment provides, in pertinent part,
that “Congress shall make no law respecting an
establishment of religion, or prohibiting the free
exercise thereof.” U.S. Const, amend. I.

The right of prison inmates to exercise their religious
beliefs, however, is not absolute or unbridled, and is
subject to valid penological concerns, including those
relating to institutional security. O'Lone- v. Estate of
Shabazz, 482 U.S. 342, 348, 107 S.Ct. 2400, 2404 (1987);
Salahuddin, 993 F.2d at 308. A determination of whether
the refusal to permit attendance at a religious service,
for example, hinges upon the balancing of an inmate's
First Amendment free exercise right, against institutional
needs of officials tasked with the increasingly daunting
task of operating prison facilities; that determination is
“one of reasonableness, taking into account whether the
particular [act] affecting [the] constitutional right ... is
‘reasonably related to legitimate penological interests.’ “
Benjamin v. Coughlin, 905 F.2d 571, 574 (2d Cir.) (quoting
Turner v. Safley, 482 U.S. 78, 89, 107 S.Ct. 2254, 2261
(1987)), cert, denied, 498 U.S. 951, 111 S.Ct. 372 (1990).

WESTLAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

4

Johnson ,C«e?oWifKi99mmpW2oBPCUment 29 Filed 02/11/19 Pa9e 25 0f 77
2007 WL 3046703
8

Undeniably, the reach of the First Amendment's free
exercise clause extends beyond mere attendance at
congregate religious services into other aspects of prison
life including, pertinently, that of an inmate's diet and
participation in religious meals. McEachin v. McGuinnis,
357 F.3d 197, 204-05 (2d Cir.2004); Ford, 352 F.3d at
597. Ordinarily the Eighth Amendment establishes as
a constitutional minimum the requirement that inmates
be provided with nutritionally adequate meals; provided
this threshold is met, prison officials retain considerable
discretion in determining dietary constituents. Word
v. Croce, 169 F.Supp.2d 219, 226 (S.D.N.Y.2001).
This requirement, however, is augmented by the First
Amendment's free exercise clause, which is broad enough
to include an inmate's “clearly established” right “to a
diet consistent with his or her religious scruples.” Ford,
352 F.3d at 597; see also Bass v. Coughlin, 976 F.2d 98,
99 (2d Cir.1992). “Courts have generally found that to
deny prison inmates the provision of food that satisfies the
dictates of their faith does unconstitutionally burden their
free exercise rights.” McEachin, 357 F.3d at 203. A free
exercise claim arising from such a denial brings into focus
the tension between the right of prison inmates to freely
enjoy and exercise their religious beliefs on the one hand,
and the necessity of prison officials to further legitimate
penological interests on the other hand. See Benjamin v.
Coughlin, 905 F.2d 571, 574 (2d Cir.1990).
*5 Examination of plaintiffs free exercise claim entails
application of a three-part, burden shifting framework.
Farid v. Smith, 850 F.2d 917, 926 (2d Cir.1988). A party
asserting a free exercise claim bears the initial burden
of establishing that the disputed conduct infringes on
his or her sincerely held religious beliefs. Salahuddin
v. Goord, 467 F.3d 263, 274-75 (2d Cir.2006); King
v. Bennett, No. 02-CV-349, 2007 WL 1017102, at *4
(W.D.N.Y. Mar. 30, 2007). Importantly, in evaluating
this factor the court must be wary of “ ‘questioning]
the centrality of particular beliefs or practices to a faith,
or a validity of particular litigants' interpretations of
those creeds [,]’ “ McEachin, 357 F.3d at 201 (quoting
Hernandez v. Comm'r of Internal Revenue, 490 U.S. 680,
699, 109 S.Ct. 2136, 2148-49 (1989)), and instead may
only consider whether the particular plaintiff holds a
belief which is religious in nature. Ford, 352 F.3d at
590; King, 2007 WL 1017102, at *4. Once a plaintiff
has made this showing, the burden then shifts to the
defendant to identify a legitimate penological purpose

justifying the decision under scrutiny. Salahuddin, 467
F.3d at 274-75; Livingston v. Griffen, No. 04-CV-00607,
2007 WL 1500382, at *15 (W.D.N.Y. May 21, 2007). In
the event such a penological interest is articulated, its
reasonableness is then subject to analysis under the test set
out by the Supreme Court in Turner v. Safley, 482 U .S. 78,
107 S.Ct. 2254 (1987). Giano v. Senkowski, 54 F.3d 1050,
1054 (2d Cir.1995); Livingston, 2007 WL 1500382, at *15.
7

Noting in its decision in Ford v. McGinnis a circuit
split over whether prisoners must demonstrate that
a burden on their religious exercise is substantial in
order to establish a free exercise claim, the Second
Circuit declined to resolve the issue, instead assuming
continued applicability of the substantial burden test.
352 F.3d 582, 592-93 (2d Cir.2003). Recent cases
front this and other courts suggest that the Second
Circuit resolved this split in its decision in Salahuddin
v. Goord, 467 F.3d 263 (2d Cir.2006) by subscribing
to the substantial burden test. See, e.g., Livingston
v. Griffin, No. 04-CV-00607, 2007 WL 1500382, at
*15 (N .D.N.Y. May 21, 2007) (Singleton, J.); King
v. Bennett, No. 02-CV-349, 2007 WL 1017102, at *4
(W.D.N.Y. Mar. 30, 2007). While harboring some
doubt that the Second Circuit has in fact laid the
matter to rest, I find it unnecessary to take a stance
regarding this issue.

8

While this framework is particularly well-suited for
analysis of an agency wide or facility policy or practice
affecting inmates generally, it applies with equal force
to individual decisions such as that involved in this
case, which impacts only a single inmate. Salahuddin,
467 F.3d at 274, n. 4.

Under Turner, the court must determine “whether the
governmental objective underlying the regulations at issue
is legitimate and neutral, and [whether] the regulations
are rationally related to that objective.” Thornburgh v.
Abbott, 490 U.S. 401,414,109 S.Ct. 1874,1882 (1989). The
court then asks whether the inmate is afforded adequate
alternative means for exercising the right in question. Id. at
417,109 S.Ct. at 1884. Lastly, the court must examine “the
impact that accommodation of the asserted constitutional
right will have on others (guards and inmates) in the
prison.” Id. at 418, 109 S.Ct. 1884. Decisions rendered
since Turner have clarified that when applying this test, a
court should examine “the existence of alternative means
of facilitating exercise of the right that have only a de
minimis adverse effect on valid penological interests.”
Smith v. Nuttal, No. 04-CV-0200, 2007 WL837111, at *5

WESTLAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

5

Johnson MWKWMaBP" 29 Filed 02/11/19 Pa0e 26 °f 77
2007 WL 3046703

(W.D.N.Y. Mar. 14, 2007) (citing Salahuddin, 467 F.3d at
274).

In his motion, defendant does not question the sincerity
of plaintiffs Islamic religious beliefs. Plaintiff maintains
that by providing him with meals containing meat other
than pork, defendants have interfered with free exercise
of his religion, the beliefs associated with which require
him to observe a vegetarian diet-with the exception of
fish, which he is permitted to eat. While plaintiff offers
nothing, aside from his naked assertions in this regard,
as evidence that his sincerely held religious beliefs require
such a dietary accommodation, the Second Circuit has
encouraged “courts [to] resist the dangerous temptation
to try to judge the significance of particular devotional
Q

obligations to an observant practitioner of faith.”
McEachin, 357 F.3d at 201. Accordingly, the plaintiff has
satisfied his burden at step one of the inquiry.
9

The Second Circuit had occasion to address this
element-the bonafides of a plaintiffs sincerely held
religious beliefs-in the context of a religious dietary
restriction request made by an inmate in Ford
v. McGinnis, 352 F.3d 582 (2d Cir.2003). While
noting the difficulties inherent in casting upon the
judiciary the task of probing the extent of a plaintiffs
legitimately held beliefs, the court observed that “[a]n
individual claiming violation of free exercise rights
need only demonstrate that the beliefs professed are
‘sincerely held’ and in the individual's ‘own scheme of
things, religious.’ “ Id. at 588 (citations omitted).

*6 It would ordinarily be incumbent at this juncture for
the defendant to articulate palpably legitimate penological
concerns to justify his refusal to provide the plaintiff
with a vegetarian-plus-fish diet. Typically, defendants in
similar cases offer up the financial burden associated
with affording inmates particular diets, including those
involving preparation and serving of Halal meals. See,
e.g., Williams v. Morton, 343 F.3d 212, 217-18 (3d
Cir.2003); Abdul-Malik v. Goord, No. 96 CIV. 1021,
1997 WL 83402, at *4 (S.D.N.Y. Feb. 27, 1997). With
the articulation of such a justification, the focus would
then return to the plaintiff, under the governing test,
to establish that the policy is not reasonably related to
legitimate penological interests. Ford, 352 F.3d at 595-96.
Such an inquiry is particularly fact-laden, and generally
ill-suited for resolution on motion for summary judgment.
See generally Marria v. Broaddus, 200 F.Supp.2d 280,
297 (S.D.N.Y.2002) (holding that fact issues existed

as to whether DOCS' ban on literature and assembly
of religious group was reasonably related to legitimate
penological interests); Show v. Patterson, 955 F.Supp.
182,190-91 (S.D.N.Y. 1997) (finding fact issues precluding
summary judgment regarding whether strip search of
Muslim inmates was reasonably related to legitimate
penological interests).
In this instance the defendant has not offered any
justification for his refusal to provide the plaintiff with the
requested, vegetarian-plus-fish diet, the reasonableness
of which could then be examined under Turner, instead
arguing only his belief that plaintiffs non-pork diet
should satisfy the requirements of mainstream Islamic
religious tenets. Since this represents little more than
an invitation for the court to examine the bonafides of
plaintiffs religious beliefs-an invitation which, the Second
Circuit has counseled, should be firmly resisted-I find
defendant's failure to offer justification for his denial of
plaintiffs dieting request to be fatal to his motion, and
that accordingly he is not entitled to summary judgment in
connection with the merits of plaintiffs First Amendment
free exercise claim.

C. Equal Protection
In addition to raising concerns under the free exercise
clause of the First Amendment, plaintiffs complaint
asserts a cause of action under the equal protection
clause of the Fourteenth Amendment. The essence of that
claim, however, is not well-defined in plaintiffs complaint,
and his response in opposition to defendant's summary
judgment motion fails to illuminate the claim.
The equal protection clause directs state actors to treat
similarly situated people alike. See City of Cleburne v.
Cleburne Living Ctr., 473 U.S. 432, 439, 105 S.Ct. 3249,
3254 (1985). To prove a violation of the equal protection
clause, a plaintiff must demonstrate that he or she was
treated differently than others similarly situated as a result
of intentional or purposeful discrimination directed at
an identifiable or suspect class. See Giano, 54 F.3d at
1057 (citing, inter alia, McCleskey v. Kemp, 481 U.S.
279, 292, 107 S.Ct. 1756, 1767 (1987)). The plaintiff
must also show that the disparity in treatment “cannot
survive the appropriate level of scrutiny which, in the
prison setting, means that he must demonstrate that his
treatment was not reasonably related to [any] legitimate
penological interests.” Phillips v. Girdich, 408 F.3d 124,
129 (2d Cir.2005) (quoting Shaw v. Murphy, 532 U.S.

WESTIAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

6

Johnson v?«oCT5ffeW-nWpWciBPCUment 29 H'ed 02/11/19 Pa£|e 27 °f 77
2007 WL 3046703
223, 225, 121 S.Ct. 1475, 1477 (2001)) (internal quotation
marks omitted).
*7 It may be that plaintiff asserts an equal protection
violation stemming from the failure of prison officials to
provide him with a diet consistent with his religious beliefs,
while members of other religions are accommodated. In
such a case plaintiffs equal protection claim is properly
analyzed under the framework articulated by the Supreme
Court in Turner. Smith, 2007 WL 837111, at *5.
As is the case with regard to plaintiffs First Amendment
claim, defendant has offered little of value to assist in
determining whether it can be said, as a matter of law,
that plaintiffs dietary request could not be accommodated
consistent with legitimate penological concerns, and that
the disparate treatment afforded to plaintiff, based upon
his religious beliefs, thus did not abridge his rights
to equal protection under the Fourteenth Amendment.
Accordingly, defendant Guiffere is not entitled to
summary judgment at this juncture with regard to the
merits of plaintiffs equal protection claim.

D. Procedural Due Process10
10

Plaintiffs complaint also alleges deprivation of
substantive due process. Because plaintiffs complaint
adequately alleges a violation of the First Amendment
free exercise clause and the denial of equal protection
as guaranteed by the Fourteenth Amendment, there
is no need to resort to the more generic substantive
due process provision for an analysis of those claims.
See Velez v. Levy, 401 F.3d 75, 94 (2d Cir.2005)
(“[W]here a specific constitutional provision prohibits
government action, plaintiffs seeking redress for that
prohibited conduct in a § 1983 suit cannot make
reference to the broad notion of substantive due
process.”). In any event, it cannot be said that
plaintiffs allegations arise to a level sufficient to
offend notions of substantive due process. See id.
(noting alternatively that plaintiffs substantive due
process claim must fail because alleged actions of
defendants were not sufficiently shocking to create
substantive due process violation).

In his complaint plaintiff also asserts a claim for
deprivation of his procedural due process rights. Plaintiffs
procedural due process claim contains two elements.
The first component of that claim derives from plaintiffs
contention that in denying his request for a vegetarian-

plus-fish diet, prison officials at the MCJ failed to
follow their own internal regulations. This element of
plaintiffs due process claim is easily discounted. It is
well-established that no due process claims arise from
the failure of prison officials to follow internal prison
regulations. Rivera v. Wohlrab, 232 F.Supp.2d 117, 123
(S.D.N.Y.2002) (citing Hyman v. Holder, No. 96 Civ.
7748, 2001 WL 262665, at *6 (S.D.N.Y. Mar. 15, 2001)).
The second portion of plaintiffs due process claim stems
from the failure of prison officials to provide a hearing
before denying his request for a religious meal. To
successfully state a claim under 42 U.S.C. § 1983 for
denial of due process, a plaintiff must show that he or
she both (1) possessed an actual liberty interest, and
(2) was deprived of that interest without being afforded
sufficient procedural safeguards. See Tellier v. Fields, 260
F.3d 69, 79-80 (2d Cir.2000) (citations omitted); Hynes v.
Squillance, 143 F.3d 653, 658 (2d Cir.), cert, denied, 525
U.S. 907,119 S.Ct. 246 (1998); Bedoya v. Coughlin, 91 F.3d
349, 351-52 (2d Cir. 1996).
In his papers plaintiff has cited no provision under which
New York has created a liberty interest guarantying
prisoners meals including only vegetables and fish, as
requested by him. Consequently, in order to prevail on
his due process claim plaintiff must establish that the
denial of his request in that regard imposed upon him
“atypical and significant hardship” in relation to the
ordinary incidents of prison life. Sandin v. Conner, 515
U.S. 472, 483-84, 115 S.Ct. 2293, 2300 (1995); see also
McEachin, 357 F.3d at 202-03; Tellier, 280 F.3d at 80;
Hynes, 143 F.3d at 658. Because plaintiffs complaint, even
when most generously construed, fails to contain any such
allegation, his procedural due process claim is subject to
dismissal as a matter of law.

E. Qualified Immunity
*8 In addition to seeking dismissal of plaintiffs claims
on the merits, defendant now presses qualified immunity
as an alternative basis for dismissal of plaintiffs claims
against him.
Qualified immunity shields government officials
performing discretionary functions from liability for
damages “insofar as their conduct does not violate clearly
established statutory or constitutional rights of which
a reasonable person would have known.” Harlow v.
Fitzgerald, 457 U.S. 800, 818, 102 S.Ct. 2727, 2738 (1982)

WESTLAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

7

Johnson

29

Filed 02/11/19

Pa8e 28 °f 77

2007 WL 3046703

(citations omitted). Accordingly, governmental officials
sued for damages “are entitled to qualified immunity if
1) their actions did not violate clearly established law,
or 2) it was objectively reasonable for them to believe
that their actions did not violate such law.” Warren v.
Keane, 196 F.3d 330, 332 (2d Cir.1999) (citing Salim v.
Proulx, 93 F.3d 86, 89 (2d Cir.1996)); see also Zellner v.
Summerlin, 494 F.3d 344, 2007 WL 2067932, at *20-21
(2d Cir. July 20, 2007); Iqbal v. Hasty, 490 F.3d 143
(2d Cir.2007). The law of qualified immunity seeks to
strike a balance between overexposure by government
officials to suits for violations based upon abstract rights
and an unduly narrow view which would insulate them
from liability in connection with virtually all discretionary
decisions. Locurto v. Safir, 264 F.3d 154, 162-63 (2d
Cir.2001); Warren, 196 F.3d at 332. As the Second Circuit
has observed,

immunity
serves
[qualified
important interests in our political
system, chief among them to ensure
that damages suits do not unduly
inhibit officials in the discharge of
their duties by saddling individual
officers with personal monetary
liability and harassing litigation.

Provost v. City of Newburgh, 262 F.3d 146, 160 (2d
Cir.2001) (internal quotations omitted) (citing, inter alia,
Bivens v. Six Unknown Named Agents of the Fed. Bureau
of Narcotics, 456 F.2d 1339, 1348 (2d Cir.1972)).
Analysis of a claim of qualified immunity entails a three
step inquiry. Harhay v. Town ofEllington Bd. of Educ., 323
F.3d 206,211 (2d Cir.2003). As a threshold matter, it must
first be determined whether, based upon the facts alleged,
plaintiff has facially established a constitutional violation.
Id. If the answer to this inquiry is in the affirmative, the
court must then turn its focus to whether the right in
issue was clearly established at the time of the alleged
violation. Id. (citing Saucier v. Katz, 533 U.S. 194,201-02,
121 S.Ct. 2151, 2156 (2001)); see also Poe v. Leonard, 282
F.3d 123,132-33 (2d Cir.2002). Finally, if the plaintiff had
a clearly established, constitutionally protected right that
was violated, he or she must demonstrate that it was not
objectively reasonable for the defendant to believe that his
action did not violate such law. Harhay, 323 F.3d at 211;

Poe, 282 F.3d at 133 (quoting Tierney v. Davidson, 133
F.3d 189, 196 (2d Cir.1998) (quoting, in turn, Salim, 93
F.3d at 89)).
*9 The first two elements, as they apply to the facts of
this case, are not controversial. Addressing the merits of
the plaintiffs free exercise and equal protection claims,
I have found at least the existence of genuinely disputed
material facts precluding a finding, as a matter of law, that
no substantive violation occurred. Moreover, the right
at stake, including of a prison inmate to receive meals
consonant with their religious beliefs, subject only to the
constraints of legitimate penological concerns, was clearly
established at the times in dispute. See, e.g., Ford, 352 F.3d
at 507; Bass, 976 F.2d at 99; Kahane v. Carlson, 527 F.2d
492, 495 (2d Cir. 1975).
It is the third element, addressing on Sergeant Guiffere's
state of mind, that is the focus of his application for
immunity from suit. In this instance, Sergeant Guiffere
asserts-and plaintiff does not contest-that it was his
belief at the relevant times that the prescribed pork-free
diet was in conformance with Johnson's Islamic dietary
restrictions. See, e.g., Guiffere Aff. (Dkt. No. 33-3) ^ 6.
Guiffere's belief in this regard was apparently influenced
in large part by an advisory chart maintained at the MCJ
reflecting that the dietary beliefs of the Islamic (Muslim)
religion require consumption of Kosher meals, to include
“meat, but no pork or pork by-products.” Hutchinson
Aff. (Dkt. No. 33) U 5 and Exh. A. It also should be noted
that at the time in question the provision of pork-free diets
to Islamic inmates had been approved by the New York
courts as “satisfying] the constitutional requirement.” See
Malik v. Coughlin, 158 A.D.2d 833, 834, 551 N.Y.S.2d
418, 418 (3d Dep't 1990) (citing O'Lone, 482 U.S. at
352, 107 S.Ct. at 2406); see also Majid v. Leonardo, 172
A.D.2d 914, 914, 568 N.Y.S.2d 200, 201 (3d Dep't 1991).
Under these circumstances I find that it was objectively
reasonable for the defendant to believe that his actions in
denying plaintiffs request for a vegetarian-plus-fish diet
did not violate Johnson's clearly established constitutional
rights.1' See generally Kind v. Frank, 329 F.3d 979 (8th
Cir.2003).
11

Undeniably, the Second Circuit has been less than
generous in finding qualified immunity in settings
such as that now presented. See Ford, 352 F.3d at
596-98. In Ford, for example, the Second Circuit
rejected a finding of qualified immunity based upon

WE5TLAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

8

Johnson v9«.?6Mi?9M!WM-pW<R2»B?CUment 29

Rled 02/11/19

^ 29 °f 77

2007 WL 3046703

the failure of prison officials to provide an Islamic
inmate with the Eid ul Fitr meal to celebrate the
close of Ramadan, in reliance upon advice from
religious authorities that postponement of the feast
meal was not religiously significant. Id. at 597-98. The
instant case, however, presents a far more compelling
argument for invocation of qualified immunity, based
upon facts which are strikingly similar to those
involved in Kind, in which the Eighth Circuit endorsed
a finding of qualified immunity under analogous
circumstances to those now presented. 329 F.3d at
980-81.
IV. SUMMARY AND RECOMMENDATION
Analysis of plaintiffs substantive free exercise and equal
protection claims turn upon resolution by the factfinder
of critical issues of fact, including whether his sincerely
held religious beliefs require the diet which he requested,
and whether legitimate penological concerns preclude
providing him with the meals sought by him. I find,
however, that a reasonable person in the defendant's
circumstances, denying plaintiffs meal request based
upon an established facility policy and a practice
which has passed state court scrutiny, would not have
appreciated that he or she was violating plaintiffs
clearly established constitutional rights. Accordingly, I
recommend a finding that defendant Guiffere is entitled

to dismissal of plaintiffs claims against him on the ground
of qualified immunity.
*10 Based upon the foregoing, it is therefor hereby
RECOMMENDED that defendant's motion for
summary judgment (Dkt. No. 62) be GRANTED, and the
plaintiffs complaint be DISMISSED in all respects, with
prejudice with respect to defendant Guiffere, but without
prejudice as to defendant Pecora.
Pursuant to 28 U.S.C. § 636(b)(1), the parties have
ten days within which to file written objections to
the foregoing report. Such objections shall be filed
with the Clerk of the Court. FAILURE TO OBJECT
TO THIS REPORT WITHIN TEN DAYS WILL
PRECLUDE APPELLATE REVIEW. 28 U.S.C. §
636(b)(1); Fed.R.Civ.P. 6(a), 6(e), 72; Roldan v. Racette,
984 F.2d 85 (2d Cir.1993).
It is further ORDERED that the Clerk of the Court serve a
copy of this report and recommendation upon the plaintiff
by regular mail and the defendant electronically.

All Citations
Not Reported in F.Supp.2d, 2007 WL 3046703

End of Document

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

WISTLAW © 2019 Thomson Reuters. Ho claim to original U.S. Government Works.

9

Document29 Filed 02/11/19 Page 30 of 77

Reed v. Do
2015 WL 902795

2015 WL 902795
Only the Westlaw citation is currently available.
United States District Court,
N.D. New York.
Benji D. REED, Plaintiff,

specified proposed findings or recommendations to which
the objection is made.” See 28 U.S.C. § 636(b)(1). After
such a review, the Court may “accept, reject, or modify,
in whole or in part, the findings or recommendations
made by the magistrate judge. The judge may also receive
further evidence or recommit the matter to the magistrate
judge with instructions.” Id.

v.

John DOE, 1 and Superintendent,
Eastern Correctional Facility, Defendants.
No. 9:ii-CV-250.

I

Having reviewed the record de novo and having considered
the issues raised in the Defendants' objections, this
Court has determined to accept the recommendation of
Magistrate Judge Peebles for the reasons stated in the
Report-Recommendation.

Signed March 3, 2015.
It is therefore ordered that:
Attorneys and Law Firms
Benji D. Reed, Pine City, NY, for Plaintiff.
Hon. Eric T. Schneiderman, New York State Attorney
General, James Seaman, Esq., Assistant Attorney
General, of Counsel, Albany, NY, for Defendants.

DECISION & ORDER
THOMAS J. McAVOY, Senior District Judge.
*1 This pro se action brought pursuant to 42 U.S.C. §
1983 and state law, alleges violations of Plaintiffs civil
rights as a result of being served contaminated food while
a prisoner at Eastern Correctional Facility in New York.
The matter was referred to David E. Peebles, United
States Magistrate Judge, for a Report-Recommendation
pursuant to 28 U.S.C. § 636(b) and Local Rule 72.3(c).

(1) Defendants' Objections, dkt. # 57, to the ReportRecommendation of Magistrate Judge Peebles, dkt. # 56,
are hereby OVERRULED;
(2) The Report-Recommendation is hereby ADOPTED;
(3) The Defendants' Motion for Summary Judgment,
dkt. # 53, is GRANTED. Plaintiffs claims against
the Defendant Superintendent are hereby DISMISSED
WITH PREJUDICE. Plaintiffs claims against Defendant
John Doe 1 are hereby DISMISSED WITHOUT
PREJUDICE.

IT IS SO ORDERED.
REPORT AND RECOMMENDA TION
DAVID E. PEEBLES, United States Magistrate Judge.

In the Report-Recommendation, dated January 30,
2015, Magistrate Judge Peebles recommends that the
Defendants' Motion for Summary Judgment be granted
with prejudice with respect to the Superintendent and
without prejudice with respect to John Doe, 1. See dkt. #
56. The Plaintiff did not respond to the motion.
Defendants filed timely objections to the ReportRecommendation pursuant to 28 U.S.C. § 636(b)(1),
arguing that the motion should be granted with prejudice
with respect to both the Superintendent and the unnamed
Defendant. When objections to a magistrate judge's
Report-Recommendation are lodged, the Court makes a
“de novo determination of those portions of the report or

Pro se plaintiff Benji D. Reed, a New York State
prison inmate, commenced this action in March 2011
alleging, inter alia, that some of the defendants employed
at the Eastern Correctional Facility violated his civil
rights and committed negligence during the course of
his incarceration in that facility. The scope of this
action has been narrowed as a result motion practice,
and the only remaining cause of action is an Eighth
Amendment conditions of confinement claim asserted
against defendant John Doe 1, who has not been identified
by plaintiff. To assist plaintiff in identifying defendant
John Doe 1, the court substituted the superintendent
of Eastern for purposes of service and discovery only.
Following the close of discovery, the superintendent

WESTIAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

1

Reed v. DoS^SWffi!i-filMfeT3MoWD

Document 29 Filed 02/11/19 Page 31 of 77

2015 WL 902795

filed the currently pending motion seeking the entry of
summary judgment in his favor in light of the absence of
any record evidence that he was personally involved in
the allegations giving rise to this action. For the reasons
set forth below, I recommend that the superintendent's
motion be granted.

I. BACKGROUND 1
1

In light of the procedural posture of the case, the
following recitation is derived from the record now
before the court, with all inferences drawn and
ambiguities resolved in plaintiffs favor. Terry v.
Ashcroft, 336 F.3d 128, 137 (2d Cir.2003). In light
of the severance and transfer of plaintiffs claims
arising out of his confinement in the Southport
Correctional Facility to the Western District of New
York, and dismissal of plaintiffs retaliation claim
against defendants M. Soto and John Doe 2, as will
be discussed below, I have included only the facts
relevant to plaintiffs remaining claim asserted against
defendant John Doe 1.

*2 Plaintiff is a prison inmate currently in the custody
of the New York State Department of Corrections and
Community Supervision (“DOCCS”). See generally Dkt.
No. 30. Although he is now incarcerated elsewhere, at
the times relevant to his claims Reed was confined in
the Eastern Correctional Facility (“Eastern”), located in
Napanock, New York. Id.; Dkt. No. 55.
Plaintiff commenced this action on March 8, 2011,
asserting the deprivation of his constitutional and federal
statutory rights, as well as common law claims, against
two unnamed defendants, designated as John Doe 1
and John Doe 2, and defendant M. Soto, a Corrections
Counselor at Eastern. See generally Dkt. No. 30. In his
complaint, as amended, plaintiff alleges that on September
14, 2010, he became ill after consuming spoiled corn and
rice at the Eastern mess hall. Id. at 3. As a result, plaintiff
suffered abdominal pain and extreme bouts of diarrhea.
Id. Plaintiff alleges that defendant John Doe 1 was advised
that the corn and rice emitted a foul odor and could be
contaminated, but failed to heed the warning and ordered
that it be served to the general prison population. Id. at 4.
2

Plaintiffs complaint also named seven corrections
employees assigned to the Southport Correctional
Facility (“Southport”) as defendants. All claims
stemming from events occurring at Southport were

severed from those arising out of Eastern, however,
and were transferred to the Western District of
New York by order issued by Senior District Judge
Thomas J. McAvoy on August 2, 2011. Dkt. No. 4.
Plaintiff was initially treated on the following day at the
Eastern medical clinic, along with several other infected
inmates, and was given “dymo tablets” to address the
condition. Dkt. No. 30 at 3. He was subsequently directed
to return to the clinic later that day, however, and
instructed to discontinue the use of the dymo tablets and
told that he would instead be placed on a water diet and
confined to his cell for one day to flush out any infection.
Id. at 4.

II. PROCEDURAL HISTORY
Plaintiff commenced this action on March 8, 2011.
Dkt. No. 1. As defendants, plaintiffs complaint named
two “Doe” defendants, M. Soto, and seven corrections
employees assigned to Southport. Id. at 2. The complaint
asserted claims under the Eighth Amendment to
the United States Constitution; the Americans with
Disabilities Act (“ADA”), 42 U.S.C. § 12101 et seq.;
section 504 of the Rehabilitation Act of 1973 (“section
504”), 29 U.S.C. § 794; and New York State common
law. See generally id. Based upon an initial review
of plaintiffs complaint and an accompanying in forma
pauperis application, pursuant to 28 U.S.C. § 1915(e)(2),
Senior District Judge Thomas J. McAvoy directed all
claims arising from the events occurring at Southport
severed and transferred to the Western District of New
York. Dkt. No. 4.
In response to plaintiffs complaint, defendant Soto,
the sole remaining named defendant in the action
following Judge McAvoy's decision, moved for dismissal
of plaintiffs claims pursuant to Rule 12(b)(6) of the
Federal Rules of Civil Procedure. Dkt. No. 11. Plaintiff
followed with a motion, filed on December 7, 2011,
seeking leave to amend his complaint pursuant to Rule
15(a) of the Federal Rules of Civil Procedure. Dkt. No.
14. Plaintiffs motion was intended, in part, to clarify
and expand upon the allegations set forth in his original
complaint related to the events at Eastern and eliminate
claims and references to the defendants affected by the
transfer to the Western District of New York. 3 Id.
In a report issued on July 26, 2012, I recommended
dismissal of plaintiffs claims against defendant Soto with
leave to amend regarding plaintiffs cause of action for

WESTLAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

2

Reed v. Do

Document 29 Filed 02/11/19 Page 32 of 77

2015 WL 902795

retaliation. Dkt, No. 22. Judge McAvoy adopted that
recommendation on September 30,2012, and plaintiff was
granted leave to replead within thirty days. Dkt. No. 28.
3

In his motion, plaintiff also sought the appointment
of pro bono counsel to represent him in the action.
Dkt. No. 15. That motion was denied without
prejudice. Dkt. No. 17.

*3 Plaintiff availed himself of the opportunity to
amend, and submitted an amended complaint on October
12, 2012. Dkt. No. 30. Upon review of that amended
complaint, I issued a report dated November 9, 2012, in
which I recommended that (1) the amended complaint
be rejected insofar as it asserts a retaliation claim
against defendant Soto and that the claim be dismissed
with prejudice; (2) the amended complaint be rejected
with respect to plaintiffs state common law claims
against defendant John Doe 2; (3) plaintiffs amended
complaint be accepted as it relates to the constitutional
claims asserted against defendant John Doe 1; (4) the
superintendent at Eastern be added as a defendant for
the purposes of service and discovery to assist plaintiff in
identifying defendant John Doe 1; and (5) Judge McAvoy
direct plaintiff to take reasonable steps to ascertain the
identity of defendant John Doe 1 and seek permission to
add that individual by name as a defendant in the action.
Dkt. No. 33 at 18-21. On September 27, 2013, Judge
McAvoy adopted these recommendations. Dkt. No. 39.
Following the joinder of issue, I issued a standard Rule
16 scheduling order, which, inter alia, required that both
parties provide mandatory disclosures and established
April 4,2014 as a deadline for completion of all discovery
in the action. Dkt, No. 49.
Following the close of discovery, the Eastern
superintendent filed the pending motion seeking the entry
of summary judgment in his favor. Dkt. No. 53. The
superintendent contends that dismissal is appropriate in
light of the fact that he is not implicated in plaintiffs
claims and plaintiff has failed to identify and join
the individual identified in the amended complaint as
defendant John Doe 1. Plaintiff has not responded to
defendant's motion, which is now ripe for determination,
and has been referred to me for the issuance of a report
and recommendation pursuant to 28 U.S.C. § 636(b)(1)(B)
and Northern District of New York Local Rule 72.3(c).
See Fed.R.Civ.P. 72(b).

III. DISCUSSION
A. Summary Judgment Standard
Summary judgment motions are governed by Rule 56
of the Federal Rules of Civil Procedure. Under that
provision, the entry of summary judgment is warranted “if
the movant shows that there is no genuine dispute as to
any material facts and the movant is entitled to judgment
as a matter of law.” Fed.R.Civ.P. 56(a); Celotex Corp.
v. Catrett, 477 U.S. 317, 322 (1986); Anderson v. Liberty
Lobby, Inc., All U.S. 242, 247 (1986); Sec. Ins. Co. of
Hartford v. Old Dominion Freight Line, Inc., 391 F.3d 77,
82-83 (2d Cir.2004). A fact is “material” for purposes of
this inquiry, if it “might affect the outcome of the suit
under the governing law.” Anderson, All U.S. at 248; see
also Jeffreys v. City of New York, 426 F.3d 549, 553 (2d
Cir.2005). A material fact is genuinely in dispute “if the
evidence is such that a reasonable jury could return a
verdict for the nonmoving party.” Anderson, All U.S. at
248.
*4 A party moving for summary judgment bears an
initial burden of demonstrating that there is no genuine
dispute of material fact to be decided with respect to any
essential element of the claim in issue, and the failure to
meet this burden warrants denial of the motion. Anderson,
All U.S. at 250 n. 4; Sec. Ins. Co., 391 F ,3d at 83. In
the event this initial burden is met, the opposing party
must show, through affidavits or otherwise, that there is
a material dispute of fact for trial. Fed.R.Civ.P. 56(e);
Celotex, All U.S. at 324; Anderson, All U.S. at 250.
When deciding a summary judgment motion, a court must
resolve any ambiguities, and draw all inferences, in a light
most favorable to the nonmoving party. Anderson, All
U.S. at 255; Jeffreys, 426 F.3d at 553; Wright v. Coughlin,
132 F.3d 133,137-38 (2d Cir. 1998). The entry of summary
judgment is justified only in the event of a finding that
no reasonable trier of fact could rule in favor of the
non-moving party. Bldg. Trades Employers' Educ. Ass'n v.
McGowan, 311 F.3d 501, 507-08 (2d Cir.2002); see also
Anderson, All U.S. at 250 (finding summary judgment
appropriate only when “there can be but one reasonable
conclusion as to the verdict”).

B. Plaintiffs Failure to Respond to the Superintendent's
Motion

WESTLAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

3

Document 29 Filed 02/11/19 Page 33 of 77

Reed v. Do
2015 WL 902795

Pursuant to local rule 7.1(b)(3), by failing to oppose the
Eastern superintendent's motion, plaintiff has effectively
consented to the granting of the relief sought. That rule
provides as follows:

Where a properly filed motion
is unopposed and the Court
determines that the moving party
has met its burden to demonstrate
entitlement to the relief requested
therein, the non-moving party's
failure to file or serve any papers as
this Rule requires shall be deemed
as consent to the granting or denial
of the motion, as the case may be,
unless good cause is shown.

N.D.N.Y. L.R. 7.1(b)(3); see also Jackson v. Fed. Express,
766 F.3d 189, 194 (2d Cir.2014) (holding that the district
courts may enter summary judgment in favor of the
moving party where the non-moving party fails to respond
in opposition, but not without first “ensuring] that each
statement of material fact is support by record evidence
sufficient to satisfy the movant's burden of production”
and “determining] whether the legal theory of the motion
is sound”).
In this case, plaintiff has not responded to the
pending motion, which was properly filed by the
superintendent. Through his motion, the superintendent
has satisfied his burden of demonstrating entitlement
to the relief requested. With respect to the question of
the superintendent's burden, I note that his “burden of
persuasion is lightened such that, in order to succeed,
[their] motion need only be ‘facially meritorious.’ “ See
Rodriguez v. Goord, No. 04—CV-0358, 2007 WL 4246443,
at *1 (Scullin, J., adopting report and recommendation
by Lowe, M.J.) (finding that whether a movant has
met its burden to demonstrate entitlement to a dismissal
under local rule 7.1(b)(3) “is a more limited endeavor
than a review of a contested motion to dismiss” (citing
cases)).4 Because the superintendent has accurately cited
both proper legal authority and evidence in the record
supporting the grounds upon which his motion is based,
and plaintiff has failed to respond in opposition, I find
the motion is facially meritorious. Jackson, 766 F.3d at

194. Accordingly, I recommend that the court grant the
superintendent's motion on this basis.5
4

Copies of all unreported decisions cited in this
document have been appended for the convenience
of the pro se plaintiff. [Editor's Note: Attachments of
Westlaw case copies deleted for online display.]

5

For the sake of completeness, I have addressed the
merits of the superintendent's motion for summary
judgment as well.

C. Eastern Superintendent
*5 The superintendent at Eastern, the sole remaining
named defendant in the action, has moved for the entry
of summary judgment dismissing plaintiffs claims against
him based upon lack of personal involvement. Dkt. No.
53-14 at 5-7. “Personal involvement of defendants in
alleged constitutional deprivations is a prerequisite to an
award of damages under [section] 1983.” Wright v. Smith,
21 F.3d 496, 501 (2d Cir.1994) (citing Moffitt v. Town of
Brookfield, 950 F.2d 880, 885 (2d Cir.1991); McKinnon
v. Patterson, 568 F.2d 930, 934 (2d Cir.1977)). As the
Supreme Court has noted, a defendant may only be held
accountable for his actions under section 1983. See Iqbal,
556 U .S. at 683 (“[Petitioners cannot be held liable unless
they themselves acted on account of a constitutionally
protected characteristic”). To prevail on a section 1983
cause of action against an individual, a plain tiff must show
“a tangible connection between the acts of a defendant
and the injuries suffered.” Bass v. Jackson, 790 F.2d 260,
263 (2d Cir. 1986). “To be sufficient before the law, a
complaint must state precisely who did what and how such
behavior is actionable under law.” Hendrickson v. U.S.
Attorney Gen., No. 91-CV-8135, 1994 WL 23069, at *3
(S.D.N.Y. Jan. 24, 1994).
When the superintendent was added as a defendant by the
court, it was done for the express purpose of permitting
plaintiff to engage in discovery in an attempt to ascertain
the identity of defendant John Doe 1. In my report dated
November 9, 2012,1 stated the following:

I recommend that the clerk of
the court be directed to add the
superintendent of Eastern as a
defendant for service and discovery
purposes only. By doing so, I

WESTLAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

4

Document 29 Filed 02/11/19 Page 34 of 77

Reed v. Do
2015 WL 902795
do not suggest in any way that
the superintendent of Eastern was
personally involved in the events
allegedly giving rise to the Eighth
Amendment claim asserted against
defendant John Doe # 1.

Dkt. No. 33 at 16. Since the issuance of that report and
recommendation, plaintiff has not identified defendant
John Doe 1, and there is no record evidence suggesting
that the superintendent was personally involved in the
decision to serve allegedly spoiled food to the inmates at
Eastern.6
6

As a supervisory employee, the superintendent
at Eastern cannot be held liable for damages
under section 1983 solely because he occupies that
position of authority, or on the basis of respondeat
superior. Richardson v. Goord, 347 F.3d 431, 435 (2d
Cir.2003). To establish responsibility on the part of
a supervisory official for a civil rights violation, a
plaintiff must demonstrate that the individual (1)
directly participated in the challenged conduct; (2)
after learning of the violation through a report or
appeal, failed to remedy the wrong; (3) created or
allowed to continue a policy or custom under which
unconstitutional practices occurred; (4) was grossly
negligent in managing the subordinates who caused
the unlawful event; or (5) failed to act on information
indicating that unconstitutional acts were occurring.
Iqbal v. Hasty, 490 F.3d 143, 152-53 (2d Cir.2007),
rev'd on other grounds sub nom. Ashcroft v. Iqbal, 556
U.S. 554 (2009); see also Richardson, 347 F.3d at 435;
Colon v. Coughlin, 58 F.3d 865, 873 (2d Cir.1995);
Wright, 21 F.3d at 501. The record evidence, including
plaintiffs amended complaint, does not suggest that
any of these grounds are applicable in this instance.

In light of the fact that plaintiff has failed to adduce
any evidence suggesting that the superintendent was
personally involved in the alleged constitutional violation,
and his presence in the lawsuit for discovery purposes is no
longer needed, I recommend that plaintiffs claims against
him be dismissed.

D. John Doe 1
In his motion, the Eastern superintendent also urges the
court to dismiss plaintiffs claims against defendant John
Doe No. 1. Dkt. No. 53-14 at 7.

In the court's order issued on September 27,2013, plaintiff
was directed to take reasonable steps to ascertain the
identity of defendant John Doe 1. Dkt. No. 39 at 6.
In that decision, Judge McAvoy pointedly advised that
“[pjlaintiff s failure to ascertain the identity of Defendant
John Doe # 1 will result in the dismissal of this action[.]”
Id. Because plaintiff failed to heed that warning and take
timely measures reasonably calculated to ascertain the
identity of John Doe #1,1 recommend that his claims
7
against that defendant be dismissed without prejudice.
See, e.g., Pravada v. City of Albany, 178 F.R.D. 25, 26
(N.D.N.Y.1998) (Scullin, J.) (dismissing the unidentified
“John Doe” and “Jane Roe” defendants after the plaintiff
had been provided “over two years to identify and serve
these individuals, including the full discovery period”).

7

On or about April 29, 2014, plaintiff mailed to
Assistant Attorney General James J. Seaman, Esq.,
a request for the production of documents. Dkt.
No. 53-11. The request bears the correct caption
but an incorrect civil action number (No. 10-CV1446) (LEK/RFT)) and was not received by Attorney
Seaman until May 22, 2014. Id.; Dkt. No. 53-1 at 3.
Plaintiffs demands, however, relate to the allegations
in his amended complaint, confirming that they were
served in connection with this matter. Dkt. No. 53II at 1. In response, the superintendent properly
objected to the discovery demands as untimely in light
of the fact that (1) the deadline for completion of
all discovery was April 4, 2014, and (2) plaintiff was
alerted to his obligation to serve written discovery
demands sufficiently in advance of the discovery
deadline to ensure that the latest date on which
responses would be due would fall on or before the
discovery deadline. See Dkt. No. 49 at 4; Dkt. No. 5312.

IV. SUMMARY AND RECOMMDATION
*6 The sole remaining claim in this action is asserted
against an unidentified corrections employee based on
plaintiffs allegation that he served spoiled food to the
general inmate population at Eastern. In deference to his
pro se status, the court directed that the superintendent at
Eastern be named as a defendant so that plaintiff could be
afforded a reasonable opportunity to engage in discovery
calculated to lead to the identity of defendant John Doe
1. Despite this and the court's warnings that the failure to
identify defendant John Doe 1 would result in dismissal
of plaintiffs claims against him, plaintiff has not yet done

WESTLAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

5

Document 29 Filed 02/11/19 Page 35 of 77
2015 WL 902795

so. Accordingly, I recommend that all of the remaining
claims in this action, which was commenced nearly four
years ago, be dismissed with regard to the superintendent,
who was not personally involved in the constitutional
violations alleged, and as against defendant John Doe
1, who remains unidentified. Accordingly, it is hereby
respectfully
RECOMMENDED that the Eastern superintendent's
motion for summary judgment (Dkt. No. 53 ) be
GRANTED; and it is further
RECOMMENDED that plaintiffs claims against
defendant superintendent be DISMISSED with prejudice
and his claims against defendant John Doe 1 be
DISMISSED without prejudice.

NOTICE: Pursuant to 28 U.S.C. § 636(b)(1), the parties
may lodge written objections to the foregoing report.
Such objections must be filed with the clerk of the
court within FOURTEEN days of service of this report.
FAILURE TO SO OBJECT TO THIS REPORT WILL
PRECLUDE APPELLATE REVIEW. 28 U.S.C. §
636(b)(1); Fed.R.Civ.P. 6(a), 6(d), 72; Roldan v. Racette,
984 F.2d 85 (2d Cir.1993).
It is hereby ORDERED that the clerk of the court serve a
copy of this report and recommendation upon the parties
in accordance with this court's local rules.

Filed Jan. 30, 2015.
All Citations
Not Reported in F.Supp.3d, 2015 WL 902795

End of Document

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

WESTLAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

6

Filed 02/11/19 Page 36 of 77

Groves v.
2012 WL 651919

2012 WL 651919
Only the Westlaw citation is currently available.
United States District Court,
N.D. New York.
Kenneth Carl GROVES, Sr., Plaintiff,
v.
Brett DAVIS, Secure Care Treatment Aid; David
W. Sill, Secure Care Treatment Aid; Thomas
Nicolette, RN, Ward Nurse; Charmaine Bill,
Treatment Team Leader; Jill E. Carver, Social
Worker, Primary Therapist; Edwin Debroize,
Psychologist Assist; Jeff Nowicki, Chief of Mental
Health Treatment Serv.; Terri Maxymillian,
Ph.D., Dir. of Mental Health Serv.; Sgt. Sweet,
Security Services, CNYPC; Michael Hogan,
Comm'r, Dep't of Mental Health, Defendants.
No. 9:n-CV-i3i7 (GTS/RFT).

I
Feb. 28, 2012.
Attorneys and Law Firms
Kenneth Carl Groves, Sr., Marcy, NY, pro se.

sua sponte dismissed without prejudice and with leave to
amend in this action in accordance with Fed.R.Civ.P.
15; Sgt. Sweet is sua sponte dismissed without prejudice
as a Defendant in this action; the Clerk is directed to
issue summonses, and the U.S. Marshal is directed to
effect service of process on Defendants Davis, Sill, and
Nicolette.
1

This is the fourth civil rights action filed by Plaintiff
in this District. Generally, two of these actions arose
out of Plaintiffs refusal to consent to a strip search
and the subsequent actions taken against Plaintiff
as a result of his refusal. See Groves v. New York,
09-CV-0406, Decision and Order (N.D.N.Y. filed
May 11, 2009) (Hurd, J.) (sua sponte dismissing
complaint pursuant to 28 U.S.C. § 1915[e][2][B] );
Groves v. The State of New York, 9:09-CV-0412,
Decision and Order (N.D.N.Y. filed Mar. 26, 2010)
(Sharpe, J.) (granting defendants' motion to dismiss
the complaint pursuant to Fed.R.Civ.P. 12[b][6] ).
The third action alleged numerous violations of
Plaintiffs constitutional rights during the period July
23, 2009, and August 26, 2009, and was dismissed
without prejudice upon Plaintiffs request in October,
2010. See Groves v. Maxymillian, 9:09-CV-1002,
Decision and Order (N.D.N.Y. filed Oct. 8, 2010)
(Suddaby, J.). As a result, it does not appear that
the current action is barred because of res judicata,
collateral estoppel, and/or the rule against duplicative
litigation.

MEMORANDUM DECISION and ORDER
Hon. GLENN T. SUDDABY, District Judge.
*1 Currently before the Court, in this pro se civil rights
action filed by Kenneth Carl Groves, Sr. (“Plaintiff’),
against numerous employees of New York State or the
Central New York Psychiatric Center (“Defendants”),
are Plaintiffs motion to proceed in forma pauperis, his
motion for a temporary restraining order and preliminary
injunction, and his motion for appointment of counsel.
(Dkt.Nos.2, 3, 4.)1 For the reasons set forth below,
Plaintiffs motion to proceed in forma pauperis is granted;
his motion for a preliminary injunction is denied; his
motion for appointment of counsel is denied; Plaintiffs
claims of deliberate indifference to his mental health
needs against Defendants Bill, Carver and DeBroize are
sua sponte dismissed with prejudice; Plaintiffs claims
against Defendants Bill, Carver, DeBroize, Nowicki,
Maxymillian, and Hogan arising from their alleged
personal involvement in the August 8, 2011 assault are

1. RELEVANT BACKGROUND
On November 7, 2011, Plaintiff commenced this action
pro se by filing a civil rights Complaint, together with
a motion to proceed in forma pauperis. (Dkt. Nos.l,
2.) Liberally construed, Plaintiffs Complaint alleges
that the following constitutional violations against him
occurred during his confinement at Central New York
Psychiatric Center (“CNYPC”): (1) Defendants Davis and
Sill used excessive force against him under the Eighth
and/or Fourteenth Amendments; (2) Defendant Nicolette
knew of and failed to take action to protect Plaintiff
from the assault under the Eighth and/or Fourteenth
Amendments; (3) Defendants Bill, Carver, and DeBroize
were deliberately indifferent to his mental health needs
under the Eighth and/or Fourteenth Amendments;
and (4) Defendants Bill, Carver, DeBroize, Nowicki,
Maxymillian, Bosco, and Hogan failed to “adequately
train the staff under their supervision” and to take
appropriate action in response to the incident. (See

WESTLAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

1

Groves v.

e^S.«;^8§ffisWf4-JWft)Document29 Filed 02/11/19 Page 37 of 77

2012 WL 651919

generally Dkt. No. 1.) For a more detailed description of
Plaintiffs claims, and the factual allegations giving rise to
those claims, the reader is referred to Part III.B of this
Decision and Order.
2

At that time, Plaintiff also filed motions for injunctive
relief and for appointment of counsel. (Dkt.Nos.3,4.)

II. MOTION TO PROCEED IN FORMA PAUPERIS
Because Plaintiff sets forth sufficient economic need, the
Court finds that Plaintiff may properly commence this
action in forma pauperis. (Dkt. No. 2.)

III. SUA SPONTE REVIEW OF PLAINTIFF’S
COMPLAINT
In light of the foregoing, the Court must now review the
sufficiency of the allegations that Plaintiff has set forth in
his Complaint in light of 28 U.S.C. § 1915(e)(2)(B). This is
because Section 1915(e)(2)(B) directs that, when a plaintiff
seeks to proceed in forma pauperis, “(2) ... the court shall
dismiss the case at any time if the court determines that
—... (B) the action ... (i) is frivolous or malicious; (ii) fails
to state a claim on which relief may be granted; or (iii)
seeks monetary relief against a defendant who is immune
from such relief.” 28 U.S.C. § 1915(e)(2)(B). 3
3

The Court notes that, similarly, Section 1915A(b)
directs that a court must review any “complaint in
a civil action in which a prisoner seeks redress from
a governmental entity or officer or employee of a
governmental entity” and must “identify cognizable
claims or dismiss the complaint, or any portion
of the complaint, if the complaint ... is frivolous,
malicious, or fails to state a claim upon which relief
may be granted; or ... seeks monetary relief from a
defendant who is immune from such relief.” 28 U.S.C.
§ 1915A(b).

A. Governing Legal Standard
*2 It has long been understood that a dismissal for failure
to state a claim upon which relief can be granted, pursuant
to Fed.R.Civ.P. 12(b)(6), can be based on one or both
of two grounds: (1) a challenge to the “sufficiency of the
pleading” under Fed.R.Civ.P. 8(a)(2); or (2) a challenge to
the legal cognizability of the claim. Jackson v. Onondaga
Cnty., 549 F.Supp.2d204,211, nn. 15-16(N.D.N.Y.2008)
(McAvoy, J., adopting Report-Recommendation on de
novo review).

Because such dismissals are often based on the first
ground, a few words regarding that ground are
appropriate. Rule 8(a)(2) of the Federal Rules of Civil
Procedure requires that a pleading contain “a short and
plain statement of the claim showing that the pleader is
entitled to relief.” Fed.R.Civ.P. 8(a)(2) [emphasis added].
In the Court's view, this tension between permitting
a “short and plain statement” and requiring that the
statement “show[ ]” an entitlement to relief is often at
the heart of misunderstandings that occur regarding the
pleading standard established by Fed.R.Civ.P. 8(a)(2).
On the one hand, the Supreme Court has long
characterized the “short and plain” pleading standard
under Fed.R.Civ.P. 8(a)(2) as “simplified” and “liberal.”
Jackson, 549 F.Supp.2d at 212, n. 20 (citing Supreme
Court case). On the other hand, the Supreme Court has
held that, by requiring the above-described “showing,”
the pleading standard under Fed.R.Civ.P. 8(a)(2) requires
that the pleading contain a statement that “give[s] the
defendantfair notice of what the plaintiffs claim is and the
grounds upon which it rests.” Jackson, 549 F.Supp.2d at
212, n .17 (citing Supreme Court cases) (emphasis added).
The Supreme Court has explained that such fair notice
has the important purpose of “enabling] the adverse
party to answer and prepare for trial” and “facilitating]
a proper decision on the merits” by the court. Jackson,
549 F.Supp.2d at 212, n. 18 (citing Supreme Court
cases); Rusyniak v. Gensini, 629 F.Supp.2d 203, 213 & n.
32 (N.D.N.Y.2009) (Suddaby, J.) (citing Second Circuit
cases). For this reason, as one commentator has correctly
observed, the “liberal” notice pleading standard “has its
limits.” 2 Moore's Federal Practice § 12.34[l][b] at 1261 (3d ed.2003). For example, numerous Supreme Court
and Second Circuit decisions exist holding that a pleading
has failed to meet the “liberal” notice pleading standard.
Rusyniak, 629 F. Supp .2d at 213, n. 22 (citing Supreme
Court and Second Circuit cases); see also Ashcroft v. Iqbal,
556 U.S. 662, 129 S.Ct. 1937, 1949-52, 173 L.Ed.2d 868
(2009).
Most notably, in Bell Atlantic Corp. v. Twombly, the
Supreme Court reversed an appellate decision holding
that a complaint had stated an actionable antitrust claim
under 15 U.S.C. § 1. Bell Atlantic Corp. v. Twombly, 550
U.S. 544, 127 S.Ct. 1955, 167 L.Ed.2d 929 (2007). In
doing so, the Court “retire[d]” the famous statement by

WESTLAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

2

Groves v. 6^l&K;^*fflPsiT»-J»ft|Document29

Filed 02/11/19 Page 38 of 77

2012 WL 651919
the Court in Conley v. Gibson, 355 U.S. 41,45-46, 78 S.Ct.
99, 2 L.Ed.2d 80 (1957), that “a complaint should not
be dismissed for failure to state a claim unless it appears
beyond doubt that the plaintiff can prove no set of facts
in support of his claim which would entitle him to relief.”
Twombly, 127 S.Ct. at 1968-69. Rather than turn on the
conceivability of an actionable claim, the Court clarified,
the “fair notice” standard turns on the plausibility of an
actionable claim. Id. at 1965-74. The Court explained
that, while this does not mean that a pleading need “set out
in detail the facts upon which [the claim is based],” it does
mean that the pleading must contain at least “some factual
allegation^].” Id. at 1965. More specifically, the “[fjactual
allegations must be enough to raise a right to relief above
the speculative level [to a plausible level],” assuming (of
course) that all the allegations in the complaint are true.
Id.
*3 As for the nature of what is “plausible,” the Supreme
Court explained that “[a] claim has facial plausibility
when the plaintiff pleads factual content that allows the
court to draw the reasonable inference that the defendant
is liable for the misconduct alleged.” Iqbal, 129 S.Ct.
at 1949. “[Determining whether a complaint states a
plausible claim for relief ... [is] a context-specific task
that requires the reviewing court to draw on its judicial
experience and common sense.... [W]here the well-pleaded
facts do not permit the court to infer more than the mere
possibility of misconduct, the complaint has alleged—
but it has not show[n]—that the pleader is entitled to
relief.” Id. at 1950 [internal quotation marks and citations
omitted]. However, while the plausibility standard “asks
for more than a sheer possibility that a defendant has
acted unlawfully,” id., it “does not impose a probability
requirement.” Twombly, 550 U.S. at 556.
Because of this requirement of factual allegations
plausibly suggesting an entitlement to relief, “the tenet
that a court must accept as true all of the allegations
contained in the complaint is inapplicable to legal
conclusions. Threadbare recitals of the elements of a cause
of action, supported by merely conclusory statements,
do not suffice.” Iqbal, 129 S.Ct. at 1949. Similarly,
a pleading that only “tenders naked assertions devoid
of further factual enhancement” will not suffice. Iqbal,
129 S.Ct. at 1949 (internal citations and alterations
omitted). Rule 8 “demands more than an unadorned,
the-defendant-unlawfully-harmed-me accusation.” Id.
(citations omitted).

This pleading standard applies even to pro se litigants.
While the special leniency afforded to pro se civil rights
litigants somewhat loosens the procedural rules governing
the form of pleadings (as the Second Circuit has observed),
it does not completely relieve a pro se plaintiff of
the duty to satisfy the pleading standards set forth in
Fed.R.Civ.P. 8,10 and 12.4 Rather, as both the Supreme
Court and Second Circuit have repeatedly recognized, the
requirements set forth in Fed.R.Civ.P. 8, 10 and 12 are
procedural rules that even pro se civil rights plaintiffs
must follow.5 Stated more simply, when a plaintiff is
proceeding pro se, “all normal rules of pleading are not
absolutely suspended.” Jackson, 549 F.Supp.2d at 214, n.
28 [citations omitted],6
4

See Vega v. Artus, 610 F.Supp.2d 185, 196 & nn. 8-9
(N.D.N.Y.2009) (Suddaby, J.) (citing Second Circuit
cases); Rusyniak, 629 F.Supp.2d at 214 & n. 34 (citing
Second Circuit cases).

5

See Vega, 610 F.Supp.2d at 196, n. 10 (citing Supreme
Court and Second Circuit cases); Rusyniak, 629
F.Supp.2d at 214 & n. 34 (citing Second Circuit cases).

6

It should be emphasized that Fed.R.Civ.P. 8's
plausibility standard, explained in Twombly, was in
no way retracted or diminished by the Supreme
Court's decision (two weeks later) in Erickson v.
Pardus, in which (when reviewing a pro se pleading)
the Court stated, "Specific facts are not necessary”
to successfully state a claim under Fed.R.Civ.P. 8(a)
(2). Erickson v. Pardus, 551 U.S. 89, 93, 127 S.Ct.
2197, 167 L.Ed.2d 1081 (2007) [emphasis added].
That statement was merely an abbreviation of the
often-repeated point of law—first offered in Conley
and repeated in Twombly—that a pleading need not
“set out in detail the facts upon which [the claim
is based]” in order to successfully state a claim.
Twombly, 127 S.Ct. 1965, n. 3 (citing Conley, 355 U.S.
at 47) [emphasis added]. That statement did not mean
that all pleadings may achieve the requirement of “fair
notice” without ever alleging any facts whatsoever.
Clearly, there must still be enough fact set out
(however set out, whether in detail or in a generalized
fashion) to raise a right to relief above the speculative
level to a plausible level. See Rusyniak, 629 F.Supp.2d
at 214 & n. 35 (explaining holding in Erickson ).
B. Analysis of Plaintiffs Complaint

WESTLAW •© 2019 Thomson Reuters. No claim to original U.S. Government Works.

3

Groves v.

e^m^98flPsTiJ{4-J}Kft|Document29 Filed 02/11/19 Page 39 of 77

2012 WL 651919

The Court prefaces its analysis of Plaintiffs Complaint
by noting that, although Plaintiff is a civilly committed
sex offender and no longer a prisoner, the Court
will look to cases addressing prisoner's rights in
analyzing Plaintiffs claims, because “confinement of
civilly committed patients is similar to that of prisoners.”
Holly v. Anderson, 04-CV-1489, 2008 WL 1773093, at
*7 (D.Minn. Apr. 15, 2008); see also Morgan v. Rabun,
128 F.3d 694, 697 (8th Cir.1997) (“The governmental
interests in running a state mental hospital are similar
in material aspects to that of running a prison.”).
Thus, whereas claims of excessive force by convicted
criminals are analyzed under the Eighth Amendment to
the United States Constitution, because Plaintiff is a civilly
committed sex offender and no longer a prisoner, his
substantive rights to be free from unsafe conditions of
confinement arise under the Due Process Clause of the
Fourteenth Amendment. In Youngberg v. Romeo, 457
U.S. 307, 102 S.Ct. 2452, 73 L.Ed.2d 28 (1982), the
Court stated “[i]f it is cruel and unusual punishment to
hold convicted criminals in unsafe conditions, it must
be unconstitutional [under the Due Process Clause] to
confine the involuntarily committed-who may not be
punished at all-in unsafe conditions.” Youngberg, 457
U.S. at 315-16. As have numerous other courts which
have considered the issue, this Court has found that
“the standard for analyzing a civil detainee's Fourteenth
Amendment [conditions of confinement] claim is the same
as the Eighth Amendment standard.” Groves v. Patterson,
09-CV-1002, Memorandum-Decision and Order at *1516 (N.D.N.Y. filed Nov. 18, 2009).7 .
7

See Wcyant v. Okst, 101 F.3d 845, 856 (2d Cir.1996)
(“[W]hile the Supreme Court has not precisely limned
the duties of a custodial official under the Due
Process Clause to provide needed medical treatment
to a pretrial detainee, it is plain that an unconvicted
detainee's rights are at least as great as those of a
convicted prisoner.”); Walton v. Breeyear, 05-CV0194,2007 WL 446010, at *8, n. 16 (N.D.N.Y. Feb.8,
2007) (Peebles, M.J.) (noting that pretrial detainees
enjoy protections under the due process clause of the
Fourteenth Amendment parallel to those afforded
to sentenced prisoners by the Eighth Amendment);
Vallen v. Carrol, 02-CV-5666, 2005 WL 2296620,
-8-9 (S.D.N.Y. Sep.20, 2005) (finding that
at
the Eighth Amendment standard of “deliberate
indifference” is the correct one for Section 1983
claims brought by involuntarily committed mental
patients based on alleged failures to protect them

that violated their substantive due process rights);
Bourdon v. Roney, 99-CV-0769, 2003 WL 21058177,
at *10 (N.D.N.Y. Mar.6, 2003) (Sharpe, M.J.)
(“The standard for analyzing a pretrial detainee's
Fourteenth Amendment [conditions of confinement]
claim is the same as the Eighth Amendment
standard.”).
1. Excessive Force Claims Against Defendants Davis,
Still and Nicolette
*4 Plaintiff alleges that on August 8, 2011, Defendant
Davis entered Plaintiffs dorm room at CNYPC and
“viciously attacked and brutally assaulted and battered”
him. (Dkt. No. 1 at 4.) During the course of this
assault, Defendant Sill is alleged to have entered Plaintiffs
room and “jump[ed] on the plaintiffs legs holding and
pinning them as Defendant Davis [continued to beat
Plaintiff].” (Id.) As alleged in the Complaint, although
Defendant Nicolette knew in advance that this assault was
planned, he “remained in the Nurses Station” and “did
nothing to interceed [sic] or stop the brutal attack on the
plaintiff.” (Id at 5.)
To validly assert a violation of the Eighth Amendment
through the use of excessive force, an inmate must allege
the following: (1) subjectively, that the defendants acted
wantonly and in bad faith; and (2) objectively, that
the defendants' actions violated “contemporary standards
of decency.” Blyden v. Mancusi, 186 F.3d 252, 262-63
(2d Cir.1999) (internal quotation marks omitted) (citing
Hudson v. McMillian, 503 U.S. 1, 8 [1992] ).
Here, construing the factual allegations of Plaintiffs
Complaint with special leniency, the Court finds that
Plaintiff appears to have alleged facts plausibly suggesting
that he was subjected to excessive force by Defendants
Davis and Sill. In addition, by alleging that Defendants
Davis, Sill and Nicolette discussed the assault in advance
of it occurring, and that Nicolette was in the vicinity
of Plaintiffs room and had an opportunity to intervene
to prevent it, the Complaint sufficiently alleges that
Defendant Nicolette was personally involved and/or failed
to protect Plaintiff from the assault. See Bhuiyan v.
Wright, 06-CV-0409,2009 WL 3123484, at *7 (N.D.N.Y.
Sept.29,2009) (Scullin, J.) (“The fact that defendant Davis
was not in the room, but was acting as a ‘lookout’ so
that no one came into the room while plaintiff was being
beaten, would not absolve him from liability for the
assault. An officer's failure to intervene during another
officer's use of excessive force can itself constitute an

WESTIAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

4

Groves v.

9m,

Documenl29 Rled 02/11/19 Pase 40 of 77

2012 WL 651919

Eighth Amendment violation unless the assault is “sudden
and brief,” and the defendant had no real opportunity to
prevent it.”); Jeffreys v. Rossi, 215 F.Supp.2d 463, 474
(S.D.N. Y.2003) (holding that an officer may be personally
involved in the use of excessive force if he either directly
participates in the assault or if he was present during the
assault, yet failed to intervene on behalf of the victim, even
though the officer had a reasonable opportunity to do so).
As a result, a response to these claims is required from
Defendants David, Sill, and Nicolette. In so ruling, the
Court expresses no opinion as to whether Plaintiffs claims
can withstand a properly filed motion to dismiss or for
summary judgment.

2. Deliberate Indifference Claims Against Defendants
Bill, Carver and DeBroize
Plaintiff alleges that on August 9, 2011, the day after
the alleged assault, he attempted to “discuss the incident
and what transpired” with Defendants Bill and Carver.
(Dkt. No. 1 at 5.) Plaintiff alleges that Defendant Bill
told him, “I don't want to discuss this Mr. Groves, we're
too busy for your foolishness and the matter is being
investigated.” (Id.) Plaintiffs effort to explain that he was
frightened by the incident was rebuffed by Defendant
Bill, who told Plaintiff to “grow up.” (Id at 5-6.) The
following day, Plaintiff attempted to discuss the incident
with Defendant Carver, his primary therapist, again
without success. A further attempt at discussion later
that day was met with Defendant Carver “stating to the
plaintiff in a snotty tone ‘grow the hell up!’ “ (Id. at 6.)
On August 10, 2011, Plaintiff attempted to discuss the
incident “and his current fears and feelings,” during his
Monday afternoon “Process Group,” which is facilitated
by Defendant DeBroize. As alleged, Defendant DeBroize
told Plaintiff and the other group members that the matter
was under investigation “so no one could discuss the
incident with anyone.” (Id. at 6.)
*5 To state a claim of deliberate indifference to a serious
medical and/or mental health need under the Eighth
Amendment, a plaintiff must first allege facts plausibly
suggesting that prison officials acted with “deliberate
indifference to serious medical needs.” Estelle v. Gamble,
429 U.S. 97, 104, 97 S.Ct. 285, 50 L.Ed.2d 251 (1976).
“[T]he plaintiff must allege conduct that is ‘repugnant
to the conscience of mankind’ or ‘incompatible with the
evolving standards of decency that mark the progress
of a maturing society.’ “ Ross v. Kelly, 784 F.Supp.

35, 44 (W.D.N.Y.), affd, 970 F.2d 896 (2d Cir.1992)
(quoting Estelle v. Gamble, 429 U.S. at 102, 105-06).
The “deliberate indifference standard embodies both an
objective and a subjective prong,” both of which the
plaintiff must establish. Hathaway v. Coughlin, 37 F.3d
63, 66 (2d Cir.1994), cert, denied, 513 U.S. 1154, 115
S.Ct. 1108, 130 L.Ed.2d 1074 (1995). “First, the alleged
deprivation must be, in objective terms, ‘sufficiently
serious.’ “ Id. (citations omitted). Second, the defendant
“must act with a sufficiently culpable state of mind.” Id.
With regard to the first element, generally, to be
sufficiently serious for purposes of the Constitution, a
medical condition must be “a condition of urgency, one
that may produce death, degeneration, or extreme pain.”
Nance v. Kelly. 912 F.2d 605, 607 (2d Cir.1990) (Pratt,
J. dissenting) [citations omitted], accord, Hathaway, 37
F.3d at 66; Chance v. Armstrong, 143 F.3d 698, 702
O

(2d Cir.1998).). Under the subjective component, a
plaintiff must also allege facts plausibly suggesting that
the defendant acted with “a sufficiently culpable state of
mind.” Hathaway, 37 F.3d at 66. The requisite culpable
mental state is similar to that of criminal recklessness.
Wilson v. Seiter, 501 U.S. 294, 301-03, 111 S.Ct. 2321, 115
L.Ed.2d 271 (1991). A physician’s negligence in treating
or failing to treat a prisoner's medical condition does not
implicate the Eighth Amendment and is not properly the
subject of a Section 1983 action. Estelle, 429 U.S. at 105—
06; Chance, 143 F.3d at 703. ^
8

Relevant factors informing this determination include
whether the plaintiff suffers from an injury that a
“reasonable doctor or patient would find important
and worthy of comment or treatment,” a condition
that “significantly affects” a prisoner’s daily activities,
or “the existence of chronic and substantial pain.”
Chance, 143 F.3d at 702.

9

Thus, a physician who “delayfs] ... treatment based
on a bad diagnosis or erroneous calculus of risks and
costs” does not exhibit the mental state necessary
for deliberate indifference. Harrison, 219 F.3d at 139.
Likewise, an inmate who disagrees with the physician
over the appropriate course of treatment has no
claim under Section 1983 if the treatment provided
is “adequate.” Chance, 143 F.3d at 703. The word
“adequate” reflects the reality that “[pjrison officials
are not obligated to provide inmates with whatever
care the inmates desire. Rather, prison officials
fulfill their obligations under the Eighth Amendment

WESTLAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

5

Groves v.

Documenl 29 Filed 02/11/19 Page 41 of 77

2012 WL 651919
when the care provided is ‘reasonable.’ “ Jones v.
Westchester Cnty. Dept, of Corr., 557 F.Supp.2d
408,413 (S.D.N.Y.2008). In addition, “disagreements
over medications, diagnostic techniques (e .g., the
need for X-rays), forms of treatment, or the need
for specialists or the timing of their intervention are
not adequate grounds for a section 1983 claim.”
Sonds v. St. Barnabas Hosp. Corr. Health Servs.,
151 F.Supp.2d 303, 312 (S.D.N.Y.2001). However,
if prison officials consciously delay or otherwise
fail to treat an inmate's serious medical condition
“as punishment or for other invalid reasons,” such
conduct constitutes deliberate indifference. Harrison,
219 F.3d at 138.
Here, even when construed with the utmost special
liberality, Plaintiffs Complaint fails to allege facts
plausibly suggesting that Defendants Bill, Carver, and
DeBroize acted with deliberate indifference to Plaintiffs
serious mental health condition when they declined
to discuss the incident of August 8, 2011. There is
nothing in the Complaint that even remotely suggests that
the requested conversations were integral to Plaintiffs
treatment as a convicted sex offender involuntarily
committed to CNYPC, or that Defendants' refusal to
discuss the incident with Plaintiff when he requested to do
so caused Plaintiff to suffer any harm or worsening of his
condition. In addition, Plaintiff does not allege that any
of these Defendants acted with the requisite culpable state
of mind.
Moreover, the statements made by Defendants Bill and
Carver that he should “grow up,” even if construed as
verbal harassment, do not give rise to a cognizable claim
that may be pursued under Section 1983. Allegations of
verbal harassment are insufficient to support a Section
1983 claim. Johnson v. Eggersdorf 8 F. App'x 140, 143
(2d Cir.2001); see also Purcell v. Coughlin, 790 F.2d 263,
265 (2d Cir. 1986) (“[A]llegations of verbal harassment are
insufficient to base a § 1983 claim if no specific injury is
alleged.”).
*6 For these reasons, Plaintiffs deliberate indifference
claims against Defendants Bill, Carver, and DeBroize
are dismissed pursuant to 28 U.S.C. § 1915(e)(2)(B)(ii)
and Fed.R.Civ.P. 12(b)(6). Moreover, because the Court
cannot imagine how Plaintiff might correct this claim
through better pleading, he is not granted leave to attempt
to do so in an amended pleading.10 Rather, this claim is
hereby dismissed with prejudice.

10

The Court notes that, generally, leave to amend
pleadings shall be freely granted when justice
so requires. Fed. R. Civ. P. 15(a). However, an
opportunity to amend is not required where
amendment would be futile. John Hancock Mut. Life
Ins. Co. v. Amerford bit'l Corp., 22 F.3d 458, 462 (2d
Cir. 1994). John Hancock Mut. Lifelns. Co., 22F.3dat
462. The Second Circuit has explained that “[w]here it
appears that granting leave to amend is unlikely to be
productive, ... it is not an abuse of discretion to deny
leave to amend.” Ruffolo v. Oppenheimer & Co., 987
F.2d 129, 131 (2d Cir.1993); see Cuoco v. Moritsugu,
222 F.3d 99, 112 (2d Cir.2000) (“The problem with
[Plaintiffs] cause of action is substantive; better
pleading will not cure it. Repleading would thus
be futile. Such a futile request to replead should
be denied.”). This rule is applicable even to pro se
plaintiffs. See, e.g., Cuoco, 222 F.3d at 103.

3. Failure to Supervise Claims Against Defendants Bill,
Carver, DeBroize, Nowicki, Maxymillian, and Hogan
To prevail on a claim under 42 U.S.C. § 1983, a
defendant must be personally involved in the plaintiffs
constitutional deprivation. McKinnon v. Patterson, 568
F.2d 930, 934 (2d Cir. 1977). Generally, for purposes of 42
U.S.C. § 1983, supervisory personnel may be considered
“personally involved” only if they (1) directly participated
in the violation, (2) failed to remedy that violation after
learning of it through a report or appeal, (3) created,
or allowed to continue, a policy or custom under which
the violation occurred, (4) had been grossly negligent in
managing subordinates who caused the violation, or (5)
exhibited deliberate indifference to the rights of inmates by
failing to act on information indicating that the violation
was occurring.11
11

Colon v. Coughlin, 58 F.3d 865, 873 (2d Cir. 1995)
(adding fifth prong); Wright, 21 F.3d at 501 (adding
fifth prong); Williams v. Smith, 781 F.2d319, 323-324
(2d Cir. 1986) (setting forth four prongs).

Holding a position in a hierarchical chain of command,
without more, is insufficient to support a showing
of personal involvement. McKinnon, 568 F.2d at 934.
Rather, a plaintiff must demonstrate “ ‘a tangible
connection between the acts of the defendant and the
injuries suffered.’ “ Austin v. Pappas, 04-CV-7263, 2008
WL 857528, at *2 (S.D.N.Y. Mar.31, 2008) (quoting
Bass v. Jackson, 790 F.2d 260, 263 [2d Cir. 1986] )
(other citation omitted). An official's failure to respond
to grievance letters from inmates, however, “does not

WESTLAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

6

Groves v.

e«&K;^9ffi¥!sI^-W:,ocument29 Hled02/ll/19 Page 42 of 77

2012 WL 651919
establish supervisory liability.” Watson v. McGinnis, 964
F.Supp. 127, 130 (S.D.N.Y.1997).12 Moreover, “the law
is clear that inmates do not enjoy a constitutional right
to an investigation of any kind by government officials.”
Pine v. Seally, 9-CV-1198, 2011 WL 856426, at *9
(N.D.N.Y. Feb.4, 2011).13
12

13

See also Gillard v. Rosati, 08-CV-1104, 2011 WL
4402131, at *7 (N.D.N.Y. Aug.22, 2011) (Peebles,
J.) (“It is well-established that without more, ‘mere
receipt of letters from an inmate by a supervisory
official regarding a medical claim is insufficient
to constitute personal liability.” [internal quotation
marks and brackets omitted] ); Greemvaldt v.
Coughlin, 93-CV-6551, 1995 WL 232736, at *4
(S.D.N.Y. Apr. 19, 1995) (“it is well-established that
an allegation that an official ignored a prisoner's
letter of protest and request for an investigation of
allegations made therein is insufficient to hold that
official liable for the alleged violations.”); Clark v.
Coughlin, 92-CV 0920, 1993 WL 205111, at *5 n. 2
(S.D.N.Y. Jun.10, 1993) (“Courts in this jurisdiction
have consistently held that an inmate's single letter
does not constitute the requisite personal involvement
in an alleged constitutional deprivation to trigger the
Commissioner's liability.”)
See also Bernstein v. N. Y., 591 F.Supp.2d 448, 460
(S.D.N.Y.2008) (“Courts within the Second Circuit
have determined that there is no constitutional right
to an investigation by government officials.” [internal
quotation marks, brackets and ellipsis omitted]).

In his Complaint, Plaintiff alleges in wholly conclusory
terms that Defendants Bill, Carver, DeBroize, Nowicki,
Maxymillian, and Hogan failed to “adequately train the
staff under their supervision and fail[ed] to act within
the scope and training of the position and job title they
hold.” (Dkt. No. 1 at 8.) Plaintiff alleges that he submitted
a letter of complaint to Defendant Hogan and wrote
to Defendant Nowicki on several occasions expressing
concern his complaint had not been responded to, only to
be advised that in September, 2011 that an investigation
was ongoing. {Id. at 6-7.) Plaintiff does not allege that any
of these Defendants personally participated in the alleged
assault on August 8, 2011.
Here, even when construed with the utmost special
liberality, Plaintiffs Complaint fails to allege facts
plausibly suggesting any personal involvement by these
Defendants in the alleged used of excessive force

on August 8, 2011. As a result, Plaintiffs claims
against Defendants Bill, Carver, DeBroize, Nowicki,
Maxymillian, and Hogan arising from this incident are
sua sponte dismissed pursuant to 28 U.S.C. § 1915(e)
(2)(B)(ii) and Fed.R.Civ.P. 12(b)(6). This dismissal is
without prejudice to Plaintiffs right to file an Amended
Complaint that corrects the above-described pleading
defects, and states a viable claim against these Defendants.
The Court notes that, at this early stage of the case,
Plaintiff has the right—without leave of the Court—
to file an Amended Complaint within the time limits
established by Fed.R.Civ.P. 15(a)(1)(B). However, if he
seeks to file an Amended Complaint after those time
limits, he must file a motion for leave to file an Amended
Complaint in accordance with Fed.R.Civ.P. 15(a)(2).
In either event, Plaintiff is advised that any Amended
Complaint must be a complete pleading that will replace and
supersede the original Complaint in its entirety, and that
may not incorporate by reference any portion of the original
Complaint. See N.D.N.Y. L.R. 7.1(a) (4).
*7 Finally, although Plaintiff names Sgt. Sweet as a
Defendant in the caption of the complaint and in the
listing of the parties, he has not set forth in the Complaint
any allegations of fact regarding the conduct of this
Defendant complained of. {See generally Dkt. No. 1.) As
a result, the Complaint fails to state a claim upon which
relief may be granted and Sgt. Sweet is dismissed from
this action without prejudice to Plaintiffs right to file an
Amended Complaint as set forth above.

IV. MOTION FOR INJUNCTIVE RELIEF
A preliminary injunction is an “extraordinary remedy
that should not be granted as a routine matter.” Patton
v. Dole, 806 F.2d 24, 28 (2d Cir. 1986). In most cases,
to warrant the issuance of a preliminary injunction, a
movant must show (a) irreparable harm and (b) either
(1) a likelihood of success on the merits of the claim
or (2) sufficiently serious questions going to the merits,
and a balance of hardships tipping decidedly in favor of
the moving party. D.D. ex rel. V.D. v. New York City
Bd. of Educ., 465 F.3d 503, 510 (2d Cir.2006) (quotation
omitted). “The purpose of issuing a preliminary injunction
is to ‘preserve the status quo and prevent irreparable
harm until the court has an opportunity to rule on
the ... merits.’ “ Candelaria v. Baker, 00-CV-912, 2006
WL 618576, at *3 (W.D.N.Y. Mar. 10, 2006) (quoting
Devose v. Herrington, 42 F.3d 470, 471 [8th Cir. 1994]
). Preliminary injunctive relief “ ‘should not be granted

WESTLAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

7

Groves v.

Document 29 Filed 02/11/19 Page 43 of 77

2012 WL 651919
unless the movant, by a clear showing, carries the burden
of persuasion.’ “ Moore v. Consolidated Edison Co. of
New York, Inc., 409 F.3d 506, 510 (2d Cir.2005) (quoting
Mazurek v. Armstrong, 520 U.S. 968, 972 [1997]). “Where
there is an adequate remedy at law, such as an award
of money damages, injunctions are unavailable except in
extraordinary circumstances.” Moore, 409 F.3d at 510
(citing Morales v. Trans World Airlines, Inc., 504 U.S. 374,
381, 112 S.Ct. 2031, 119 L.Ed.2d 157 (1992). The same
standards govern consideration of an application for a
temporary restraining order. Perri v. Bloomberg, 06-CV0403, 2008 WL 2944642, at *2 (E.D.N.Y. Jul.31, 2008)
[citation omitted]. The district court has broad discretion
in determining whether to grant a preliminary injunction.
Moore, 409 F.3d at 511.
“The Second Circuit has defined ‘irreparable harm’
as ‘certain and imminent harm for which a monetary
award does not adequately compensate,’ noting that
‘only harm shown to be non-compensable in terms of
money damages provides the basis for awarding injunctive
relief.’ “ Perri, 2008 WL 2944642, at *2 (citing Wisdom
Import Sales Co., L.L.C. v. Labatt Brewing Co., Ltd., 339
F.3d 101, 113-14 [2d Cir.2003] ); see also Kamerling v.
Massanari, 295 F.3d 206, 214 (2d Cir.2002) (“To establish
irreparable harm, a party seeking preliminary injunctive
relief must show that there is a continuing harm which
cannot be adequately redressed by final relief on the
merits and for which money damages cannot provide
adequate compensation.”) (internal quotation omitted).
Speculative, remote or future injury is not the province
of injunctive relief. Los Angeles v. Lyons, 461 U.S. 95,
111-12, 103 S.Ct. 1660, 75 L.Ed.2d 675 (1983); iee also
Hooks v. Howard, 07-CV-0724, 2008 WL 2705371, at *2
(N.D.N.Y. Jul.3, 2008) (citation omitted) (“Irreparable
harm must be shown to be imminent, not remote or
speculative, and the injury must be such that it cannot be
fully remedied by monetary damages.”).
*8 Plaintiff has submitted a document entitled “Order to
Show Cause for Preliminary Injunction and Temporary]
Restraining Order.” (Dkt. No. 3.) Construed liberally,
Plaintiffs submission seeks a temporary restraining
order and injunctive relief enjoining Defendants from
“submitting and filing false and untrue statements and
reports” regarding the August 11, 2011 incident, and to
“stop all retaliatory actions against the plaintiff ....“ (Id.
at 1.) Plaintiff also seeks an “Order of Seperation [sic]”
directing that Defendants Davis, Sill, Nicolette, Bill,

Carver and DeBroize be “restrained from being within 100
feet from the plaintiff in any form or matter.” (Id. at 2.)
The Court has reviewed Plaintiffs motion papers
thoroughly and considered the claims asserted therein
in the light most favorable to Plaintiff, as a pro se
litigant. Based upon that review, the Court finds that the
harm Plaintiff alleges is purely speculative and, therefore,
not “irreparable.” Plaintiffs motion is supported only
by a recitation of the alleged assault in August, 2011.
(Id. at 1-4.) Plaintiff has not supported the claims of
ongoing misconduct set forth in his motion papers with
any factual allegations, such as the dates on which the
misconduct occurred, the nature of the injuries he claims
to have suffered, the identities of the persons responsible
for the conduct he seeks to enjoin, or the relationship
between those actions and the claims asserted in his
Complaint. Simply stated, Plaintiffs alleged fear of future
wrongdoing by the Defendants is not sufficient to warrant
the extraordinary remedy of preliminary injunctive relief.
The Court further notes that the requested injunctive
relief cannot be granted unless there is also proof that
Plaintiff has a likelihood of succeeding on the merits of
his claim, or evidence that establishes sufficiently serious
questions going to the merits of his claim and a balance
of hardships tipping decidedly toward him. See Covino
v. Patrissi, 967 F.2d 73, 77 (2d Cir.1992). Plaintiff has
failed to submit proof or evidence that meets this standard.
Plaintiffs allegations, standing alone, are not sufficient
to entitle him to preliminary injunctive relief. See Ivy
Mar Co. v. C.R. Seasons Ltd., 907 F.Supp. 547, 561
(E.D.N.Y. 1995) (“[B]are allegations, without more, are
insufficient for the issuance of a preliminary injunction.”);
Hancock v. Essential Resources, Inc., 792 F.Supp. 924,928
(S.D.N.Y.1992) (“Preliminary injunctive relief cannot rest
on mere hypothetical.”). Without evidence to support his
claims that he is in danger from the actions of anyone at
CNYPC, the Court will not credit Plaintiffs conclusory
allegations that he will be retaliated against or harmed in
the future.
Plaintiff has failed to establish either of the two requisite
elements discussed above. As a result, Plaintiffs request
for a temporary restraining order and/or injunctive relief
is denied.

V. MOTION FOR APPOINTMENT OF COUNSEL

WESTLAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

8

Groves v. 6^l&,«^96f¥!sI^WiDocument29

R'ed 02/11/19 Page 44 of 77

2012 WL 651919
*9 Courts cannot utilize a bright-line test in determining
whether counsel should be appointed on behalf of an
indigent party. Hendricks v. Coughlin, 114 F.3d 390, 39293 (2d Cir. 1997). Instead, a number of factors must be
carefully considered by the court in ruling upon such a
motion:

[T]he district judge should first
determine whether the indigent's
position seems likely to be of
substance. If the claim meets this
threshold requirement, the court
should then consider the indigent's
ability to investigate the crucial
facts, whether conflicting evidence
implicating the need for cross
examination will be the major proof
presented to the fact finder, the
indigent's ability to present the case,
the complexity of the legal issues
and any special reason in that case
why appointment of counsel would
be more likely to lead to a just
determination.

Terminate Control Corp. v. Horowitz, 28 F.3d 1335,
1341 (2d Cir. 1994) (quoting Hodge v. Police Officers,
802 F.2d 58, 61 [2d Cir. 1986] ). This is not to say that
all, or indeed any, of these factors are controlling in a
particular case.14 Rather, each case must be decided on
its own facts. Velasquez v. O'Keefe, 899 F.Supp. 972, 974
(N.D.N.Y.1995) (McAvoy, C.J.) (citing Hodge, 802 F.2d
at 61).

it appears to the Court as though, to date, Plaintiff has
been able to effectively litigate this action; (3) while it is
possible that there will be conflicting evidence implicating
the need for cross-examination at the time of the trial, as is
the case in many actions brought under 42 U.S.C. § 1983
by pro se litigants, “this factor alone is not determinative
of a motion for appointment of counsel,” Velasquez, 899
F.Supp. at 974; (4) if this case survives any dispositive
motions filed by Defendants, it is highly probable that
this Court will appoint trial counsel at the final pretrial
conference; (5) this Court is unaware of any special reasons
why appointment of counsel at this time would be more
likely to lead to a just determination of this litigation;
and (6) Plaintiffs motion for counsel is not accompanied
by documentation that substantiates his efforts to obtain
counsel from the public and private sector.
For these reasons, Plaintiffs motion for the appointment
of counsel is denied without prejudice. After the
Defendants have responded to the allegations in the
Complaint which survive sua sponte review, and the
parties have undertaken discovery, Plaintiff may file a
second motion for the appointment of counsel, at which
time the Court may be better able to determine whether
such appointment is warranted in this case. Plaintiff
is advised that any second motion for appointment of
counsel must be accompanied by documentation that
substantiates his efforts to obtain counsel from the public
and private sector.
*10 ACCORDINGLY, it is
ORDERED that Plaintiffs motion to proceed in forma
pauperis (Dkt. No. 2) is GRANTED;15 and it is further
15

14

For example, a plaintiffs motion for counsel must
always be accompanied by documentation that
substantiates his efforts to obtain counsel from the
public and private sector, and such a motion may
be denied solely on the failure of the plaintiff to
provide such documentation. See Terminate Control
Corp. v. Horowitz, 28 F.3d 1335, 1341 (2d Cir.1994);
Cooper v. Sargenti Co., Inc., 877 F.2d 170, 172, 174
(2d Cir. 1989) [citation omitted].

Upon due consideration, the Court finds that the relevant
factors weigh decidedly against granting Plaintiffs motion
at this time. For example, the Court finds as follows: (1)
the case does not present novel or complex issues; (2)

Plaintiff should note that he will still be required to
pay fees that he may incur in this action, including but
not limited to copying and/or witness fees.

ORDERED that Plaintiffs motion for injunctive relief
(Dkt. No. 3) is DENIED; and it is further
ORDERED that Plaintiffs motion for appointment of
counsel (Dkt. No. 4) is DENIED without prejudice; and it
is further
ORDERED that Plaintiffs claims of deliberate
indifference against Defendants Bill, Carver and DeBroize
are sua sponte DISMISSED with prejudice pursuant to 28

WESTiAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

9

Groves v.

e^m^9P!sI^-J»ft)Document29 Filed 02/11/19 Page 45 of 77

2012 WL 651919

U.S.C. § 1915(e)(2) (B)(ii) and Fed.R.Civ.P. 12(b)(6); and
it is further
ORDERED that Plaintiffs claims against Defendants Bill,
Carver, DeBroize, Nowicki, Maxymillian, and Hogan
arising from their alleged personal involvement in the
August 8, 2011 incident are sua sponte DISMISSED
without prejudice and with leave to amend in this action in
accordance with Fed.R.Civ.P. 15 (as described above in
Part III.B.3. of this Decision and Order), pursuant to 28
U.S.C. § 1915(e)(2)(B)(ii) and Fed.R.Civ.P. 12(b)(6); and
it is further
ORDERED that Defendant Sweet is sua sponte
DISMISSED without prejudice and with leave to be
reinstated as a Defendant in this action in accordance with
Fed.R.Civ.P. 15, pursuant to 28 U.S.C. § 1915(e)(2)(B)(ii)
and Fed.R.Civ.P. 12(b)(6); and it is further
ORDERED that Plaintiffs Complaint (Dkt. No. 1) is
otherwise accepted for filing (i.e., as to the claims against
Defendants Davis, Sill, and Nicolette arising from the
August 8, 2011 incident); and it is further
ORDERED that Plaintiff provide a summons, USM-285
form and a copy of the complaint for Defendant Davis,
Sill and Nicollette for service, and upon receipt from
Plaintiff of the documents required for service of process,
the Clerk shall (1) issue summonses and forward them,
along with copies of the Complaint to the United States
Marshal for service upon the remaining Defendants, and
(2) forward a copy of the summons and Complaint by mail
to the Office of the New York State Attorney General,
End of Document

together with a copy of this Decision and Order; and it is
further
ORDERED that, after service of process on Defendants, a
response to the Complaint shall be filed by the Defendants
or their counsel as provided for in the Federal Rules of
Civil Procedure; and it is further
ORDERED that all pleadings, motions and other
documents relating to this action be filed with the Clerk
of the United States District Court, Northern District of
New York, 7th Floor, Federal Building, 100 S. Clinton
St., Syracuse, New York 13261-7367. Any paper sent by
a party to the Court or the Clerk must be accompanied
by a certificate showing that a true and correct copy of it
was mailed to all opposing parties or their counsel. Any
document received by the Clerk or the Court which does
not include a certificate of service showing that a copy was
served upon all opposing parties or their attorneys will be
stricken from the docket. Plaintiff must comply with any
requests by the Clerk's Office for any documents that are
necessary to maintain this action. All parties must comply
with Local Rule 7.1 of the Northern District of New York
in filing motions. Plaintiff is also required to promptly
notify, in writing, the Clerk's Office and all parties or their
counsel of any change in Plaintiffs address; his failure to so
may result in the dismissal of this action. All motions will be
decided on submitted papers without oral argument unless
otherwise ordered by the Court.

All Citations
Not Reported in F.Supp.2d, 2012 WL 651919
(©2019 Thomson Reuters. No claim to original U.S. Government Works.

WESTLAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

10

§ii^o^-®^°-TJM-TWD Document 29 Filed 02/11/19 Page 46 of 77

Hayes v.
2018 WL 555513

(3) Insofar as it seeks dismissal of plaintiffs First
Amendment claims against C.O. Meier and C.O.
Hoffman for retaliation,

2018 WL 555513
Only the Westlaw citation is currently available.
United States District Court, N.D. New York.

(4) Insofar as it seeks dismissal of plaintiffs supervisory
liability claims against Supt. Martuscello for C.O.
Dahkle’s verbal harassment and/or threats, [and]

Taheen HAYES, Plaintiff,
v.
T. DAHKLE, et al., Defendants.

l
Insofar as it seeks dismissal of plaintiffs
(5)
supervisory liability claims against Supt. Martuscello
and DSS Shanley for C.O. Meier’s retaliation.

9:i6-CV-1368
Signed 01/19/2018

Id., pp. 36-37.
Attorneys and Law Firms
Taheen Hayes, Alden, NY, pro se.
Helena O. Pederson, William A. Scott, New York State
Attorney General, Albany, NY, for Defendants.

DECISION & ORDER
Thomas J. McAvoy, Senior, U.S. District Judge
I. INTRODUCTION
*1 This pro se action brought pursuant to 42 U.S.C.
§ 1983 was referred to the Hon. Christian F. Hummel,
United States Magistrate Judge, for a Report and
Recommendation pursuant to 28 U.S.C. § 636(b) and
Local Rule 72.3(c).
In his October 27, 2017 Report-Recommendation
and Order [Dkt. No. 33], Magistrate Judge Hummel
recommends that defendants' partial motion to dismiss
[Dkt. No. 26] be granted “[i]nsofar as it seeks dismissal of
plaintiffs claims against C.O. Dahkle, C.O. Hoffman, and
C.O. Meier for verbal harassment and/or threats,” and
that these claims be dismissed with prejudice. Dkt. No. 33,
p. 36. Magistrate Judge Hummel also recommends that
defendants' partial motion be denied:
(1) Insofar as it seeks dismissal of plaintiffs Eighth
Amendment claim against C.O. Dahkle for sexual
assault,
(2) Insofar as it seeks dismissal of plaintiffs claims
against Supt. Martuscello for verbal harassment and/or
threats,

1

This sub-paragraph was enumerated as “(4)” in the
Report-Recommendation and Order.

Defendants object to that portion of the ReportRecommendation and Order denying their motion
“insofar as it seeks dismissal of plaintiffs supervisory
liability claims against Supt. Martuscello for C.O.
Dahkle’s verbal harassment and/or threats.” (Obj., Dkt.
No. 36)(quoting Dkt. No. 33, at p. 36).

II. STANDARD OF REVIEW
When objections to a magistrate judge’s report and
recommendation are lodged, the district court makes a
“de novo determination of those portions of the report
or specified proposed findings or recommendations to
which objection is made.” 28 U.S.C. § 636(b)(1); see also
United States v. Male Juvenile, 121 F.3d 34, 38 (2d Cir.
1997) (The Court must make a de novo determination
to the extent that a party makes specific objections
to a magistrate judge’s findings.). After reviewing the
report and recommendation, the Court may “accept,
reject, or modify, in whole or in part, the findings or
recommendations made by the magistrate judge. The
judge may also receive further evidence or recommit the
matter to the magistrate judge with instructions.” 28
U.S.C. § 636(b).

III. DISCUSSION
a. Defendants' Objection
As Magistrate Judge Hummel correctly points out,
“[a]bsent a subordinate’s underlying constitutional
violation, there can be no supervisory liability.” Dkt. No.
33, at p. 30 (citing Hernandez v. Keane, 341 F.3d 137,

WESTLAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

1

Hayes v.

fiiJI:oc{)V@^)0'TJM'TWD

Document 29

Filed 02/11/1.9

Page 47 of 77

2018 WL 555513

145 (2d Cir. 2003); Elek v. Inc. Vill. of Monroe, 815 F.
Supp. 2d 801, 808 (S.D.N.Y. 2011)). The Court accepts
and adopts Magistrate Judge Hummel’s conclusion that
C.O. Dahkle’s statements “constitute vague threats that
lack the specificity and seriousness ‘to deter an inmate
from exercising his First Amendment rights’ as no real
threat exists.” Id. p. 19 (quoting Davis v. Goord, 320
F.3d 346, 353 (2d Cir. 2003)). The Court also agrees with
Magistrate Judge Hummel that C.O. Dahkle’s statements
and threats “do not qualify as constitutional violations
because ‘harassing comments and hostile behavior do not
constitute adverse actions sufficient to state a retaliation
claim.’ ” Id. p. 18 (quoting Quezada v. Roy, No. 14 Civ.
4056(CM), 2015 WL 5970355, at *21 (S.D.N.Y. Oct. 13,
2015)); see also Espinal v. Goord, 558 F.3d 119, 128 (2d
Cir. 2009)(“To prove a First Amendment retaliation claim
under Section 1983, a prisoner must show that ‘(1) that
the speech or conduct at issue was protected, (2) that
the defendant took adverse action against the plaintiff,
and (3) that there was a causal connection between the
protected speech and the adverse action.’ ”)(quoting Gill v.
Pidlypchak, 389 F.3d 379, 380 (2d Cir. 2004), overruled on
other grounds by Swierkiewicz v. Sorema, N. A., 534 U.S.
506, 560 (2002)). Because the underlying claims against
C.O. Dahkle for verbal harassment and/or threats will
be dismissed, plaintiff cannot sustain supervisory liability
claims against Supt. Martuscello for C.O. Dahkle’s verbal
harassment and/or threats. Thus, Defendants' objection is
sustained.

b. First Amendment Retaliation Claims Against C.O.
Langtry, C.O. Bence, and C.O. Coon
*2 As indicated in the Report-Recommendation and
Order, plaintiff concedes that he fails to allege legally
viable First Amendment retaliation claims against
defendants C.O. Langtry, C.O. Bence, and C.O. Coon.
Dkt. No. 33, at 23 (citing Dkt. No. 30 at 20). Thus,
Magistrate Judge Hummel recommends in the Discussion
section that “plaintiffs retaliation claims against C.O.
Langtry, C.O. Bence, and C.O. Coon be dismissed
as plaintiff fails to provide any factual allegations to
support a claim that these defendants violated his First
Amendment rights.” Id. at 25-26. This recommendation,
however, does not appear in the Conclusion section of the
Report Recommendation and Order.
Because plaintiff has already been given an opportunity
to amend his complaint, and because he does not assert
that there are any addition facts that would support legally

plausible First Amendment retaliation claims against
defendants C.O. Langtry, C.O. Bence, and C.O. Coon,
these claims will be dismissed without leave to re-plead.

IV. CONCLUSION
For the reasons discussed above, the Court ACCEPTS
AND ADOPTS Magistrate Judge Hummel’s October
27, 2017 Report-Recommendation and Order IN PART,
and MODIFIES IT IN PART in accordance with this
decision.
Accordingly, defendants' partial motion to dismiss [Dkt.
No. 26] is GRANTED:
(1) insofar as it seeks dismissal of plaintiffs claims
against C.O. Dahkle, C.O. Hoffman, and C.O. Meier
for verbal harassment and/or threats,
(2) insofar as it seeks dismissal of plaintiff s supervisory
liability claims against Supt. Martuscello for C.O.
Dahkle’s verbal harassment and/or threats.
and
(3) insofar as it seeks dismissal of plaintiffs First
Amendment retaliation claims against C.O. Langtry,
C.O. Bence, and C.O. Coon.
These claims are DISMISSED WITH PREJUDICE.
Further, Defendants' partial motion to dismiss [Dkt. No.
26] is DENIED:
(1) Insofar as it seeks dismissal of plaintiffs Eighth
Amendment claim against C.O. Dahkle for sexual
assault,
(2) Insofar as it seeks dismissal of plaintiffs claims
against Supt. Martuscello for verbal harassment and/or
threats,
(3) Insofar as it seeks dismissal of plaintiffs First
Amendment claims against C.O. Meier and C.O.
Hoffman for retaliation,
and
(4) Insofar as it seeks dismissal of plaintiffs supervisory
liability claims against Supt. Martuscello and DSS
Shanley for C.O. Meier’s retaliation.

WESTLAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

2

Hayes v.

Document 29 Filed 02/11/19 Page 48 of 77

2018 WL 555513

IT IS SO ORDERED.

All Citations

Slip Copy, 2018 WL 555513
End of Document

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

WESTLAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

3

(2PflfUment 29 Rled 02/11/19 Pa0e 49 °f 77
2010 WL 843872

2010 WL 843872
Only the Westlaw citation is currently available.
This decision was reviewed by West editorial
staff and not assigned editorial enhancements.
United States District Court,
N.D. New York.
Derrick THOMPSON, Plaintiff,
v.

Mr. CARLSEN, Superintendent of
Ulster Correctional Facility; White, Ms.,
Administrative Nurse; Franza, Nurse,
Ulster Correctional Facility; Crawley, Nurse,
Ulster Correctional Facility, Defendants.
Civ. No. 9:o8-CV-487 (TJM/RFT).
March 10, 2010.

Attorneys and Law Firms

ORDERED that Defendants' Motion for Summary
Judgment (Dkt. No. 24) is GRANTED and the Complaint
(Dkt. No. 1) is DISMISSED in its entirety. The Clerk
of the Court is instructed to enter judgment in favor of
Defendants and to close the file in this matter.

IT IS SO ORDERED.
REPOR T-RECOMMENDA TJON and ORDER
RANDOLPH F. TREECE, United States Magistrate
Judge.
Pro se Plaintiff Derrick Thompson has filed a civil
rights action, pursuant to 42 U.S.C. § 1983, alleging
that Defendants were deliberately indifferent to his
serious medical needs and therefore violated his Eighth
Amendment rights. Dkt. No. 1, Compl. Defendants now
move for summary judgment pursuant to FED. R. CIV.
P. 56(c). Dkt. No. 24. Plaintiff opposes the Motion. Dkt.
No. 26. For the reasons that follow, it is recommended
that the Defendants' Motion be GRANTED.

Derrick Thompson, Rego Park, NY, pro se.
Hon. Andrew M. Cuomo, Attorney General for the State
of New York, Krista A. Rock, Esq., Assistant Attorney
General, of Counsel, Albany, NY, for Defendants.

DECISION & ORDER
THOMAS J. McAVOY, Senior District Judge.
I. INTRODUCTION
*1 This pro se action brought pursuant to 42 U.S.C.
§ 1983 was referred to the Hon. Randolph F. Treece,
United States Magistrate Judge, for a Report and
Recommendation pursuant to 28 U.S.C. § 636(b) and
Local Rule 72.3(c). No objections to the ReportRecommendation and Order dated February 16, 2010
have been filed, and the time to do so has expired.
Furthermore, after examining the record, this Court has
determined that the Report-Recommendation and Order
is not subject to attack for plain error or manifest
injustice. Accordingly, the Court adopts the ReportRecommendation and Order for the reasons stated
therein.

I. FACTS
The following facts were derived mainly from the
Defendants' Statement of Material Facts, submitted in
accordance with N.D.N.Y.L.R. 7.1, which were not,
in their entirety, specifically countered nor opposed by
Plaintiff. See N.D.N.Y.L.R. 7.1(a)(3) ("Any facts set forth
in the Statement of Material Facts shall be deemed admitted
unless specifically controverted by the opposing party.”
(emphasis in original)). However, where Plaintiff has
contradicted Defendants' Statement of Material Facts,
either in his Complaint or in his Response in Opposition
to Defendants' Motion, we will not deem those facts
admitted for the purposes of addressing this Motion.
At around 9 a.m. on October 9, 2007, while Plaintiff was
housed at Ulster Correctional Facility (“Ulster”), Plaintiff
complained to his dorm officer about pain in his chest.
Dkt. No. 24, Defs.' 7.1 Statement at U 1. The dorm officer
called Defendant Nurse Franza and informed her that
Plaintiff wished to be seen by medical staff as soon as
possible. Id. at K 2. At the time Franza received that call,
the regular sick call for that day was over, nonetheless, an

It is therefore,
WESTLAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

1

Thompso„%trSA7-fiVift9m-m->W'fl

ument 29 Filed 02/11,19 Pa°e 50 0f 77

2010 WL 843872

emergency sick call procedure is available every day for
inmates who need to be seen for a medical emergency. Id.
at Iff 3-4.
At around 9:30 a.m. that morning, Defendant Nurse
Crawley received a phone call from a corrections officer
working in Plaintiffs housing dorm, stating that Plaintiff
was complaining about burning in his chest and wanted
to be seen by medical staff. Id. at U 9. Crawley advised
the corrections officer that Plaintiff should sign up for the
next available sick call. Id. at 10; Pl.'s Resp. in Opp'n
to Defs.' Mot., Mem. of Law at p. 2. The corrections
officer asked Crawley whether Plaintiff should be sent
for emergency sick call, to which Crawley responded
that Plaintiffs description of his medical problem did
not seem to constitute a medical emergency. Defs.' 7.1
Statement at Iff 11-12. Crawley questioned the officer
about whether Plaintiff was showing any signs of distress,
including profuse sweating, chest pain and/or difficulty
breathing. Id. atff 13; Pl.'s Mem. of Law at pp. 3-4. There
was no indication that Plaintiff was exhibiting any such
symptoms. Defs.' 7.1 Statement at TI14.
*2 Thereafter, a sergeant sent Plaintiff to the infirmary
to be seen by medical staff. Id. at H 15. Nurse Crawley
attended to Plaintiff upon his arrival in the infirmary,
where he complained of chest pain. Id. at Iff 16-17; Pl.'s
Mem. of Law at p. 2. Plaintiff left the emergency room
area without permitting Crawley to complete a more
thorough physical examination. Defs.' 7.1 Statement at
21. Crawley issued Plaintiff a Misbehavior Report,
alleging that after he arrived at the infirmary on October
9, 2007, Crawley denied his request for non-emergency
medication and Plaintiff became loud, argumentative,
and refused further assessment. Id. at ^ 22; Dkt.
No. 24-10, Nurse W. Crawley Affi, dated June 10,
2009, Ex. C, Misbehavior Rep., dated Oct. 9, 2007
(hereinafter “Misbehavior Rep.”). In the Misbehavior
Report, Plaintiff was charged with interference with an
employee, harassment, and disobeying a direct order.
Defs.' 7.1 Statement at | 22; Misbehavior Rep. Plaintiff
pled guilty to all three charges. Defs.' 7.1 Statement at T] 23.
On October 10,2007, Plaintiff again went to the infirmary
and was seen by Defendant Franza. Id. at ^ 24. Plaintiff
filed a Grievance regarding the allegedly inappropriate
medical care provided on October 9,2007. Id. at ^ 25. That
Grievance was processed pursuant to departmental policy
and was ultimately denied. Id. at ^ff 28-29.

II. DISCUSSION
A. Summary Judgment Standard
Pursuant to FED. R. CIV. P. 56(c), summary judgment
is appropriate only where “there is no genuine issue as
to any material fact and [the moving party] is entitled
to judgment as a matter of law.” The moving party
bears the burden to demonstrate through “ ‘pleadings,
depositions, answers to interrogatories, and admissions
on file, together with [ ] affidavits, if any,’ “ that there is
no genuine issue of material fact. F.D.I.C. v. Giammettei,
34 F.3d 51, 54 (2d Cir.1994) (citing Celotex Corp. v.
Catrett, All U.S. 317, 323 (1986)). “When a party has
moved for summary judgment on the basis of asserted
facts supported as required by [Federal Rule of Civil
Procedure 56(e) ] and has, in accordance with local court
rules, served a concise statement of the material facts as
to which it contends there exist no genuine issues to be
tried, those facts will be deemed admitted unless properly
controverted by the nonmoving party.” Glazer v. Formica
Corp., 964 F.2d 149, 154 (2d Cir.1992).
To defeat a motion for summary judgment, the non­
movant must “set out specific facts showing [that there
is] a genuine issue for trial,” and cannot rest “merely
on allegations or denials” of the facts submitted by the
movant. FED. R. CIV. P. 56(e); see also Scott v. Coughlin,
344 F.3d 282, 287 (2d Cir.2003) (“Conclusory allegations
or denials are ordinarily not sufficient to defeat a motion
for summary judgment when the moving party has set
out a documentary case.”); Rexnord Holdings, Inc. v.
Bidermann, 21 F.3d 522, 525-26 (2d Cir.1994). To that
end, sworn statements are “more than mere conclusory
allegations subject to disregard ... they are specific and
detailed allegations of fact, made under penalty of perjury,
and should be treated as evidence in deciding a summary
judgment motion” and the credibility of such statements
is better left to a trier of fact. Scott v. Coughlin, 344 F.3d
at 289 (citing Flaherty v. Coughlin, 713 F.2d 10, 13 (2d
Cir.1983) and Colon v. Coughlin, 58 F.3d 865, 872 (2d
Cir. 1995)).
*3 When considering a motion for summary judgment,
the court must resolve all ambiguities and draw all
reasonable inferences in favor of the non-movant. Nora
Beverages, Inc. v. Perrier Group ofAm., Inc., 164 F.3d 736,

WESTIAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

2

Thomp5.n%lrgil7iJ;Y!89m»»;Bl <mumem 29 Filed 02/11/19 page 51 of 77
2010 WL 843872

742 (2d Cir.1998). “[T]he trial court's task at the summary
judgment motion stage of the litigation is carefully limited
to discerning whether there are any genuine issues of
material fact to be tried, not to deciding them. Its duty, in
short, is confined at this point to issue-finding; it does not
extend to issue-resolution.” Gallo v. Prudential Residential
Servs., Ltd. P'ship, 22 F.3d 1219, 1224 (2d Cir.1994).
Furthermore, where a party is proceeding pro se, the
court must “read [his or her] supporting papers liberally,
and ... interpret them to raise the strongest arguments
that they suggest.” Burgos v. Hopkins, 14 F.3d 787, 790
(2d Cir.1994), accord, Soto v. Walker, 44 F.3d 169, 173
(2d Cir.1995). Nonetheless, mere conclusory allegations,
unsupported by the record, are insufficient to defeat a
motion for summary judgment. See Carey v. Crescenzi,
923 F.2d 18, 21 (2d Cir.1991).

B. Eighth Amendment Claim
To state an Eighth Amendment claim for denial of
adequate medical care, a prisoner must demonstrate that
prison officials acted with “deliberate indifference to
serious medical needs.” Estelle v. Gamble, 429 U.S. 97,
104 (1976). The plaintiff must allege conduct that is “
‘repugnant to the conscience of mankind’ or ‘incompatible
with the evolving standards of decency that mark the
progress of a maturing society.’ “ Ross v. Kelly, 784
F.Supp. 35, 44 (W.D.N.Y.), affd, 970 F.2d 896 (2d
Cir.1992)) (quoting Estelle v. Gamble, 429 U.S. at 102,
105-06).
To state a claim for denial of medical care, a prisoner
must demonstrate (1) a serious medical condition and
(2) deliberate indifference. Farmer v. Brennan, 511 U.S.
825, 834-35 (1994); Hathaway v. Coughlin ("Hathaway
I"), 37 F.3d 63, 66 (2d Cir.1994). The first prong
is an objective standard and considers whether the
medical condition is sufficiently serious. The Second
Circuit has stated that a medical need is serious if it
presents “ ‘a condition of urgency’ that may result in
‘degeneration’ or ‘extreme pain.’ “ Chance v. Armstrong,
143 F.3d 698, 702 (2d Cir.1998) (quoting Hathaway
I, 37 F.3d 63, 66 (2d Cir.1994)). Among the relevant
factors to consider are “[t]he existence of an injury that
a reasonable doctor or patient would find important
and worthy of comment or treatment; the presence
of a medical condition that significantly affects an
individuals daily activities; or the existence of chronic

and substantial pain.” Chance v. Armstrong, 143 F.3d at
702 (quoting McGuckin v. Smith, 974 F.2d 1050, 1059-60
(9th Cir.1992)). The second prong is a subjective standard
requiring a plaintiff to demonstrate that the defendant
acted with the requisite culpable mental state similar to
that of criminal recklessness. Wilson v. Setter, 501 U.S.
294, 301-03 (1991); Hathaway I, 37 F.3d at 66. A plaintiff
must demonstrate that the defendant acted with reckless
disregard to a known substantial risk of harm. Farmer
v. Brennan, 511 U.S. at 836. This requires “something
more than mere negligence ... but something less than
acts or omissions for the very purpose of causing harm or
with knowledge that harm will result.” Id. at 835; see also
Weyant v. Okst, 101 F.3d 845, 856 (2d Cir.1996) (citing
Farmer ). Further, a showing of medical malpractice is
insufficient to support an Eighth Amendment claim unless
“the malpractice involves culpable recklessness, i.e., an
act or a failure to act by the prison doctor that evinces
‘a conscious disregard of a substantial risk of serious
harm.’ “ Chance v. Armstrong, 143 F.3d at 702 (quoting
Hathaway v. Coughlin (“Hathaway II"), 99 F.3d 550, 553
(2d Cir.1996)); see also Hernandez v. Keane, 341 F.3d 137,
144 (2d Cir.2003) (citations omitted).
*4 In this case, Plaintiff asserts that Defendants Franza
and Crawley were deliberately indifferent to his serious
medical needs when they allegedly denied him treatment
for his chest pain on October 9 and 10, 2007.

1. Claims against Crawley
In his Complaint, Plaintiff alleges that on October 9,
2007, Defendant Crawley denied his request to see a
doctor and denied him medical treatment. Compl. at p. 3.
Plaintiff further asserts that he was seen by a doctor on
the following day, and was diagnosed as having a heart
murmur. Id. In his Grievance, dated October 9, 2007,
Plaintiff made the following allegations: On October 9th,
Crawley denied his request to see a doctor through a
corrections officer with whom she was speaking on the
telephone. Grievance at p. 2. Thereafter, Plaintiff was sent
down to the medical clinic, where Crawley again denied
him the medical attention he needed. Id.
In her Affidavit submitted in support of the Motion
for Summary Judgment, Crawley affirms that on the
morning of October 9th, she received a phone call from
a corrections officer working in Plaintiffs housing dorm,

WESTIAW ■© 2019 Thomson Reuters. No claim to original U.S. Government Works.

3

Thomp5.n^§ffl7«8Vf8?§fiPdI-M-«a ,2P«ument 29 Filed 02/11/19 Pa9e 52 0f 77
2010 WL 843872

who told her that Plaintiff “was complaining of burning
in his chest and that he was out of his acid reflux
medication and wanted to be seen by medical staff as
5-6. Crawley
soon as possible, »1 Crawley Aff. at
swears that she asked the officer “whether plaintiff was
showing any signs of distress, including profuse sweating,
chest pain and/or difficulty breathing, which would have
been indicators of some sort of cardiac event.” Crawley
Aff. at T| 8. However, because “[tjhere was no indication
that plaintiff was suffering any such symptoms,” Crawley
concluded that it was not an emergency situation, and
“advised the Corrections Officer that [Plaintiff] should
sign up for the next available regular sick call.” Crawley
Aff. at Ifl] 7-9. Crawley states that shortly thereafter, a
sergeant called and informed her he was sending Plaintiff
to the infirmary. Id. at f 10. According to Crawley,
upon Plaintiffs arrival at the infirmary, he showed no
signs of physical distress, complained only of a burning
sensation in his chest, and asked for more acid reflux
medication, showing her a prior prescription for acid
reflux medication. Id. at Tf 11. Plaintiff denies asking
for medication, Pl.'s Mem. of Law at p. 2, however, he
stated in his Grievance that “when I asked for something
for the pain [ ] ... I was told no,” and that he “tried
to show [Crawley] what a [ ] doctor on Riker's Island
gave [him] when [he] had this problem [ ],” Grievance at
p. 2 (emphasis added). Thus, Plaintiffs statement in his
Grievance confirms that he did in fact ask for medication
to remedy his chest pain.
1

In his Response to Defendants' Motion, Plaintiff
denies complaining of burning in his chest. Pl.'s Resp.
at p. 4. However, we note that Plaintiff stated in his
Complaint that his “chest was burning,” Compl. at p.
3, and complained in his Grievance that he “was stuck
in a dorm left with a burning chest!,” Grievance at p.
2.

Crawley “advised Plaintiff that in order to have his
medication refilled, [she] could not do so as a Nurse, he
would have to sign up for regular sick call.” Crawley
Aff. at K 12. At that point, Plaintiff “became very loud
and argumentative^] insisting that he be given medication
at that time. He then left the emergency room area
without permitting me to complete a more thorough
examination.” Id. As a consequence, Crawley issued
Plaintiff a Misbehavior Report on October 9th charging
him with interference with an employee, harassment, and
disobeying a direct order; Plaintiff later pled guilty to
all three charges.2 Id. at

15; Dkt. No. 24-16, Scott

Carlsen Aff., dated June 22,2009, Ex. C, Disciplinary Hr'g
Tr., dated Oct. 20, 2007, at p. 4 (pleading guilty with an
explanation to all three charges).
2

In his Complaint, Plaintiff does not bring any claims
related to the filing of the Misbehavior Report. In
his Response to Defendants' Motion, Plaintiff alleges
that the Misbehavior Report was false and retaliatory
in nature. These new and conclusory claims are
addressed below in Part II.B.3.

Crawley asserts that Plaintiff has failed to
demonstrate any deliberate indifference on her part. We
agree. Plaintiff has offered no evidence to rebut Crawley's
sworn Affidavit. Furthermore, based on the allegations
contained in Plaintiffs Grievance, it appears that Crawley
examined Plaintiff, determined his condition was nonsevere based on his subjective complaints and his lack of
symptoms, and told him to submit his request for medicine
in accordance with standard non-emergency procedures.
Even assuming Crawley was incorrect in her medical
*5

•7

assessment of Plaintiffs condition, such a misdiagnosis
does not constitute deliberate indifference and therefore
is not a valid basis for an Eighth Amendment claim.
Estelle v. Gamble, 429 U.S. at 106 (a claim that a medical
professional “has been negligent in diagnosing or treating
a medical condition does not state a valid claim of medical
mistreatment under the Eighth Amendment. Medical
malpractice does not become a constitutional violation
merely because the victim is a prisoner.”). Thus, to the
extent Plaintiff brings this § 1983 claim on a theory of
negligence, see Compl. at p. 5, that claim must fail. Id.
Finally, Plaintiffs preference for a different course of
treatment than the one provided does not form the basis
of a valid § 1983 claim; a prisoner does not have the right
to the treatment of his choice. Chance v. Armstrong, 143
F.3d at 703.
3

Defendants do not challenge Plaintiffs factual
allegation that he suffered from a heart murmur
condition nor his legal conclusion that his condition
was sufficiently serious under the objective prong of
the Eighth Amendment test. Thus, for the purposes of
addressing Defendants' Motion, we need not address
those issues.

Because Plaintiff has failed to demonstrate that a
material question of fact exists with respect to his Eighth
Amendment claim based on Crawley's medical treatment,
it is recommended that Summary Judgment be granted on
this claim.

¥tfE$TlAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

4

Thompson^gtrS^V^mm^fi

Jment 29 R'ed 02/11/19 Pa0e 53 °f 77

2010 WL 843872

2. Claims against Franza
In his Complaint, Plaintiff alleges that Franza denied
his request to see a doctor when the corrections officer
in his unit called the infirmary on October 9, 2007.
Compl. at p. 3. In support of his Motion for Summary
Judgment, Franza has submitted an Affidavit in which he
states that the corrections officer who called the infirmary
on October 9th told him that “inmate Thompson was
complaining of heartburn and was out of his acid reflux
medication and wanted to be seen by medical staff as
soon as possible.” Dkt. No. 24-14, C. Franza Aff., dated
June 10, 2009, at^ 5. Franza states that neither heartburn
nor a request for a medication refill constitute a medical
emergency and therefore, he advised Plaintiff to sign up
for the next regular sick call day. Id. at 1) 8. Finally,
Franza states that his “entire understanding of inmate
Thompson's condition was based on what the Corrections
Officer told [him]. In [his] professional opinion, there was
nothing in the description provided to [him] by the officer
that led [him] to believe plaintiff was in any danger or had
a condition requiring immediate medical attention.” Id. at

119Again, Plaintiff has failed to rebut Franza's Affidavit, in
which he swears that based on the information provided
to him by the corrections officer, he determined that
Plaintiff did not require immediate medical attention. As
previously discussed, such a medical assessment, even if
wrong, does not constitute deliberate indifference. Estelle
v. Gamble, 429 U.S. at 106.
*6 For the above reasons, it is recommended that
Summary Judgment be granted on Plaintiffs Eighth
Amendment claim against Franza.

new allegations were not added to the Complaint by
amendment, and are therefore improper. However, even
if we were to consider the merits of these new claims, they
would still fail.
It is well-settled in this Circuit that “threats do not
amount to violations of constitutional rights.” Moncrieffe
v. Witbeck, 2000 WL 949457, at *3 (N.D.N.Y. June
29, 2000) (quoting Malsh v. Austin, 901 F.Supp. 757,
763 (S.D.N.Y.1995)). Furthermore, there is “no general
constitutional right to be free from being falsely accused
in a misbehavior report.” Boddie v. Schnieder, 105 F.3d
857, 862 (2d Cir.1997) (citing Freeman v. Rideout, 808
F.2d 949, 951 (2d Cir.1986)); see also Gill v. Riddick, 2005
WL 755745, at *7 (N.D.N.Y. Mar. 31, 2005). Finally,
Plaintiffs claim that Franza and Crawley conspired to
file a false Misbehavior Report against him in retaliation
for the Grievance he filed against them on October
9th is wholly conclusory and belied by the record. See
Bell. Atl. Corp. v. Twombly, 550 U.S. 544-45 (stating
that a valid claim must have enough factual allegations
“to raise a right to relief above the speculative level”).
Plaintiff pleaded guilty to all the charges brought in
Crawley's Misbehavior Report. Disciplinary Hr'g Tr. at
p. 4. Moreover, the Misbehavior Report is dated October
9, 2007, and, although Plaintiff claims that Crawley and
Franza “pre-dated” the Misbehavior Report, there is no
evidence on the record of such action. Nor is there any
other evidence to suggest that the Misbehavior Report
was issued for anything other than Plaintiffs violation
of the rules, for which he admitted guilt and accepted
responsibility. Thus, Plaintiffs retaliation and conspiracy
claims are also without merit.
For the above reasons, it is recommended that these claims
be dismissed.

C. Supervisory Liability
3. Allegations against Crawley and Franza raised in
Plaintiffs Response in Opposition to Defendants' Motion
Although unmentioned in the Complaint, Plaintiff alleges
in his Response to Defendants' Motion that he saw Franza
during another emergency sick call on October 10, 2007.
PL's Mem. of Law at pp. 2-3. Plaintiff alleges that Franza
threatened him during his sick call visit and conspired
with Crawley to “pre-date” the Misbehavior Report in
retaliation for Plaintiffs October 9th Grievance. These

Plaintiff names Superintendent of Ulster Correctional
Facility Carlsen and Administrative Nurse Ms. White
as Defendants. Beyond listing these Defendants in his
Complaint, Plaintiff provides no details concerning his
claims against these Defendants. However, given their
supervisory roles, we assume Plaintiff seeks damages
against these Defendants based on a theory of supervisory
liability.

WESTLAW © 2019 Thomson Reuters. No claim to original U.S. Government Works,

5

Thompso„^trg6l>7ifiYF8?§m'M-tt;Sl (2GWUment 29 Filed 02/11/19 Pa9e 54 0f 77
2010 WL 843872

If a plaintiff seeks to bring a § 1983 action for supervisory
liability, liability on the part of the supervisor may exist

*7 in one or more of the
following ways: 1) actual direct
participation in the constitutional
violation, 2) failure to remedy
a wrong after being informed
through a report or appeal, 3)
creation of a policy or custom
that sanctioned conduct amounting
to a constitutional violation, or
allowing such a policy or custom
to continue, 4) grossly negligent
supervision of subordinates who
committed a violation, or 5) failure
to act on information indicating
that unconstitutional acts were
occurring.

Hernandez v. Keane, 341 F.3d 137, 145 (2d Cir.2003)
(citing Colon v. Coughlin, 58 F.3d at 873) (further citations
omitted).
In this case, because we find that Plaintiffs underlying
Eighth Amendment claims are without merit, none of
the above bases for supervisory liability are applicable.
See Blyden v. Mancusi, 186 F.3d 252, 265 (2d Cir. 1999)
(“Of course, for a supervisor to be liable under Section
1983, there must have been an underlying constitutional
deprivation.”). Therefore, to the extent Plaintiff intended
End of Document

to bring claims of supervisory liability against Defendants
Carlsen and White, it is recommended that Summary
Judgment be granted on those claims.

III. CONCLUSION
For the reasons stated herein, it is hereby
RECOMMENDED, that the Defendants' Motion for
Summary Judgment (Dkt. No. 24) be GRANTED and the
Complaint (Dkt. No. 1) DISMISSED in its entirety; and
it is further
ORDERED, that the Clerk of the Court serve a copy of
this Report-Recommendation and Order upon the parties
to this action.
Pursuant to 28 U.S.C. § 636(b)(1), the parties have
ten (10) days within which to file written objections
to the foregoing report. Such objections shall be filed
with the Clerk of the Court. FAILURE TO OBJECT
TO THIS REPORT WITHIN TEN (10) DAYS WILL
PRECLUDE APPELLATE REVIEW. Roldan v. Racette,
984 F.2d 85, 89 (2d Cir.1993) (citing Small v. Sec'y of
Health and Human Servs., 892 F.2d 15 (2d Cir. 1989)); see
also 28 U.S.C. § 636(b) (1); FED. R. CIV. P. 72, 6(a), &
6(e).

All Citations
Not Reported in F.Supp.2d, 2010 WL 843872

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

WESTLAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

6

Wright v.

^e9^-£^»98-TJM-TWD Document 29 Filed 02/11/19 Page 55 of 77

2018 WL 671256

2018 WL 671256
Only the Westlaw citation is currently available.
United States District Court, N.D. New York.

Dkt. No. 38 (“Motion to Dismiss”). For the reasons
stated below, Plaintiffs Preliminary Injunction Motion is
granted in part and denied in part; his Counsel Motion
is granted; and State Defendants' Motion to Dismiss is
granted in part and denied in part.

Bornallah WRIGHT, Plaintiff,
1

v.
David STALLONE, et al., Defendants.
9:i7-CV-0487 (LEK/TWD)
Signed 01/31/2018

Plaintiffs Preliminary Injunction Motion, styled as
an Order to Show Cause, was docketed as an exhibit
to the Complaint. See Dkt. No. 1-2. To avoid
confusion, the Court directed the Clerk to file a copy
of the Preliminary Injunction Motion as a separate
docket entry. See Dkt. No. 8 (“Order”) at 1.

Attorneys and Law Firms

II. BACKGROUND

Lisa Anne Proskin, Proskin Law Firm, Albany, NY, for
Plaintiff.

A. Relevant Facts
Plaintiff alleges that he is a practicing Muslim who
is required by his faith to pray at specific times of
day. Compl. at 5. Sometimes these prayers (“commonly
known as salaah or salaat”) must be performed during
recreation, when Plaintiff is outside in the prison’s yard.
Id. Nevertheless, he and other Muslim inmates were
“denied [the] ability to go off to an unoccupied area of the
yard to pray [their] salaah.” Id. at 6. Plaintiff and the other
inmates were informed that a designated area in the yard
for prayer could only be used by one inmate—Aurel Smith
—in accordance with the terms of an agreement Smith had
reached with DOCCS after nine years of litigation. Id at

Bornallah Wright, Moravia, NY, pro se.
Katie E. Valder, New York State Attorney General,
Albany, NY, for Defendants.

MEMORANDUM-DECISION AND ORDER
Lawrence E. Kahn, U.S. District Judge
I. INTRODUCTION
*1 Plaintiff Bornallah Wright commenced this action
by filing a pro se civil rights complaint pursuant to
42 U.S.C. § 1983 and the Religious Land Use and
Institutionalized Persons Act (“RLUIPA”), 42 U.S.C.
§ 2000 et seq., asserting claims arising out of his
confinement in the custody of the New York State
Department of Corrections and Community Supervision
(“DOCCS”). Dkt. No. 1 (“Complaint”). These claims
concern Plaintiffs ability to practice his religion at
Cayuga Correctional Facility, where he is currently
confined, by praying demonstrably in the prison’s outdoor
yard during recreation. Id.

6. DOCCS staff also advised Plaintiff and other inmates
that they “would have to file a suit, too” if they wanted
3
accommodations for their religious beliefs. Id
2

Among the documents submitted as exhibits to the
Complaint is an unsigned draft “Stipulation and
Order of Discontinuance Pursuant to Rule 41(A)”
bearing the caption of Smith v. Artus. No. 07CV-1150 (N.D.N.Y. Oct. 29, 2007). Dkt. No. 1-1,
at 1-7. A similar Stipulation and Order, signed by
the parties and District Judge Mordue, was filed
in that action on March 24, 2016. See Stipulation
and Order of Discontinuance, Smith v, Artus. No.
07-CV-l 150 (N.D.N.Y. Mar. 24, 2016), ECF No.
188. The terms and conditions under which Smith is
permitted to engage in demonstrative prayer in any
DOCCS facility are set forth in paragraph 10 of the
Stipulation and Order. Id at 4-5.

3

According to Plaintiff, Smith advised defendant
David Stallone, Cayuga’s superintendent, that a
“restriction to others' ability to engage in salaah was

Presently before the Court are three motions:
Plaintiff seeks preliminary injunctive relief, Dkt.
l

and the
No. 9 (“Preliminary Injunction Motion”),
appointment of counsel, Dkt. No. 46 (“Counsel Motion”);
defendants David Stallone, Jeffrey Hale, T. Schadewald,
E. Korb, Daniel Figueroa, Ora Perkins, David Haggerty,
Mary Coleman, and David Infantino (collectively, “State
Defendants”) seek to dismiss the claims filed against them.

WESTLAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

1

Wright v.

^^e9sli|'^p5)®(?8'TJM'TWD Document29 Filed 02/11/19

Page 56 of 77

2018 WL 671256
stating that “CORC notes that a recent settlement
agreement permits only one specific inmate to pray
in a designated area of the yard during recreation,
and that other inmates are not allowed to pray there.”
Dkt. No. 1-1, Ex. 5.

not part of Smith’s settlement nor an intended effect
thereof.” Compl. at 7. As alleged, Stallone told Smith
that “others will have to still file suits in order to get
a court order or settlement.” Id
*2 On August 18, 2016, Plaintiff filed an inmate
grievance complaining that he was not allowed to pray his
salaah in the yard. Id at 6; see also Dkt. No. 1-1, Ex. 6
(“August Grievance”). Plaintiff requested permission to
pray in the yard during recreation, as Smith was permitted
to do. Aug. Grievance at 1. The Inmate Grievance Review
Committee (“IGRC”) denied Plaintiffs request. Compl.
at 5; Aug. Grievance at 2. In support of that denial, the
IGRC provided Plaintiff with a copy of a memorandum
dated March 22, 2016, written by Captain J. Rocker and
addressed to Cayuga’s security staff regarding Smith’s
exclusive right to pray demonstrably in the yard. Dkt. No.
1-1, Ex. 7. The memorandum states as follows:
The results of a recent law-suit filed by Inmate Smith, A.
02A6279 have granted this inmate the right to practice
his religion (Islam) by praying in the yard during open
recreation.
Effective Wednesday March 24,2016 Inmate Smith will
be allowed to pray in the yard. There is a white painted
area 5' by 5' area in the southwest corner near the weight
fence. This area is the only area in which Inmate Smith
will be allowed to pray.
Inmate Smith will be the ONLY INMATE who will be
allowed to pray in the yard.
Id. Plaintiffs appeal of the IGRC decision was denied at
the facility level on August 29, 2016. Compl. at 6; Dkt.
No. 1-1, Ex. 8. The Central Office Review Committee
(“CORC”) issued a decision dated March 22, 2017, also
denying Plaintiffs appeal. Dkt. No. 1-1, Ex. 9 (“CORC
notes that a recent settlement agreement permits only one
specific inmate to pray in a designated area of the yard
during recreation, and that other inmates are not allowed
to pray there.”).4
4

Inmate Jimir McMillan filed a similar grievance,
dated May 5, 2016, complaining that only Smith was
allowed to pray in the yard. Compl. at 5; Dkt. No.
1-1, Exs. 2-5. The IGRC denied the grievance and
referenced the same memorandum written by Captain
Rocker. Dkt. No. 1-1, Ex. 3. On May 25, 2016,
Stallone denied McMillan’s appeal. Dkt. No. 1-1, Ex.
4. CORC upheld the denial on October 19, 2016,

Plaintiff commenced this action on May 4, 2017. Compl.
On August 24, 2017, officials at Cayuga began to allow
Plaintiff to pray demonstrably in the outdoor yard during
recreation in a similar fashion to Smith. Dkt. No. 31
(“Preliminary Injunction Opposition”) at 1. That is,
Plaintiff could pray “in a designated area in the Southwest
corner of the yard.” IcL at 2. On January 10, 2018,
pursuant to a request from the Court, Dkt. No. 57, State
Defendants clarified that Plaintiff and Smith could pray
simultaneously, but each designated area is separated by
fifteen feet, Dkt. No. 58 (“Status Report”) at 1. State
Defendants also reported that officials at Cayuga had
designated a third area in the yard for prayer, and that
any Muslim inmate had the right to use the designated
areas—not just Plaintiff and Smith. Id.5 Each designated
area could be used by only one inmate at a time, but a
maximum of three inmates could pray simultaneously. IdL
State Defendants did not explain why Cayuga officials
altered its policy regarding demonstrable prayer with
respect to Plaintiff or other Muslim inmates.
5

Plaintiff filed a response to the Status Report on
January 24, 2018. Dkt. No. 61 (“Status Report
Opposition”). In this document, Plaintiff disputes
State Defendants' characterization of Cayuga’s new
rules regarding prayer and states that Cayuga officials
have not announced that all Muslims have the right
to pray demonstrably in the recreation yard. Status
Report Opp'n at 2. As described below, this factual
dispute does not affect the outcome of the Court’s
decision.

*3 Based upon the foregoing, Plaintiff claims that his
right to practice his religion has been and continues to be
impermissibly burdened by State Defendants in violation
of the First Amendment and RLUIPA. Compl. at 89. Plaintiff also asserts a claim for the violation of his
rights protected under the Equal Protection Clause of the
Fourteenth Amendment. Id. at 10. He seeks an award of
monetary damages and injunctive relief. Ich at 11.

B. Procedural History
Plaintiff commenced this action on May 4, 2017. Compl.
In a Decision and Order dated July 28, 2017, Dkt.

WESTIAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

2

Wright v.

£m£M-exi>9m-TJM-™D Document 29 Filed 02/11/19 paoe 57 °f 77

2018 WL 671256

No. 8 (“Order”), the Court considered the sufficiency
of the allegations set forth in the Complaint in light of
28 U.S.C. §§ 1915(e) and 1915A. The Order dismissed
a number of defendants and ordered the remaining
defendants to respond to the Complaint and Preliminary
Injunction Motion. Order at 12-13. State Defendants
filed their opposition to the Preliminary Injunction
Motion on October 6, 2017, Prelim. Inj. Opp'n, to which
Plaintiff replied on November 13, 2017, Dkt. No. 48
(“Preliminary Injunction Reply”). On October 23, 2017,
State Defendants filed their Motion to Dismiss; Plaintiff
responded in opposition on January 16, 2018, Dkt. No.
59 (“Dismiss Opposition”), to which State Defendants
replied on January 23, 2018, Dkt. No. 60 (“Dismiss
Reply”). Finally, Plaintiff filed his Counsel Motion on
October 30, 2017. Counsel Mot.

III. LEGAL STANDARD
A. Motion to Dismiss
To survive a motion to dismiss for failure to state a
claim pursuant to Rule 12(b)(6) of the Federal Rules
of Civil Procedure, a “complaint must contain sufficient
factual matter, accepted as true, to ‘state a claim to
relief that is plausible on its face.’ ” Ashcroft v. Iqbal.
556 U.S. 662, 678 (2009) (quoting Bell Atl. Corn, v.
Twombly, 550 U.S. 544, 570 (2007)). A court must accept
as true the factual allegations contained in a complaint
and draw all inferences in favor of the plaintiff. Allaire
Corn, v. Okumus. 433 F.3d 248, 249-50 (2d Cir. 2006).
Plausibility, however, requires “enough factfs] to raise a
reasonable expectation that discovery will reveal evidence
of [the alleged misconduct].” Twombly. 550 U.S. at 556.
The plausibility standard “asks for more than a sheer
possibility that a defendant has acted unlawfully.” Iqbal.
556 U.S. at 678 (citing Twombly. 550 U.S. at 556).
“[T]he pleading standard Rule 8 announces does not
require ‘detailed factual allegations,’ but it demands more
than an unadorned, the-defendant-unlawfully-harmedme accusation.” Id (quoting Twombly. 550 U.S. at 555).
Where a court is unable to infer more than the possibility
of misconduct based on the pleaded facts, the pleader
has not demonstrated that he is entitled to relief, and the
action is subject to dismissal. Id at 678-79. Nevertheless,
“[f]act-specific questions] cannot be resolved on the
pleadings.” Anderson News, L.L.C. v. Am. Media. Inc.,
680 F.3d 162, 185 (2d Cir. 2012) (second alteration in
original) (quoting Todd v. Exxon Corn.. 275 F.3d 191,203
(2d Cir. 2001)). Presented with “two plausible inferences

that may be drawn from factual allegations,” a court “may
not properly dismiss a complaint that states a plausible
version of the events merely because the court finds a
different version more plausible.” Id.

B. Preliminary Injunction
“A preliminary injunction is an extraordinary remedy
never awarded as of right.” Gen, Mills. Inc, v. Chobani
LLC. 158 F. Supp. 3d 106,114 (N.D.N.Y. 2016) (quoting
Winter v. Nat. Res. Def. Council, Inc., 555 U.S. 7, 24
(2008)). Generally, “[a] plaintiff seeking a preliminary
injunction must establish that he is likely to succeed on the
merits, that he is likely to suffer irreparable harm in the
absence of preliminary relief, that the balance of equities
tips in his favor, and that an injunction is in the public
interest.” Winter, 555 U.S. at 20.
*4 While a district court typically has wide discretion
in determining whether to grant preliminary injunctive
relief, Moore v. Consol. Edison Co. of N.Y., 409 F.3d
506, 511 (2d Cir. 2005), “[i]n the prison context, a request
for injunctive relief must always be viewed with great
caution so as not to immerse the federal judiciary in
the management of [ ] prisons,” Fisher v, Goord, 981
F. Supp. 140, 167 (W.D.N.Y. 1997). “Under the Prison
Litigation Reform Act (“PLRA”), preliminary injunctive
relief in any civil action with respect to prison conditions
must be narrowly drawn, extend no further than necessary
to correct the harm, and be the least intrusive means
necessary to correct that harm.” V.W. v. Conway. 236 F.
Supp. 3d 554, 581 (N.D.N.Y. 2017) (citing 18 U.S.C. §
3626(a)(2)). A court must give “substantial weight” to any
adverse impact on public safety the injunctive relief might
have. § 3626(a)(1)(A).

C. Motion to Appoint Counsel
In Terminate Control Corn, v, Horowitz, 28 F.3d 1335
(2d Cir. 1994), the Second Circuit reiterated the factors
that a court must consider in ruling upon a motion for the
appointment of counsel. As a threshold matter, a court
must first determine whether the plaintiffs position seems
likely to be of substance. Id. at 1341 (citing Hodge v.
Police Officers. 802 F.2d 58, 61 (2d Cir. 1986)). If the
claim meets this requirement, a court should then consider
a number of other factors in making its determination,
including the plaintiffs ability to investigate crucial facts
and the complexity of the legal issues presented by the
case. Id. Of these criteria, the most important is the merits,

WESTLAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

3

Wright

Document 29 Filed 02/11/19 Page 58 of 77

2018 WL 671256

i.e., “whether the indigent’s position was likely to be of
substance.” McDowell v. State of New York, No. 91CV-2440,1991 WL 177271, at *1 (S.D.N.Y. Sept. 3,1991)
(quoting Cooper v. A, Sargenti Co., Inc.. 877 F.2d 170,
172 (2d Cir. 1989)).

IV. DISCUSSION
A. Motion to Dismiss
State Defendants move to dismiss the Complaint on
two grounds: First, that they are sheltered from liability
by the doctrine of qualified immunity, Dismiss Mot.
at 2-5, and, second, that State Defendants were not
personally involved in the alleged constitutional and
statutory violations, id at 5-7. The Court notes that
State Defendants' cursory submission does not distinguish
between the multiple violations that Plaintiff has alleged
or the different types of relief that Plaintiff sought;
Plaintiff has alleged violations of his rights guaranteed
by the First Amendment, RLUIPA, and the Fourteenth
Amendment, and he seeks monetary damages and
injunctive relief. These distinctions make a difference, as
the Court will explain below.

1. Qualified Immunity
The defense of qualified immunity entitles public officials
to freedom from suit for monetary damages, as a result of
the consequences of the performance of their discretionary
duties, when “their conduct does not violate clearly
established rights of which a reasonable person would
have been aware.” Zalaski v. City of Hartford. 723
F.3d 382, 388 (2d Cir. 2013).6 Qualified immunity is an
affirmative defense, and, as such, defendants bear the
burden of proving that the privilege applies. Coolick v.
Hughes. 699 F.3d 211, 219 (2d Cir. 2012).
6

The doctrine of qualified immunity does not “bar
any claim for equitable relief.” Smith v. Artus. No.
07-CV-l 150, 2010 WL 3910086, at *29 (N.D.N.Y.
Sept. 30, 2010) (citing Pearson v. Callahan. 555 U.S.
223, 242^13 (2009)), vacated on other grounds. 522
Fed.Appx. 82 (2d Cir. 2013). There is no dispute that
Plain tiff has moved for injunctive relief. Compl. at 13;
Prelim. Inj. Mot. at 1. Therefore, State Defendants'
argument that “the complaint should be dismissed
in its entirety” because of the doctrine of qualified
immunity is misplaced. Dismiss Mot. at 5.

*5 “The determination of qualified immunity depends
both on the specific facts of an official’s actions—e.g.,
‘what situation confronted [him], what acts he performed,
and his motivation in performing those acts’—and on
the clarity of the legal rules governing that particular
conduct.” Village of Freeport v. Barrella. 814 F.3d 594,
609 (2d Cir. 2016) (quoting Lore v. City of Syracuse, 670
F.3d 127, 162 (2d Cir. 2012)). In deciding whether an
officer’s actions were objectively reasonable in light of
existing law, “the inquiry is not how courts or lawyers
might have understood the state of the law at the
time of the challenged conduct. Rather, ‘[t]he relevant,
dispositive inquiry in determining whether a right is clearly
established is whether it would be clear to a reasonable
officer that his conduct was unlawful in the situation he
confronted.” Zalaski, 723 F.3d at 389 (quoting Saucier v.
Katz. 533 U.S. 194, 202 (2001)).

a. Free Exercise Claim
State Defendants are correct that, as a general matter,
a prisoner’s right to pray demonstrably in the recreation
yard—whether alone or in congregate—was not clearly
established at the time Plaintiff was prevented from doing
so. Dismiss Mot. at 2-5. Although numerous prisoners
have raised this claim in this Circuit since the late 1970s,
no court has clearly established that prisoners have a right
to pray demonstrably in the recreation yard by oneself
or in small groups. See Shabazz v. Coughlin. 852 F.2d
697, 700-01 (2d Cir. 1988) (“However, as the district
court conceded, this court had not then nor since directly
addressed the constitutionality of restrictions on group
prayer and prayer in prison yards.”); Smith v. Artus.
No. 07-CV-l 150,2015 WL 9413128, at *11-12 (N.D.N.Y.
Dec. 22, 2015) (“Smith II”) (finding that defendants were
entitled to qualified immunity for preventing plaintiff
from praying demonstrably in the prison’s recreation
yard).
However, Plaintiff is also correct that his situation is not
analogous to previous cases in which prisoners challenged
DOCCS’s policy regarding demonstrable prayer in the
recreation yard. Dismiss Opp'n at 6-8. Most importantly,
between March 24, 2016 and August 23, 2017, Cayuga
officials permitted Smith to pray demonstrably in the
recreation yard and yet denied Plaintiff the ability to do so.
This inconsistent treatment should have raised significant
concerns among prison officials regarding the alleged

WESTIAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

4

Wright v.

if^e9sli|'(9^p5l8^9§"TJM"TWD Document29 Filed 02/11/19

Page 59 of 77

2018 WL 671256

penological interests supporting the policy of banning
individual, demonstrable prayer. See Smith v. Artus, No.
07-CV-l 150, 2010 WL 3910086, at *29 (N.D.N.Y. Sept.
30, 2010) (“Smith I”) (“The defendants in this case allege
that there are concerns for security, as well as staffing and
fiscal concerns, associated with accommodating plaintiffs
request to pray demonstratively during the recreation
period.”), vacated on other grounds. 522 Fed.Appx. 82
(2d Cir. 2013). If Smith could pray demonstrably in the
recreation yard, why couldn't Plaintiff? What legitimate
penological interests did banning Plaintiff (and other
inmates) from praying demonstrably in the recreation
yard serve? State Defendants make no attempt to justify
this inconsistent treatment between Smith and the other
inmates.
As discussed more fully below, to defend against a First
Amendment free exercise claim brought by a prisoner,
prison officials bear the “relatively limited burden of
identifying the legitimate penological interests that justify
the impinging conduct.” Salahuddin v. Goord, 467 F.3d
263, 275 (2d Cir. 2006). Courts in this Circuit have
highlighted the problem that inconsistent treatment of
inmates creates for prison officials in their attempt to
justify burdens on prisoners' religious exercise. See, e.g.,
Aziz v. Le Fevre, 642 F.2d 1109, 1111 (2d Cir. 1981)
(“We think it would have some bearing upon the ultimate
resolution of the constitutional question if, in fact, the
state policy as set forth in Directive No. 4203 is not
followed at Green Haven, and hence is not a ‘policy’
at all.”); Pilgrim v. Artus, No. 07-CV-1001, 2010 WL
3724883, at *11 (N.D.N.Y. Mar. 18, 2010), adopted by.
2010 WL 3724881 (N.D.N.Y. Sept. 17,2010) (“Despite the
alleged security concerns, DOCS' policy allows inmates of
the Rastafarian faith to wear dreadlocks. Also, Directive
#4914 allows all inmates to grow their hair long, provided
they wear it pulled back in a ponytail, and also allows
inmates to wear their hair in a ‘Afro-natural’ style.
Thus, DOCS affords a degree of leeway with respect
to inmates' hairstyles, but has drawn a line in the sand
with respect to dreadlocks worn by non-Rastafarian
prisoners.”); Salahuddin v. Coughlin. 999 F. Supp. 526,
536 (S.D.N.Y. 1998) (describing inconsistent application
of DOCCS policy toward congregate religious services in
multiple prisons, which “creates an issue of fact as to ...
the legitimacy of the penalogical [sic] interest asserted”).
*6 At this early stage in the litigation and absent any
attempt from State Defendants to justify the inconsistent

treatment of Smith and Plaintiff, the Court cannot
hold that a reasonable prison official would have
understood such treatment to be consistent with the
First Amendment. If Cayuga officials had no penological
interest in denying Smith the ability to pray demonstrably
in the outdoor yard during recreation, then there may
have been no penological interest in denying Plaintiff
the same ability. Moreover, it was clearly established
law in 2016 that prison officials needed some legitimate
penological interest to justify the burdening of an inmate’s
sincere religious beliefs. See Ford v. McGinnis. 352 F.3d
582, 597 (2d Cir. 2003) (“We find that prior cases make
it sufficiently clear that absent a legitimate penological
justification, which for present purposes we must assume
defendants were without, prison officials' conduct in
denying Ford a feast imbued with religious import was
unlawful.”). Therefore, at this time, State Defendants are
not entitled to qualified immunity regarding Plaintiffs
First Amendment Claim.

b. RLUIPA Claim
Plaintiff may not recover money damages pursuant
to RLUIPA against State Defendants either in their
individual or official capacities. Smith II. 2015 WL .
9413128, at *12 (“RLUIPA does not authorize claims
for money damages against state officials in their official
capacities and does not create a private right of action
against them in their individual capacities.” (citing
Sossamon v. Texas, 563 U.S. 277, 280 (2011))). However,
the doctrine of qualified immunity does not preclude
Plaintiff from receiving injunctive relief against State
Defendants in their official capacities pursuant to
RLUIPA. Id. at *12-13.

c. Equal Protection Claim
State Defendants do not make any specific arguments
in support of their position that they are entitled to
qualified immunity regarding Plaintiffs Equal Protection
claim. Dismiss Mot. at 4—5. The constitutional questions
raised by DOCCS’s unequal treatment of Plaintiff and
his fellow prisoner, Artus Smith, are distinct from the
constitutional questions surrounding Plaintiffs alleged
right to pray in the recreation yard pursuant to the First
Amendment. Since qualified immunity is an affirmative
defense, and, as such, defendants bear the burden of

WiSTLAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

5

Document 29 Filed 02/11/19 Page 60 of 77

Wright v.
2018 WL 671256

proving that the privilege of qualified immunity applies,
Coolick. 699 F.3d at 219, the Court will not dismiss
Plaintiffs Equal Protection claim for monetary damages
absent an argument from State Defendants.

2. Personal Involvement
State Defendants also move to dismiss Plaintiffs claims
based on the requirement that “a plaintiff must show
some ‘tangible connection’ between the unlawful conduct
and the defendants].’ ” Dismiss Mot. at 5 (quoting
Jackson v. Gunsalus. No. 16-CV-647, 2016 WL 4004612,
at *3 (N.D.N.Y. June 24, 2016), adopted by 2016 WL
3983635 (N.D.N.Y. July 25, 2016)). “It is well settled in
this circuit that ‘personal involvement of defendants in
alleged constitutional deprivations is a prerequisite to an
award of damages under § 1983.’ ” Wright v. Smith. 21
F.3d 496, 501 (2d Cir. 1994) (quoting Moffitt v. Town
of Brookfield. 950 F.2d 880, 885 (2d Cir. 1991)). If the
defendant is a supervisory official, a mere “linkage” to the
unlawful conduct through “the prison chain of command”
is insufficient to show his or her personal involvement in
that unlawful conduct. Richardson v. Goord, 347 F.3d
431, 435 (2d Cir. 2003); accord Wright. 21 F.3d at 501.
In other words, supervisory officials may not be held
liable merely because they held a position of authority.
Black v. Coughlin, 76 F.3d 72, 74 (2d Cir. 1996). Rather,
supervisory personnel may be considered “personally
involved” only if they: (1) directly participated in the
alleged constitutional violation, (2) failed to remedy that
violation after learning of it through a report or appeal, (3)
created, or allowed to continue, a policy or custom under
which the violation occurred, (4) were grossly negligent in
managing subordinates who caused the violation, or (5)
exhibited deliberate indifference to the rights of inmates by
failing to act on information indicating that the violation
was occurring. Colon v. Coughlin, 58 F.3d 865, 873 (2d
Cir. 1995) (citing Williams v. Smith. 781 F.2d 319, 323-24
(2d Cir. 1986)).7
7

There is disagreement among district courts in this
Circuit as to whether all of the Colon factors are
still valid following the Supreme Court’s decision in
Ashcroft v. Iqbal. 556 U.S. 662 (2009). See, e.g..
Dilworth v. Goldberg. No. 10-CV-2224, 2011 WL
3501869 at *17 (S.D.N.Y. Jul. 28, 2011) (collecting
cases), adopted by 2011 WL 4526555 (Sept. 30, 2011).
“[I]n the absence of contrary direction from the

Second Circuit, the Court will continue to apply those
factors.” Jackson v. Goord. No. 06-CV-6172, 2011
WL 4829850, at *9 (W.D.N.Y. Oct. 12, 2011).
*7 However, “the ‘personal involvement requirement
does not apply to bar actions ... for injunctive relief
against a state official.’ ” Brisco v. Rice, No. 11CV-578, 2012 WL 253874, at *4 (E.D.N.Y. Jan. 27,
2012) (quoting Marinaccio v. Boardman. No. 02-CV-831,
2005 WL 928631, at *9-10 (N.D.N.Y. Apr. 19, 2005)
(emphasis in original)); see also Courts v. Coombe, No.
95-CV-2350, 1996 WL 312357, at *2 (S.D.N.Y. June
11, 1996) (“Personal involvement ... is only required
where the complaint seeks monetary damages, not where
injunctive or declaratory relief is sought.”). Instead,
in order to state a claim seeking injunctive relief, a
plaintiff must demonstrate that the defendant “has a direct
connection to, or responsibility for, the alleged illegal
action.” Reynolds v. Blumenthal. No. 04-CV-218, 2006
WL 2788380, at *7 (D. Conn. Sept. 26, 2006) (citing Ex
parte Young, 209 U.S. 123, 157 (1908)); see also Pugh
v. Goord, 571 F. Supp. 2d 477, 517 (S.D.N.Y. 2008)
(“Courts in this Circuit have since applied the holding in
Ex parte Young to require only that a defendant have a
‘connection’ with the act, and not more.”) (citing In re
Dairy Mart Convenience Stores, Inc., 411 F.3d 367, 37273 (2d Cir. 2005)).

a. David Stallone
Superintendent Stallone is a supervisory official at
Cayuga, and therefore Plaintiff must allege his personal
involvement pursuant to Colon with respect to Plaintiffs
First Amendment and Equal Protection claims for
monetary damages. Plaintiff alleges that Stallone told
Smith that any Muslim inmate who wishes to pray
demonstrably in the recreation yard “would have to file
suits [j/c] in order to get similar accommodation.” Compl.
at 6. Plaintiff also presents evidence that Stallone denied
an inmate grievance appeal, similar to the one filed by
Plaintiff, and stated that only Smith is permitted to pray
demonstrably in the recreation yard. Dkt. No. 1-1, Ex.
4. Stallone did not deny Plaintiffs grievance appeal; a
designee did. Dkt. No. 1-1, Ex. 8.
Courts in this Circuit are split regarding the extent of
involvement that a plaintiff must allege in order to
establish a supervisory defendant’s requisite personal
involvement. Compare McClenton v. Menifee. No. 05-

WESTLAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

6

Wright v.

fiagfiJ?A?-^efiW)-TJM-TWD Document29 Filed 02/11/19 Page 61 of 77

2018 WL 671256

CV-2844, 2006 WL 2474872, at *10 (S.D.N.Y. Aug.
22, 2006) (“[A] supervisor’s mere denial of a grievance
is insufficient to establish personal involvement ...”),
with Madison v, Mazzuca, No. 02-CV-10299, 2004 WL
3037730, at *10 (S.D.N.Y. Dec. 30, 2004) (“[Personal
involvement is present where a supervisory official reviews
a prisoner’s grievance with respect to a constitutional
violation and decides against taking any corrective
action.”). With regard to Stallone, the Court does not need
to take sides in this split, because Plaintiff has alleged
that Stallone—outside of the context of grievances—was
aware of the alleged violation of Plaintiffs rights, had
the authority to remedy such violation, and failed to do
so. At this early stage in the litigation, such allegations
are sufficient to establish personal involvement under the
second prong of Colon. See Saxon v. Attica Med. Dep't,
468 F. Supp. 2d 480, 483 (W.D.N.Y. 2007) (denying a
motion to dismiss claims against prison superintendent,
even though “allegations ... may be characterized as
thin”).

determination is not ‘personally involved’ even if
the underlying determination implicates a plaintiffs
constitutional rights.” Vogelfang v. Capra, 889 F. Supp.
2d 489, 503-04 (S.D.N.Y. 2012) (citing Odom v. Calero,
No. 06-CV-15527, 2008 WL 2735868, at *7 (S.D.N.Y.
July 10, 2008)); see also Rogers v. Artus, No. 13-CV-21,
2013 WL 5175570 at * 3 (W.D.N.Y. Sept. 11, 2013) (“The
denial, or affirmance of a denial, of a grievance by a
Superintendent or other supervisory official is insufficient,
without more, to create personal involvement in alleged
violations.” (citing Joyner v. Greiner, 195 F. Supp. 2d
500, 506 (S.D.N.Y. 2002) and James v. Poole. No.
06-CV-6007, 2013 WL 132492 at *7 (W.D.N.Y. Jan.
9, 2013))). In addition, Plaintiff has not alleged that
any of these defendants are ultimately responsible for
the protection of Plaintiffs constitutional and statutory
rights, as defendant Stallone is. Therefore, defendants
Hale, Schadewald, Korb, Figueroa, Noeth, Perkins,
Haggerty, Coleman, and Infantino must be dismissed. 8
8

With regard to Plaintiffs motion for prospective
injunctive relief, Stallone—as the superintendent of
Cayuga—has a direct connection to, and is responsible
for, the protection of Plaintiffs constitutional and
statutory rights. E.g., Jacobson v. Coughlin, 523 F.
Supp. 1247, 1249 (N.D.N.Y. 1981) (denying a motion
to dismiss claims for injunctive relief against prison
superintendent regarding plaintiffs special housing
confinement). Plaintiff also has specifically alleged that
Stallone was aware of and failed to remedy the alleged
constitutional and statutory violations at issue in this case.
Therefore, Plaintiffs claims against him for injunctive
relief will not be dismissed.

b. Other State Defendants
*8 Plaintiff presents evidence that the other State
Defendants—Hale, Schadewald, Korb, Figueroa, Noeth,
Perkins, Haggerty, Coleman, and Infantino—were
members of either the IGRC or CORC and denied
multiple grievances and appeals regarding inmates' ability
to pray demonstrably in Cayuga’s yard during recreation.
Dkt. No. 1-1, Exs. 2-7. Although, as mentioned above,
district courts in this Circuit are split regarding the level
of involvement represented by a denial of an inmate
grievance, the majority of courts have held “that an
officer tasked only with reviewing an administrative

This analysis also applies to defendant Joseph Noeth,
who was a member of CORC but was not properly
served the Complaint because of a typographical
error. Dkt. No. 53. In addition, the three named
defendants who are inmates—David Jackson, Willie
Brown, Jr., and Todd Gage—must be dismissed
because they are not state actors. Lewis v. Doe. No.
13-CV-3190, 2013 WL 5923723, at *1 (E.D.N.Y. Oct.
31,2013).

B. Preliminary Injunction
Plaintiff seeks injunctive relief with regard to two
activities: First, to pray demonstrably in the recreation
yard on his own, and, second, to pray demonstrably in
the recreation yard in a group of two or three inmates.
Prelim. Inj. Mot. at 1. Plaintiff seeks this relief for himself
and “similarly situated Muslim prisoners in custody of
[ ] DOCCS.” Id, However, as a pro se litigant, Plaintiff
“has no authority to appear as an attorney for others.”
Lebron v. Armstrong, 289 F. Supp. 56, 59 (D. Conn. 2003)
(citing Eagle Assocs. v. Bank of Montreal, 926 F.2d 1305,
1308 (2d Cir. 1991)). Plaintiff “may seek relief on behalf
of himself only.” Id Therefore, his request for relief with
respect to other inmates is denied.

1. Individual, Demonstrable Prayer in the Recreation Yard

WESTLAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

7

Docume"t29 Rled 02/11/19 Page 62 of 77

Wright v.
2018 WL 671256

a. Mootness
State Defendants argue that Plaintiffs request for
injunctive relief is moot, and therefore the Preliminary
Injunction Motion should be denied, because Plaintiff is
now able to pray demonstrably in Cayuga’s recreation
yard. Prelim. Inj. Opp'n at 1. However, “[i]t is well settled
that ‘a defendant’s voluntary cessation of a challenged
practice does not deprive a federal court of its power to
determine the legality of the practice.’ ” Friends of the
Earth. Inc, v. Laidlaw Envtl. Servs.. Inc., 528 U.S. 167,
189 (2000) (quoting City of Mesquite v. Aladdin’s Castle.
Inc., 455 U.S. 283, 289 (1982)). Instead, a defendant
must meet the “heavy burden of persua[ding]” the Court
that “subsequent events made it absolutely clear that
the allegedly wrongful behavior could not reasonably
be expected to recur.” Id (quoting United States v.
Concentrated Phosphate Exp, Assn.. 393 U.S. 199, 203
(1968)).
Here, State Defendants have not met this burden. They
do not deny that Plaintiff is able to pray demonstrably
only because he filed suit in federal court; there is no
indication that, absent this litigation, Cayuga officials
would have altered its previous policy. Moreover, State
Defendants have not made any indication that DOCCS
has reconsidered its “departmental directive prohibiting
demonstrative prayer in the [recreation] yard.” Dismiss
Mot. at 4. In short, State Defendants have not
demonstrated that it is absolutely clear that Plaintiff will
not be denied the ability to pray demonstrably in Cayuga’s
yard during recreation in the future. Accordingly,
Plaintiffs request for relief is not moot.

b. Likelihood of Success on the Merits
*9 In determining whether Plaintiff has established a
likelihood of success on the merits, the Court looks to
whether the evidence presented demonstrates that he is
likely to prevail at trial on a claim concerning the conduct
complained of—in this case, the denial of his ability to
pray demonstrably on his own in Cayuga’s recreation
yard. To succeed on a First Amendment free exercise
claim, “the prisoner must show at the threshold that
the disputed conduct substantially burdens his sincerely
held religious beliefs.” Salahuddin, 467 F.3d at 274-75.
Defendants then bear the “relatively limited burden of

identifying the legitimate penological interests that justify
the impinging conduct.” Id. at 275.
Although State Defendants have not presented an
argument on the merits in opposition to the Preliminary
Injunction Motion, it is improbable that they would
question the sincerity of his religious belief or the fact
that the denial of his ability to pray demonstrably in
the recreation yard substantially burdens those beliefs.
Judge Mordue denied DOCCS’s motion for summary
judgment advancing such arguments with regard to Smith
in 2015. See Smith II. 2015 WL 9413128 at *9 (“The
Court rejects defendants' argument that they are entitled
to summary judgment dismissing plaintiffs free exercise
claim on the ground that the challenged policy does
not impose a substantial burden on his sincerely held
religious beliefs as a matter of law.”). It is also improbable
that State Defendants would present an argument
that Plaintiffs ability to pray demonstrably threatens
legitimate penological interests, since Cayuga now permits
Plaintiff—and apparently all other Muslim inmates—to
pray demonstrably in the yard during recreation. Status
Report at 1.
In sum, Plaintiff is likely to succeed at trial on his claim
that denying him the ability to pray demonstrably in the
recreation yard at Cayuga violates his First Amendment
rights.

c. Irreparable Harm
“The loss of First Amendment freedoms, for even
minimal periods of time, unquestionably constitute
irreparable injury.” Elrod v. Burns. 427 U.S. 347 (1976).
Because Plaintiff alleges that the deprivation of his First
Amendment right to the free exercise of religion resulted
directly from prison officials' actions, “irreparable harm
may be presumed.” Keesh v. Smith, No. 04-CV-779, 2006
WL 516793 at *3 (N.D.N.Y. Mar. 2, 2006).

d. Balance of the Equities
In determining whether the balance of equities tips in
Plaintiffs favor, the Court “must balance the competing
claims of injury and must consider the effect on each
party of the granting or withholding of the requested
relief.” Winter. 555 U.S. at 24 (quoting Amoco Prod. Co.

WCSTLAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

8

Wright v.

fiafifi^a.?-^0S«J-TJM-TWD Document 29 Filed 02/11/19 Page 63 of 77

2018 WL 671256

v. Village of Gambell. 480 U.S. 531, 542 (1987)). Here,
the hardship faced by Plaintiff is potentially substantial:
the loss of his right to exercise his religious beliefs. On
the other side, the hardship faced by State Defendants
is minimal, since Cayuga now permits Plaintiff to pray
demonstrably in its recreation yard. State Defendants
make no argument that maintaining this new policy
during the course of litigation would impose a hardship
on prison administration.

e. Public Interest
Finally, the Court finds that the issuance of the requested
relief serves the public interest. While the Court generally
assumes that the acts of a governmental entity are aligned
with the interests of the public it serves, N.Y. Progress &
Prot. PAC v. Walsh, 733 F.3d 483,488 (2d Cir. 2013), that
is not the case here. “[Sjecuring First Amendment rights is
in the public interest,” and it is decidedly against the public
interest to permit the enforcement of an unconstitutional
policy or law. Id
*10 Since Plaintiff has established each of the factors
required by Winter, the Court will issue a preliminary
injunction with regard to individual, demonstrable prayer
in Cayuga’s outdoor yard during recreation.

2. Congregate, Demonstrable
Prayer in the Recreation Yard
Plaintiffs request for injunctive relief regarding his ability
to pray in congregate with other inmates is factually
distinct from his request for individual prayer. State
Defendants have not permitted Plaintiff or other inmates
to pray in congregate, and State Defendants maintain that
congregate prayer would present serious security threats
to prison administration. See Dkt. No. 31-1 (“Kelly
Declaration”)
20-30. Plaintiff is correct to highlight
the apparent contradictions in some of these alleged
security threats. E.g.. Prelim. Inj. Mot. Reply
3637. For example, State Defendants do not sufficiently
explain why groups of two or three inmates are permitted
to gather in the recreation yard for conversation but
are not allowed to gather for demonstrable prayer. The
fact that Muslims' demonstrable prayer could be “used
as code,” Kelly Deck ^ 25, does not explain why such
prayer is different from other activities, such as normal

conversation or hand gestures, that may contain “codes”
but which are permitted in the recreation yard among two
or three inmates.
But at this early stage in the litigation, the Court
cannot find that Plaintiff is likely to succeed on the
merits regarding this claim. Courts in this Circuit have
upheld prison officials’ consistent application of bans on
congregate, demonstrable prayer under factually similar
circumstances. See, e.g., Withrow v. Bartlett. 15 F. Supp.
2d 292, 296 (W.D.N.Y. 1998) (“I find that defendants had
a legitimate penological interest in maintaining security,
and that this interest was rationally related to their
enforcement of policies that prohibit group demonstrative
prayer in Elmira’s recreational yard.”). Moreover, given
the direction from Congress that, “[i]n the prison context,
a request for injunctive relief must always be viewed with
great caution,” Fisher, 981 F. Supp. at 167, the Court
will not alter the status quo at Cayuga at this point.
Accordingly, Plaintiffs request for injunctive relief with
respect to congregate, demonstrable prayer is denied.

C. Motion to Appoint Counsel
As discussed above, Plaintiffs claims are clearly “of
substance.” Hodge v. Police Officers, 802 F.2d 58,
61 (2d Cir. 1986). The heart of Plaintiffs lawsuit—
whether prisoners have a First Amendment right to pray
demonstrably in an outdoor yard during recreation—
has perplexed courts in this Circuit since the late 1970s.
E.g., Aziz. 642 F.2d at 1111. The large number of similar
lawsuits that have ended before the merits were reached
strongly suggests that the legal issues are complicated
and Plaintiff would benefit from legal representation.
In addition, litigating this lawsuit properly will benefit
from extensive factfinding, particularly with regard to the
practices at other prison facilities in New York. Since
Plaintiff has been unable to receive legal representation on
his own, Counsel Mot. at 1, the Court grants Plaintiffs
Counsel Motion and pro bono counsel will be appointed.

V. CONCLUSION
*11 Accordingly, it is hereby:
ORDERED, that Defendants' Motion (Dkt. No. 38) is
GRANTED in part and DENIED in part; the Motion is
GRANTED as to Plaintiffs claim for monetary damages

WESTIAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

9

Wright v.

Document 29 Filed 02/11/19 Page 64 of 77

2018 WL 671256

pursuant to RLUIPA against all Defendants; the Motion
is GRANTED as to all of Plaintiffs claims against
defendants Jeffrey Hale, T. Schadewald, E. Korb, Daniel
Figueroa, Ora Perkins, David Haggerty, Mary Coleman,
and David Infantino; the Motion is otherwise DENIED;
and it is further
ORDERED, that Jeffrey Hale, T. Schadewald, E. Korb,
Daniel Figueroa, Ora Perkins, David Haggerty, Mary
Coleman, David Infantino, Joseph Noeth, David Jackson,
Willie Brown, Jr., and Todd Gage are DISMISSED as
defendants in this action; and it is further
ORDERED, that Plaintiffs Preliminary Injunction
Motion (Dkt. No. 9) is GRANTED in part and DENIED
in part; and it is further
ORDERED, that each time Plaintiff is permitted to
attend recreation in Cayuga’s outdoor yard, Plaintiff shall
be permitted to participate in individual, demonstrable

prayer absent extraordinary circumstances; and it is
further
ORDERED, that Plaintiffs Counsel Motion (Dkt. No.
46) is GRANTED; and it is further
ORDERED, that the Clerk of the Court is instructed to
appoint Lisa Anne Proskin, whose business address is 423
Loudon Road, Albany, New York, 12211, to serve as
pro bono counsel and to faithfully and diligently represent
Plaintiff in this case; and it is further
ORDERED, that the Clerk serve a copy of this
Memorandum-Decision and Order on all parties in
accordance with the Local Rules.
IT IS SO ORDERED.

All Citations
Slip Copy, 2018 WL 671256

End of Document

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

WESTLAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

10

Berish, ,.i;Slf§l,%J7RS;(ifl9m-.HM:BWl6|DOCUment 29 Filed 02/11/19 Page 65 of 77
2016 WL 1295178

2016 WL 1295178
Only the Westlaw citation is currently available.
United States District Court,
N.D. New York.
Merim Berisha, Plaintiff,
v.
Sergeant Farrell, Defendant.
9:i3-CV-ii9i (LEK/ATB)

I
Signed 03/08/2016
Attorneys and Law Firms

I. Summary Judgment
Summary judgment is appropriate where there exists
no genuine issue of material fact and, based on the
undisputed facts, the moving party is entitled to judgment
as a matter of law. Fed.R.Civ.P. 56; Salahuddin v. Goord,
467 F.3d 263, 272-73 (2d Cir. 2006). “Only disputes over
[“material”] facts that might affect the outcome of the suit
under the governing law will properly preclude the entry of
summary judgment.” Anderson v. Liberty Lobby, All U.S.
242,248 (1986). It must be apparent that no rational finder
of fact could find in favor of the non-moving party for a
court to grant a motion for summary judgment. Gallo v.
Prudential Residential Servs., 22 F.3d 1219, 1224 (2d Cir.
1994).

MERIM BERISHA, Plaintiff, pro se.
JOSHUA L. FARRELL, Ass't Att'y Gen., for the
Defendants.

REPORT-RECOMMENDATION
ANDREW T. BAXTER, U.S. MAGISTRATE JUDGE
*1 This matter has been referred to me for Report
and Recommendation by the Honorable Lawrence E.
Kahn, Senior United States District Judge. In his amended
civil rights complaint, plaintiff, a practicing Muslim,
alleges that his right to the free exercise of religion under
the First Amendment and the Religious Land Use and
Institutionalized Person Act (“RLUIPA”) was violated
when defendant ordered him on two consecutive days
to shave his beard or face disciplinary sanctions. (Dkt.
No. 11, Am. Compl.). Plaintiffs amended complaint also
raised due process, equal protection and retaliation claims
that were dismissed by Judge Kahn on December 11,
2014.1 (Dkt. No. 12).
1

In addition, defendants Brian Fischer and Anthony
Annucci were dismissed as defendants due to a lack
of personal involvement. (Dkt. No. 12, at 3).

Presently before this court is defendant's motion for
summary judgment pursuant to Fed.R.Civ.P. 56. (Dkt.
No. 19). Plaintiff has responded in opposition to the
motion. (Dkt. No. 23). Defendant submitted a reply, to
which plaintiff also responded. (Dkt. Nos. 24,25). For the
following reasons, this court agrees with defendants and
will recommend dismissal of the amended complaint.

The moving party has the burden to show the absence of
disputed material facts by informing the court of portions
of pleadings, depositions, and affidavits which support the
motion. Celotex Corp. v. Catrett, All U.S. 317, 323 (1986).
If the moving party satisfies its burden, the nonmoving
party must move forward with specific facts showing that
there is a genuine issue for trial. Salahuddin v. Goord,
Abl F.3d at 273. In that context, the nonmoving party
must do more than “simply show that there is some
metaphysical doubt as to the material facts.” Matsushita
Electric Industrial Co., Ltd. v. Zenith Radio Corp., 475
U.S. 574, 586 (1986). However, in determining whether
there is a genuine issue of material fact, a court must
resolve all ambiguities, and draw all inferences, against the
movant. See United States v. Diebold, Inc., 369 U.S. 654,
655 (1962); Salahuddin v. Goord, 467 F.3d at 272.

II. Facts
The relevant facts in this case were outlined in Judge
Kahn's December 11,2013 Decision and Order (Dkt. No.
12) and will be recited herein for clarity and continuity,
with additional details drawn from the exhibits submitted
by the parties in connection with this motion. This court
will cite to additional details from the parties' motion
papers as necessary in its analysis of defendant's summary
judgment motion.
*2 Plaintiff is an inmate incarcerated at Greene
Correctional Facility in Coxsackie, New York
(“Greene”). (Am. Compl. at 1). Plaintiff alleges that on
September 16, 2013, at approximately 4:30 p.m., he was
in the Greene mess hall when defendant pulled him aside

WESTLAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

1

Berisha v.

9a?§AJ7R9teffi#R(k.I«:JW6|Document29 Filed 02/11/19 Page 66 of 77

2016 WL 1295178

to ask if plaintiff had a permit for his beard. (Am. Compl.
at 4). Plaintiff responded that he did not, but told Farrell
that he was a practicing Muslim who was prohibited from
trimming his beard by the Qu'ran. Id. Although plaintiff
had recently transferred to Greene from another New
York State Department of Corrections and Community
Supervision (“DOCCS”) facility, he was unaware of the
DOCCS directive requiring a beard permit for facial hair
in excess of one inch. (Dkt. No. 19-3, Joshua L. Farrell
Deck Ex. 1, Transcript of Pl.'s April 24, 2015 deposition
(“Dep.”) at 13). Plaintiff alleges that defendant then gave
him a direct order to cut his beard off and said that
he would come to plaintiffs dormitory to see that he
complied. Id. Plaintiff returned to his dormitory, but did
not have access to a beard trimmer. (Dep. at 14). Plaintiff
packed his belongings, believing that he was going to
be sent to the Special Housing Unit (“SHU”). (Id.). At
his deposition, plaintiff testified that following this first
encounter with defendant, “I wasn't even going to cut
my beard. That's honest, I wasn't going to cut my beard.
I didn't care.” (Id.). Defendant never came to check on
plaintiff. (Id.).
On September 17, 2013, plaintiff informed the Offender
Rehabilitation Counselor, Mr. Dobbs (“Dobbs”), and the
Superintendent, Mr. Smith (“Smith”), of the prior day's
■y

encounter with defendant. (Am. Compl. at 4-5). Smith
confirmed that plaintiff was registered in the DOCCS
system as a practicing Muslim, and told plaintiff that
there would be a temporary hold on cutting his beard.
(Dep. at 14). Smith also had plaintiff submit a written
request for a DOCCS beard permit, pursuant to the
available religious exemption. (Am. Compl. at 5, Dep. at
14-15). Plaintiff asked Smith what he should do if he was
stopped or harassed by defendant about his beard. (Dep.
at 15). Smith told plaintiff to mention his discussion with
the superintendent and advise defendant that he had a
temporary hold on shaving. (Am. Compl. at 5; Dep. at 15).
2

Neither Dobbs or Smith were named as defendants in
this action.

During evening meal service on September 17, 2013,
defendant asked plaintiff why he had not shaved his beard,
despite his direct order to do so. (Am. Compl. at 5; Dep.
at 15). When plaintiff told defendant about the discussion
with Smith and the temporary hold on shaving, defendant
“went into a rampage” and told plaintiff that he had
to comply with defendant's direct order. (Dep. at 15).

Defendant did not threaten any physical violence, but
based on defendant's statements, plaintiff believed that
he would be sent to “the box,” or SHU, if he did not
comply.3 (Dep. at 17). Plaintiff returned to his dorm,
obtained a beard trimmer, and shaved his beard. (Am.
Compl. at 5; Dep. at 15). Plaintiff claims that he shaved
his beard4 out of fear, and that he would not have
done so otherwise, because plaintiff considered the Islamic
prohibition on shaving his beard to be a serious religious
commitment. (Am. Compl. at 5).
3

During his deposition, plaintiff could not recall if the
threat of being taken to SHU occurred during his first
or second encounter with defendant. (Dep. at 16).

4

The record is unclear whether plaintiff shaved off his
beard completely, or only trimmed it to comply with
the one inch limit. (Am. Compl. at 5; Dkt. No. 23,
Ex. D to Pl.'s Mem. of Law). Given plaintiffs belief
that any alteration of his beard would violate his
religious commitment, this ambiguity does not impact
the constitutional analysis.

On September 18, 2013, plaintiff filed a grievance alleging
that defendant ordered him to shave his beard, in
conflict with plaintiffs Muslim faith. (Am. Compl. at
4). The grievance was accepted in part, although the
Superintendent concluded that plaintiff had not advised
defendant that he applied for an exemption to the
grooming policy. (Dkt. No. 23, Ex. D to Pl.'s Mem.
of Law). To prevent similar issues from arising in the
future, plaintiff was advised to speak to the facility
Imam regarding his beard permit, and the DOCCS
grooming directive was read at a subsequent security staff
line up to address any misunderstandings regarding its
implementation. (Id.).
*3 On October 25, 2013, DOCCS Assistant Counsel
Leslie H. Becher advised plaintiff by letter that she had
reviewed his request for a beard permit, and would be
recommending that a permit be issued granting him a
religious exemption from the one-inch beard rule. (Dkt.
No. 23, Ex. A to Pl.'s Memo, of Law). DOCCS records
show that the beard permit was formally issued on
November 4, 2013. (Dkt. No. 19-4, Ex. 2 to Joshua L.
Farrell Deck).

III. Compliance with Local Rule (“L.R.”) 7.1

WESTIAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

2

Berisha v.

9a?lii,%i7s§!feftW(V.HM:M!i6)Document 29 Filed 02/11/19 Page 67 of 77

2016 WL 1295178

As required under L.R. 7.1, defendants have filed a
Statement of Material Facts. (Dkt. 19-1.) Plaintiff failed
to initially respond to the Statement of Material Facts,
but he filed a sur-reply stating that “[t]he facts on record
are not in dispute, plaintiff agreeds [sic] with defendant
about the 'Material Facts' that plaintiff was not physically
harmed as stated on the record.” (Dkt. No. 25, ^ 3).
This response does not comply with the requirements
of L.R. 7.1(a)(3). Under this rule, the opposing party's
response to the movant's statement of material facts
“shall mirror the movant's Statement of Material Facts by
admitting and/or denying each of the movant's assertions
in matching numbered paragraphs. Each denial shall set
forth a specific citation to the record where the factual
issue arises.” Defendant provided plaintiff with notice of
L.R. 7.1 and the consequences of non-compliance as part
of his summary judgment motion. (Dkt. No. 19, at 3).
Where, as in this case, a party has failed to respond to
the movant's statement of material facts in the manner
required under L.R. 7.1(a)(3), the L.R. provides that facts
in the movant's statement will be accepted as true (1) to
the extent they are supported by evidence in the record,
and (2) the nonmovant, if proceeding pro se, has been
specifically advised of the possible consequences of failing
to respond to the motion. See Champion v. Artuz, 76
F.3d 483,486 (2d Cir.1996). However, the Second Circuit,
acknowledging a court's broad discretion to determine
whether to overlook a failure to comply with local rules,
has held that “while a court is not required to consider
what the parties fail to point out in their [local rule
statements of material facts], it may in its discretion
opt to conduct an assiduous review of the entire record
even where one of the parties has failed to file such a
statement.” Holtz v. Rockefeller & Co., Inc., 258 F.3d 62,
73 (2d Cir.2001) (citation and internal quotation marks
omitted). In deference to plaintiffs pro se status and
his attempt, albeit inadequate, to respond to defendant's
statement of material facts, the court has opted to review
the entire summary judgment record.

v. McGinnis, 352 F.3d 582, 588 (2d Cir.2003) (citing Pell
v. Procunier, 417 U.S. 817, 822 (1974)). However, the
right “is not absolute or unbridled, and is subject to
valid penological concerns, including those relating to
institutional security.” Johnson v. Guiffere, No. 04-CV57, 2007 WL 3046703, at *4 (N.D.N.Y.Oct.17, 2007).
To succeed on a claim under the Free Exercise Clause,
the plaintiff must show at the threshold, that the
challenged conduct “substantially burdens his sincerely
held religious beliefs.” Pugh v. Goord, 571 F.Supp.2d 477,
497 (S.D.N.Y.2008) (quoting Salahuddin, 467 F.3d at 27475) (citing Ford, 352 F.3d at 591). The issue of whether
a “substantial burden” is required has been discussed at
length, and although not specifically decided, recent cases
still apply the requirement to Free Exercise cases. Holland
v. Goord, 758 F.3d 215, 220-23 (2d Cir.2014); Walker v.
Arms, No. 9:10-CV-1431 (MAD/DEP), 2013 WL 564909,
at *8-9 (N.D.N.Y. Sept. 30, 2013) (citing Salahuddin, 467
F.3d at 274—75). This court will follow the analysis in
Holland and will consider the First Amendment claim,
assuming that the substantial burden test is still valid.
*4 The Religious Land Use and Institutionalized Persons
Act (“RLUIPA”) also protects inmates' religious rights.
RLUIPA prohibits the government from imposing a
substantial burden on a prisoner's religious exercise unless
the burden is the least restrictive means of furthering a
compelling governmental interest. See 42 U.S.C. § 2000cc1(a). For a burden to be substantial, a plaintiff must
demonstrate that the government's action pressures him
to commit an act forbidden by his religion or prevents him
from engaging in conduct or having a religious experience
mandated by his faith. In addition, this interference must
be more than an inconvenience; the burden must be
substantial and an interference with a tenet or belief that is
central to religious doctrine. Pughv. Goord, 571 F.Supp.2d
477, 504-05 (S.D.N.Y.2008); Graham v. Mahmood, No.
05-10071, 2008 WL 1849167, at *14 (S.D.N.Y. Apr. 22,
2008); Gill v. Defrank, No. 98 Civ. 7851,2000 WL 897152,
at *1 (S.D.N.Y. July 6, 2000) (citing Boomer v. Irvin, 963
F.Supp.2d 227, 230 (W.D.N.Y.1997)).

IV. Free Exercise ofReligion
A. Legal Standards
The First Amendment guarantees the right to the free
exercise of religion. Cutter v. Wilkinson. 544 U.S. 709, 719
(2005). “Prisoners have long been understood to retain
some measure of the constitutional protection afforded
by the First Amendment's Free Exercise Clause.” Ford

B. Application
1. RLUIPA Claim

WESTLAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

3

Berisha v. 9^S,WRSteftM«^:3Wi6)Documellt

29 Filed 02/11/19 Page 68 of 77

2016 WL 1295178

Plaintiffs amended complaint, which seeks only monetary
damages,5 asserts a RLUIPA claim. (Am. Compl. at
10). It is well-established that monetary damages are not
available against state actors in their official capacities
for a violation of RLUIPA. Sossamon v. Texas, 563 U.S.
277, 293 (2011). In addition, the Second Circuit has held
that “RLUIPA does not provide a cause of action against
state officials in their individual capacities.” Washington
v. Gonyea, 731 F.3d 143, 145 (2d Cir.2013). Because his
damage claim is precluded, this court recommends that
plaintiffs RLUIPA claim be dismissed.
5

Injunctive relief is unnecessary because plaintiff now
has a beard permit allowing him to have facial hair in
excess of one inch. (Dkt No. 19-4, Ex. 2 to Joshua L.
Farrell Deck; Dep. at 32).

2. First Amendment Claim
Beard grooming standards for all inmates at DOCCS
facilities, including Greene, are established by DOCCS
Directive 4914(B)(1)(b). Both parties have submitted a
copy of this directive in connection with this motion. (Dkt.
No. 19-6, Ex. 1 to Mark Farrell Deck; Dkt. No. 23, Ex. C
to Pl.’s Mem. of Law). The directive provides in pertinent
part that:
An inmate may grow a beard and/or mustache, but
beard/mustache hair may not exceed one (1) inch in
length unless:
a. The inmate has a Court Order restraining the
Department from enforcement; or
b. The inmate has requested and received an
exemption based upon his or her documented
membership in a religion which has an established
tenet against the trimming of beards including,
but not limited to, inmates who are Rastafarian,
Orthodox Jew, or Muslim. All inmate requests for
such exemption shall be referred to and reviewed
by Counsel's Office after consultation with the
facility Chaplain. After such review, Counsel's
Office will make a recommendation to the Deputy
Commissioner for Correctional Facilities. If the
request is approved by the Deputy Commissioner
for Correctional Facilities, a permit will be issued
to the inmate.

Further, pending Counsel's Office's determination of
requests for exemption from the one (1) inch rule,
inmates shall not be required to cut or trim their beards,
disciplined for refusing the order to shave, or subject to
repeat orders to shave.
An inmate who refuses to comply with this rule will be
given 14 days from the date of the written order to shave
in which to request an exemption. If the inmate fails to
submit a request for an exemption within 14 days, he
may be disciplined for refusal to obey such order.
Plaintiff does not allege that the grooming policy itself
violates his right to free exercise of religion - an argument
that has been considered and rejected in other cases.
See Fromer v. Scully, 874 F.2d 69, 75-76 (2d Cir.1989)
(rejecting First Amendment challenge to one inch beard
rule); Young v. Goord, No. l-CV-626,2005 WL 562756, at
*8 (E.D.N.Y. 2005), affd 192 Fed. App'x 31 (2d Cir. 2006)
(rejecting RLUIPA challenge to one inch beard rule);
Verdal v. Frantz, No. 9:01-CV-910, 2002 WL 31309175,
at *3 (dismissing First Amendment challenge to separate
DOCCS requirement that new inmates shave upon their
U.S.
arrival to prison); see also Holt v. Hobbs,
135 S.Ct. 853, 868 (2015) (Sotomoyer, J., concurring)
(describing New York DOCCS inmate grooming policy
as “more permissive” than the complete ban on inmate
facial hair that the Supreme Court unanimously found to
violate RLUIPA). Instead, plaintiff argues that defendant
failed to follow the established DOCCS policy that allows
fourteen days for an inmate to submit an exemption
request before any disciplinary action is taken. (Am.
Compl. at 8). As plaintiff characterized his complaint
at his deposition, defendant “just jumped the gun” and
ordered plaintiff to immediately shave or trim his beard.
(Dep. 28).
*5 Courts generally do not question the centrality of
particular beliefs or practices to a faith, or the validity of a
litigant's interpretation of those creeds. Amaker v. Goord,
No. 06-CV^190A, 2010 WL 2595286, at *11 (W.D.N.Y.
Mar. 25, 2010). The Supreme Court has rejected the
notion that to claim the protection of the free exercise
clause, the plaintiff must be “responding to the commands
of a particular religious organization.” Frazee v. III. Dep't
of Employment Sec., 489 U.S. 829, 834 (1989). Courts
may, however, consider whether an inmate sincerely holds
a particular belief and whether the belief is religious in
nature. Id. (citing Ford, 352 F.3d at 590).

WESTLAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

4

Berisha v.

9a?li,%i?RS!feSM<V.Ii)M:SJWi6)Document29 Filed 02/11/19 Page 69 of 77

2016 WL 1295178

Plaintiff has demonstrated that DOCCS recognizes him as
a practicing Muslim. (Dkt. No. 23, Ex. B to Pl.'s Mem.
of Law). In addition, defendant's motion for summary
judgment has not challenged the sincerity of plaintiffs
belief that his religion forbids him from shaving or
trimming his beard, and this court finds no reason to
, 135 S.Ct. at 862-63
question it. See Holt,__ U.S.
(2015) (noting that the belief that men must grow beards is
widely followed by observant Muslims across the various
schools of Islam).
However, even viewing all facts in the light most favorable
to the non-moving party, plaintiff has not demonstrated
that defendant's actions on September 16-17, 2013
imposed a substantial burden upon plaintiffs religious
exercise.6 A substantial burden on religious expression
is one that “ 'puts substantial pressure on an adherent to
modify his behavior and to violate his beliefs.' ” Guillory v.
Weber, No. 9:12-CV-280 (LEK/RFT), 2015 WL 1419088,
*8 (N.D.N.Y. April 6, 2015) (quoting Thomas v. Review
Bd. of Ind. Emp't Sec. Div., 450 U.S. 707, 717-18 (1981)).
Plaintiffs encounters with defendant in the mess hall do
not rise to that level. On September 16, 2016, defendant
accurately told plaintiff that his beard was in violation
of DOCCS policy. (Am. Compl. at 4). Plaintiff admitted
that he chose to ignore defendant's September 16, 2013
order to shave, and faced no repercussions. (Dep. at 14).
Instead, plaintiff spoke to Dodd and Smith, who advised
him that no disciplinary action could take place for at least
fourteen days, and helped plaintiff submit an application
for a beard permit. (Am. Compl. at 4-5; Dep. at 14—15).
At the time, plaintiff did not express any doubts about the
validity of the fourteen day “temporary hold” on shaving,
and only asked Smith how to respond if defendant stopped
him again. (Dep. at 15).
6

Even if injunctive relief were available, dismissal of
plaintiffs RLUIPA cause of action would still be
warranted because substantial burden is a necessary
element of a claim under that statute.

The next day, September 17, 2013, defendant again
challenged plaintiff about the length of his beard. Plaintiff
followed Smith's instructions and advised defendant of his
application for a beard permit and the resulting temporary
hold. (Am. Compl. at 5; Dep. at 15). Even if, as plaintiff
contends, defendant “went into a rampage” and used
threats and abusive language toward him, plaintiff knew
that any disciplinary action related to his beard would

be delayed by the terms of Directive 4914. (Dkt. No. 196, Ex. 1 to Mark Farrell Deck; Dkt. No. 23, Ex. C to
Pl.'s Mem. of Law). Moreover, although plaintiff alleged
that defendant threatened to take him to SHU, defendant
did not issue any disciplinary ticket to plaintiff. (Dkt.
No. 19-1, Statement of Material Facts, 1] 11). Defendant
did not make any physical contact, threaten to physically
harm plaintiff or attempt to shave plaintiff himself. (Dep.
at 16, 28, 31). Besides the two encounters in the mess
hall, plaintiff does not allege any further contact with
defendant.
*6 Defendant’s behavior, while clearly frustrating to
plaintiff, does not give rise to a constitutional claim. See
Mack v. Griffin, No. 9:04-CV-588 (NAM/RFT), 2006
WL 2792736, *7 (N.D.N.Y. Sept. 27, 2006) (granting
summary judgment where Muslim inmate alleged that
he had been threatened with SHU if he did not comply
with DOCCS beard policy); see also Hamilton v. Erhardt,
No. 10-CV-6234, 2011 WL 3476475, at *2-5 (W.D.N.Y.
Aug. 9, 2011) (dismissing claims under Fed.R.Civ.P.
12(b)(6) that defendants ordered inmates to shave his •
beard while mocking and harassing him, but allowing
claim that defendants had later threatened physical
harm and punished plaintiff). Plaintiff, who had been
advised by Superintendent Smith that no disciplinary
action was imminent, never faced a “forced choice” to
decide between the “equally unpleasant alternatives” of
disciplinary sanctions and abandonment of his religious
beliefs. See Smith, No. 9:07-CV-l 150 (NAM/ATB), 2010
WL 3910086, at *17. As the facts of this case demonstrate,
plaintiff had other options that presented a high likelihood
of success and would not have impacted his religious
beliefs, such as further discussion with Dobbs and Smith
or the filing of an administrative grievance.
In addition, plaintiffs encounters with defendant qualify
as the type of isolated incident, promptly corrected
by the facility, that courts have typically treated as a
de minimis burden on religious expression. See, e.g.,
Williams v. Rock, 2014 WL 4685035 (N.D.N.Y. Sept.
19, 2014) (staff failure to deliver meals at appropriate
time during Ramadan was de minimis burden on First
Amendment rights); Smith v. Graziano, No. 9:08-CV469 (GLS/RFT), 2010 WL 1330019, at *9 (N.D.N.Y.
March 16, 2010) (cancellation of two religious services,
that was the result of a “breakdown of communication
between prison officials and security staff,” constituted a
de minimis burden on inmate's ability to freely exercise

WESTIAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

5

Berisha v.

9Sfli,%i7R5i(^a%fflM:WeiDocument29 Filed 02/11/19 Page 70 of 77

2016 WL 1295178

his religion); Allan v. Woods, No. 9:05-CV-1280 (NAM/
GJD), 2008 WL 724240, at *4-5 (N.D.N.Y. Mar. 17,
2008) (finding that there was no substantial burden where
inmate was assigned to work detail on Sabbath one
time before officials approved religious accommodation).
Prison officials promptly assisted plaintiff with his
application for a beard permit after his first encounter
with defendant. Responsive measures were also taken
after plaintiff filed a grievance related to the second
encounter, and plaintiff now has a valid beard permit
recognizing his religious exemption.
Based on the record in this case, this court concludes that
defendant's actions did not substantially burden plaintiffs
ability to practice his religion. Even though plaintiff chose
to shave or trim his beard following the alleged threats
by defendant, plaintiff did so even though he knew that
he had been afforded a fourteen day “temporary hold”
on any disciplinary enforcement while his application
for a beard permit was pending. At most, defendant's
actions imposed a de minimis burden on plaintiffs First
Amendment rights. Thus, this court recommends that
plaintiffs First Amendment claim be dismissed.
7

n

Defendant also argues that he is entitled to
qualified immunity. Qualified immunity generally
protects governmental officials from civil liability

End of Document

“insofar as their conduct does not violate clearly
established statutory or constitutional rights of which
a reasonable person would have known.” Harlow
v. Fitzgerald, 457 U.S. 800, 818 (1982). Because the
defendant has not violated plaintiffs constitutional
rights in the first instance, the court need not reach
the issue of whether a reasonable person would have
known of the constitutional violation.
WHEREFORE, based on the findings above, it is
RECOMMENDED, that defendants' motion for
summary judgment (Dkt. No. 19) be GRANTED and the
complaint DISMISSED IN ITS ENTIRETY.
Pursuant to 28 U.S.C. § 636(b)(1) and Local Rule 72.1(c),
the parties have fourteen (14) days within which to file
written objections to the foregoing report. Such objections
shall be filed with the Clerk of the Court. FAILURE TO
OBJECT TO THIS REPORT WITHIN FOURTEEN
DAYS WILL PRECLUDE APPELLATE REVIEW.
Roldan v. Racette, 984 F.2d 85, 89 (2d Cir.l993)(citing
Small v. Secretary ofHealth and Human Services, 892 F.2d
15 (2d Cir. 1989)); 28 U.S.C. § 636(b)(1); Fed.R.Civ.P.
6(a), 6(e), 72.

All Citations
Not Reported in F.Supp.3d, 2016 WL 1295178
© 2019 Thomson Reuters. No claim to original U.S. Government Works.

WESTLAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

6

Skates v.

to,WRS!!ift9§ft,(VHM.:»l«i6Pocument29 Filed 02/11/19 Page 71 of 77

2016 WL 3882530

2016 WL 3882530
Only the Westlaw citation is currently available.
United States District Court,
N.D. New York.
Elijah Skates, Plaintiff,
v.
Jarrod Shusda, et al., Defendants.
Civil Action No. 9:14-CV-1092 (TJM/DEP)

I
Signed 05/31/2016
Attorneys and Law Firms
FOR PLAINTIFF: ELIJAH SKATES, Pro se, 97-35
104th Street, Apt. 1, Queens, NY 11416.
FOR
DEFENDANTS:
HON.
ERIC
T.
SCHNEIDERMAN, New York State Attorney
General, The Capitol, OF COUNSEL: ORIANA L.
CARRAVETTA, ESQ., Assistant Attorney General,
Albany, NY 12224.

REPORT AND RECOMMENDATION
DAVID E. PEEBLES, CHIEF U.S. MAGISTRATE
JUDGE
This is a civil rights action brought by pro se plaintiff
Elijah Skates, a former New York State prison inmate,
pursuant to 42 U.S.C. § 1983, against five employees
of the New York State Department of Corrections and
Community Supervision (“DOCCS”), one of whom has
been dismissed from the action. In his complaint, as
amended and narrowed as a result of earlier court
orders, plaintiff alleges that (1) he was denied his First
Amendment right to freely exercise his chosen religion
because he was not provided a proper religious meal on
one occasion; (2) his right to equal protection under the
Fourteenth Amendment was denied because he was not
treated similarly to those inmates who are members of
other religions; and (3) one of the named defendants
issued an adverse disciplinary hearing determination in
retaliation for plaintiff filing a grievance regarding his
religious rights.

Currently pending before the court is a motion brought
by the defendants to dismiss plaintiffs remaining three
claims. For the reasons set forth below, I recommend that
the motion be granted, in part, but otherwise denied.

I. BACKGROUND 1
1
In light of the procedural posture of this case,
the following recitation is drawn principally from
plaintiffs amended complaint, the contents of which
have been accepted as true for purposes of the
pending motion. See Erickson v. Pardus, 551 U.S. 89,
94 (2007) (“[W]hen ruling on a defendant's motion to
dismiss, a judge must accept as true all of the factual
allegations contained in the complaint.”) (citing Bell
Atl. Corp. v. Twombly, 550 U.S. 544, 555-56 (2007));
see also Cooper v. Pate, 378 U.S. 546, 546 (1964).
Portions of the background have also been derived
from the exhibits that were attached to plaintiffs
amended complaint, which may also properly be
considered in connection with a dismissal motion. See
Cortec Indus., Inc. v. Sum Holding L.P., 949 F.2d 42,
47-48 (2d Cir. 1991) (“[T]he complaint is deemed to
include any written instrument attached to it as an
exhibit or any statements or documents incorporated
in it by reference.”); accord, Samuels v. Air Transp.
Local 504, 992 F.2d 12, 15 (2d Cir. 1993).
2
Prior to his release on or about September 11, 2015,
plaintiff was a New York State inmate held in the
custody of the DOCCS. See generally Dkt. No. 33. At
the times relevant to his claims in this action, plaintiff
was confined in the Great Meadow Correctional Facility
(“Great Meadow”), located in Comstock, New York. Id.
Plaintiff is a member of the Nation of Islam (“NOI”) Faith
Group and observes Islamic religious beliefs and practices.
Id. at 3.
2

See
New
York
State
Department
of
Corrections and Community Supervision, http://
nysdoccslookup.doccs.ny.gov/GCAOOPOO/WIQl/
WINQ000 (last visited May 27, 2016); see also Dkt.
No. 30.

In accordance with his religious beliefs, plaintiff planned
to observe the NOI Holy Day of Atonement on October
15 and 16, 2013. Dkt. No. 33 at 3. In connection with that
religious observance, plaintiff alleges he was supposed to
have received a Sahoor bag meal on October 15, 2013,
for consumption prior to dawn the following morning in
order to begin the fasting process associated with the holy
day. Id.\ see also Dkt. No. 33-1 at L Despite notifying

WESTLAW © 2019 Thomson Reuters. No claim lo original U.S. Government Works.

1

Skates v.

te3*7^§8ftHltt»l®i6Pocu,T,ent 29 Filed 02/11/19 Page 72 of 77

2016 WL 3882530
corrections staff of his request for a Sahoor bag meal prior
to the evening of October 15,2013, plaintiff did not receive
his meal. Dkt, No. 33 at 3-4,
*2 Unrelated to this isolated incident, plaintiff alleges
that, in general, corrections personnel at Great Meadow
have failed to properly recognize and support the NOI
religion. Specifically, in his amended complaint plaintiff
alleges that the “NOI Faith Group is the only religion in
D.O.C.C.S. [that] does not have a [ministerial program
coordinator ('MPC') ] in [the] Central Office.” Dkt. No.
33 at 6. Plaintiff also appears to allege that there is no
NOI chaplain at Great Meadow. Id. at 7. Notwithstanding
this allegation, plaintiff confusingly alleges that Great
Meadow, in fact, has a facility chaplain, identified
as Imam Aboulkadir Elmi, but that Elmi's “religious
outlooks and subjective and objective are in complete
contradiction with the (N.O.I.) beliefs.”
3

•3

Id.

Imam Elmi was originally named as a defendant in
the action. Dkt. No. 1 at 2. In his amended complaint,
however, plaintiff has not asserted any claims against
this individual. Dkt. No. 33 at 1, 2.

Plaintiff further alleges that defendant Jarrod Shusda
conducted a Tier III disciplinary involving plaintiff on
August 11, 2014, and that he found plaintiff guilty
during the proceeding in retaliation for plaintiffs earlier
grievance concerning the Sahoor bag meals.4 Dkt. No. 33
at 6.
4

The DOCCS conducts three types of inmate
disciplinary hearings. See 7 N.Y.C.R.R. § 270.3; see
also Hynes v. Squillace, 143 F.3d 653, 655 n.l (2d
Cir. 1998). Tier I hearings address the least serious
infractions and can result in minor punishments such
as the loss of recreation privileges. Hynes, 143 F.3d
at 655 n.l. Tier II hearings involve more serious
infractions, and can result in penalties which include
confinement for a period of time in the SHU. Id. Tier
III hearings address the most serious violations and
can result in unlimited SHU confinement and the loss
of “good time” credits. Id.

II. PROCEDURAL HISTORY
Plaintiff commenced this action on or about September 4,
2014. Dkt. No. 1. Following a series of initial procedural
developments, plaintiff sought and was granted leave to
file an amended complaint in a decision and order issued
by Senior District Judge Thomas J. McAvoy on October

22,2015.5 Dkt. No. 32. Named as defendants in plaintiffs
amended are (1) Jarrod Shusda, who appears to be a foodservice worker at Great Meadow; (2) Brent Yukoweic,
a clergy member employed by the DOCCS; (3) Cheryl
Morris, the DOCCS Director of Ministerial Services;
and (4) Robert Schattinger, the DOCCS Director of
Nutritional Services. Id. at 2. In his decision, Judge
McAvoy accepted the amended complaint for filing only
with respect to plaintiffs (1) First Amendment free
exercise claim for damages against all defendants, in
their individual capacities, arising from the alleged failure
to provide him with a religious meal in October 2013;
(2) an Equal Protection claim for damages, also against
all defendants in their individual capacities; and (3) a
retaliation claim for damages against defendant Shusda in
his individual capacity. Dkt. No. 32 at 10.
5

Judge McAvoy noted that, in accepting certain claims
asserted in the amended complaint, he “expresse[d]
no opinion as to whether [the surviving] claims can
withstand a properly filed motion to dismiss or for
summary judgment.” Dkt. No, 32 at 10.

In lieu of answering plaintiffs amended complaint, on
November 19, 2015, defendants filed the pending motion
to dismiss for failure to state a claim upon which relief may
be granted pursuant to Rule 12(b)(6) of the Federal Rules
of Civil Procedure. Dkt. No. 34. Defendants' motion, to
which plaintiff has not responded, has been referred to me
for the issuance of a report and recommendation pursuant
to 28 U.S.C. § 636(b)(1)(B) and Northern District of New
York Local Rule 72.3(c). See Fed. R. Civ. P. 72(b).

III. DISCUSSION
A. Standard of Review
*3 A motion to dismiss a complaint, brought pursuant
to Rule 12(b)(6) of the Federal Rules of Civil Procedure,
calls upon a court to gauge the facial sufficiency of that
pleading using a standard which, though unexacting in its
requirements, “demands more than an unadorned, thedefendant-unlawfully-harmed me accusation” in order to
withstand scrutiny. Ashcroft v. Iqbal, 556 U.S. 662, 678
(2009) (citing Bell Atl. Corp. v. Twombly, 550 U.S. 554,
555 (2007)). Under Rule 8(a)(2) of the Federal Rules of
Civil Procedure, “a pleading must contain a ‘short and
plain statement of the claim showing that the pleader is
entitled to relief.’ ” Iqbal, 556 U.S. 677-78 (quoting Fed.
R. Civ. P. 8(a)(2)). While modest in its requirements, that

WESTLAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

2

Skates v.

s,»w^amHteW6Pocument 29 R|ed 02/11/19 pa9e 73 of 77

2016 WL 3882530

rule commands that a complaint contain more than mere
legal conclusions. See id. at 679 (“While legal conclusions
can provide the framework of a complaint, they must be
supported by factual allegations.”).

a Sahoor bag meal on October 15, 2013. Dkt. No. 33 at
3-4. Defendants contend that this isolated incident is not
sufficient to support a cognizable cause of action. Dkt.
No. 34-1 at 6-8.

In deciding a Rule 12(b)(6) dismissal motion, the court
must accept the material facts alleged in the complaint as
true and draw all inferences in favor of the non-moving
party. Erickson v. Pardus, 551 U.S. 89, 94 (2007) (citing
Twombly, 550 U.S. at 555-56); see also Cooper v. Pate,
378 U.S. 546, 546 (1964); Miller v. Wolpoff & Abramson,
L.L.P., 321 F.3d 292, 300 (2d Cir. 2003); Burke v. Gregory,
356 F. Supp. 2d 179,182 (N.D.N.Y. 2005) (Kahn, J.). The
tenet that a court must accept as true all of the allegations
contained in a complaint does not apply, however, to legal
conclusions. Iqbal, 556 U.S. at 678.

While inmates confined within prison facilities are by
no means entitled to the full gamut of rights guaranteed
under the United States Constitution, including its First
Amendment, the free exercise clause of that provision
does afford them at least some measure of constitutional
protection, including their right to participate in religious
meals. See Pell v. Procunier, 417 U.S. 817, 822 (1974) (“In
the First Amendment context ... a prison inmate retains
those First Amendment rights that are not inconsistent
with his status as a prisoner or with the legitimate
penological objectives of the corrections system.”); Ford
v. McGinnis, 352 F.3d 582, 597 (2d Cir. 2003) (“We ...
have clearly established that a prisoner has a right to a
diet consistent with his or her religious scruples.”). That
right, however, is not without limits, and the task of
defining the contours of that right in a prison setting
requires striking a balance between the rights of prison
inmates and the legitimate interests of prison officials
tasked with maintaining prison security. O'Lone v. Estate
ofShabazz, 482 U.S. 342, 348-49 (1987); Ford, 352 F.3d
at 588; Benjamin v. Coughlin, 905 F.2d 571, 574 (2d Cir.
1990). When determining whether a defendant's failure to
provide a plaintiff with his religious meals impinges upon
his First Amendment free exercise right, the inquiry is
“one of reasonableness, taking into account whether the
particular [act] affecting [the] right... is ‘reasonably related
to legitimate penological interests.’ ” Benjamin, 905 F.2d
at 574 (quoting Turner v. Safley, 482 U.S. 78, 89 (1987));
Ford, 352 F.3d at 588; see also Farid v. Smith, 850 F.2d
917, 925 (2d Cir. 1988).

To withstand a motion to dismiss, “a complaint must
contain sufficient factual matter, accepted as true, to ‘state
a claim to relief that is plausible on its face.’ ” Iqbal,
556 U.S. at 678 (quoting Twombly, 550 U.S. at 570); see
also Ruotolo v. City of New York, 514 F.3d 184, 188 (2d
Cir. 2008). As the Second Circuit has observed, “[w]hile
Twombly does not require heightened fact pleading of
specifics, it does require enough facts to ‘nudge plaintiffs'
claims across the line from conceivable to plausible.’ ” In
re Elevator Antitrust Litig., 502 F.3d 47, 50 (2d Cir. 2007)
(quoting Twombly, 550 U.S. at 570) (alterations omitted).
When assessing the sufficiency of a complaint against
this backdrop, particular deference should be afforded
to a pro se litigant, whose complaint merits a generous
construction by the court when determining whether
it states a cognizable cause of action. Erickson, 551
U.S. at 94 (“ ‘[A] pro se complaint, however inartfully
pleaded, must be held to less stringent standards than
formal pleadings drafted by lawyers.’ ” (quoting Estelle
v. Gamble, 429 U.S. 97, 106 (1976)) (citation omitted));
Sealed Plaintiff v. Sealed Defendant, 537 F.3d 185,191 (2d
Cir. 2008) (“[W]hen a plaintiff proceeds pro se, a court
is obliged to construe his pleadings liberally.” (quotation
marks and alterations omitted)); Kaminski v. Comm'r of
Oneida Cnty. Dep't ofSoc. Servs., 804 F. Supp. 2d 100,104
(N.D.N.Y. 2011) (Hurd, J.) (“A pro se complaint must be
read liberally.”).

B. Free Exercise Claim
Plaintiff asserts a First Amendment claim against
defendants based on allegations that he did not receive

*4 As a threshold matter, “[t]he prisoner must show ...
that the disputed conduct substantially burdens his
sincerely held religious beliefs.” 6 Salahuddinv. Goord, 467
263, 274-75 (2d Cir. 2006). In evaluating this factor, the
court must be wary of “ ‘questioning] the centrality of
particular beliefs or practices to a faith, or the validity
of particular litigants' interpretations of those creeds.’ ”
McEachin v. McGuinnis, 357 F.3d 197, 201 (2d Cir. 2004)
(quoting Hernandez v. Comm'r of Internal Revenue, 490
U.S. 680, 699 (1989)). Instead, a court should consider
only whether the particular plaintiff has “demonstrate[d]
that the beliefs professed are sincerely held and in the

WESTIAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

3

Skates v.

S,»WRS!!;ftMW»:Wi6Pocument29 Filed 02/11/19 Page 74 of 77

2016 WL 3882530

individual's own scheme of things, religious.” Ford, 352
F.3d at 588 (quotation marks omitted).

had “alleged no facts to suggest that this brief deprivation
was significant enough to more than minimally burden his
religious practice”); Perrilla v. Fischer, No. 13-CV-0398,

6

2013 WL 5798557, at *5 (W.D.N.Y. Oct. 28, 2013) 8
(finding the plaintiffs allegations that he was denied
double portions of meals and oatmeal in his Sahoor
bag and that some religious meals were ill-prepared
amounted to no more than a de minimis burden of the
plaintiffs constitutional rights). In light of the Second
Circuit's recent decision in Williams, however, in which
the court criticized this court's determination that the
plaintiffs allegation that he was denied, at most, five
religious meals over the course of one month was a de
minimis burden on plaintiffs rights, it appears that the
Second Circuit may now equate a district court's finding
of a de minimis burden with a finding that a plaintiffs
beliefs are insincere. See Williams, 2016 WL 2610028, at
*1 (“The district court relied on non-binding case law
when it determined that [the plaintiff's burden was de
minimis because only a few of his meals were delivered
prematurely; its reasoning is inconsistent with this Court's
case law, which cautions against the danger that courts
will make conclusory judgments about the unimportance
of the religious practice to the adherent[.]” (quotation
marks omitted)). With this in mind, I find that plaintiffs
allegation that the denial of a single religious meal, which
allegedly did not allow plaintiff to “enjoy the full effect”
of the holy day and caused him to “dwell in sin,” Dkt. No.
33 at 7. plausibly alleges that his First Amendment rights
were substantially burdened.

The Second Circuit has yet to decide whether
the “substantial burden” test survived the Supreme
Court's decision in Emp't Div. v. Smith, 494 U.S
872, 887 (1990), in which the Court suggested
that application of the test “puts courts in ‘the
unacceptable business of evaluating the relative
merits of differing religious claims.’ ” Ford, 352
F.3d at 592 (quoting Emp't Div., 494 U.S. at 887);
see also Williams v. Does, __ Fed.Appx. ___ ,
No. 15-0692, 2016 WL 2610028, at *1 (2d Cir.
May 6, 2016) (“We have not yet decided whether
a prisoner asserting a free-exercise claim must, as
a threshold requirement, show that the disputed
conduct substantially burdened his sincerely held
religious beliefs.”); Holland v. Goord, 758 F.3d 215,
220-21 (2d Cir. 2014) (declining to decide whether
a prisoner must show, as a threshold matter, that
the defendants' conduct substantially burdened his
sincerely held religious beliefs in connection with a
First Amendment free exercise claim). In the absence
of any controlling precedent to the contrary, I have
applied the substantial-burden test in this matter.

In their motion, defendants do not question the
genuineness of plaintiffs religious beliefs. Dkt. No. 34-1
at 6-9. They do, however, contend that plaintiffs amended
complaint does not allege sufficient facts to plausibly
suggest that his rights were substantially burdened by
defendants' actions. Id.
Plaintiffs free-exercise claim turns upon a single instance
of the denial of a religious meal. Plaintiff alleges that,
as a result of the failure to provide him with a Sahoor
bag, he “was unable to properly worship and was forced
to not be able to receive the full blessings and enjoy
the full effect of the [Holy Day of Atonement],” and,
instead, “was forced to dwell in sin” causing him “to
inflict self-harm upon himself.”7 Dkt. No. 33 at 7.
Various courts in this circuit addressing similar claims
have concluded that such isolated incidents that are
not representative of larger, systemic deprivations are
constitutionally de minimis and do not rise to a level
sufficient to support a First Amendment claim. See,
e.g., Washington v. Afify, 968 F. Supp. 2d 532, 538-39
(W.D.N.Y. 2013) (finding the plaintiffs allegations that
he was denied two religious breakfast meals and one
evening meal were not sufficient to state a plausible First
Amendment free exercise claim, noting that the plaintiff

7

In his SAC, plaintiff alleges that he cut himself and
attempted to overdose on medication as a result of
defendants' actions. Dkt. No, 33 at 7-8.

8

All unreported cases cited to in this report have been
appended for the convenience of the pro se plaintiff.

*5 Defendants contend that, even assuming plaintiffs
rights were substantially burdened, dismissal of plaintiffs
First Amendment claim is warranted because the exhibits
attached to plaintiffs amended complaint reflect that the
denial of a single religious meal to plaintiff on October 15,
2013, was the result of a mistake, and negligence is not
actionable under the First Amendment. Dkt. No. 34-1 at
8-9. Notwithstanding whether defendants are correct with
respect to their legal conclusion,9 their factual conclusion
mischaracterizes the evidence. In particular, a careful
review of the e-mails attached to the amended complaint
reveal that at least some of the named defendants were

WESTLAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

4

Skates v.

S,mW^!!5li®§(!.%HM.:W6Pocument 29 Filed 02/11/19 Page 75 of 77

2016 WL 3882530

aware in advance that the NOI holy day was approaching
and that some prisoners would require Sahoor bag meals.
Dkt. No, 33-1 at 8-12. According to the e-mails, and
assuming the facts in plaintiffs amended complaint are
true, notwithstanding this knowledge, no one took further
steps to ensure that plaintiff, or any other NOI prisoner,
received a religious meal on October 15,2013. Id. Because
it is not clear that plaintiff was denied his religious meal
on October 15,2013, as a result of a mistake or negligence,
I cannot recommend dismissal of the First Amendment
claim on this basis. Accordingly, I recommend that
defendants' motion to dismiss plaintiffs free exercise claim
be denied.
9

It does not appear that the Second Circuit has
rendered an opinion regarding whether negligence is
sufficient to sustain a First Amendment claim. See
Hamilton v. Countant, No. 13-CV-0669, 2016 WL
881126, at *4 (S.D.N.Y. Mar. 1, 2016) (“Although
the Second Circuit does not appear to have addressed
whether negligence can sustain a First Amendment
claim outside the context of retaliatory litigation, the
Third, Fourth, Fifth, and Tenth Circuits have found
negligence insufficient.” (citations omitted)).

C. Equal Protection Claim
In his complaint, plaintiff intimates that the DOCCS
treats the NOI faith group differently than other religious
groups in violation of plaintiffs equal protection rights
under the Fourteenth Amendment. Dkt. No. 33 at 7. In
their motion, defendants also request dismissal of this
claim as lacking in facial merit. Dkt. No. 34-1 at 10-11.
The equal protection clause of the Fourteenth
Amendment directs state actors to treat similarly situated
people alike. City of Cleburne, Tex. v. Cleburne Living
Ctr.,41'i U.S. 432,439 (1985). To state a cognizable equal
protection cause of action, a plaintiff must allege sufficient
facts that plausibly suggest that he was treated differently
than others similarly situated as a result of intentional
or purposeful discrimination directed at an identifiable
or suspect class. Giano v. Senkowski, 54 F.3d 1050, 1057
(2d Cir. 1995). The plaintiff must also show “that the
disparity in treatment cannot survive the appropriate level
of scrutiny which, in the prison setting, means that he
must demonstrate that his treatment was not ‘reasonably
related to any legitimate penological interests.’ ” Phillips
v. Girdich, 408 F.3d 124, 129 (2d Cir. 2005) (alteration
omitted) (quoting Shaw v. Murphy, 532 U.S. 223, 225
(2001)).

Plaintiffs amended complaint is internally inconsistent
with regard to his allegation that the NOI inmates at
Great Meadow do not have a facility chaplain. Dkt.
No. 33 at 7. Specifically, while plaintiff contends, at
paragraph forty-two, that “the (N.O.I.) Faith Group has
no facility Chaplain (N.O.I. Minister), like the other faith
groups,” in the next paragraph plaintiff states that Great
Meadow does, in fact, have a NOI chaplain but that the
chaplain's “religious outlooks and subjective and objective
are in complete contradiction with the (N.O.I.) beliefs.”
Id. Separately, plaintiff also alleges that there is no NOI
MPC within the DOCCS. Id. at 6.
Conspicuously absent from plaintiffs amended complaint
are any allegations linking the allegations described above
and the named defendants. It is well established that
the personal involvement of a defendant “in alleged
constitutional deprivation is a prerequisite to an award
of damages under [section] 1983.” Wright v. Smith,
21 F.3d 496, 501 (2d Cir. 1994); see also Iqbal, 556
U.S. at 683 (“Petitioners cannot be held liable unless
they themselves acted on account of a constitutionally
protected characteristic.”). In this case, because the
amended complaint contains no allegations connecting
any of the named defendants with the alleged disparity in
treatment between the NOI and other religious groups,
I recommend that plaintiffs equal protection cause of
action be dismissed.

D. Retaliation Claim
*6 Plaintiff also asserts a retaliation claim against
defendant Shusda based on allegations that Shusda found
him guilty during a disciplinary hearing on August
11, 2014, in retaliation for a grievance plaintiff filed
concerning his failure to receive his religious meal in
October 2013. Dkt. No. 33 at 5-6. Defendants contend
that plaintiffs amended complaint fails to allege sufficient
facts plausibly suggesting that the hearing determination
was motivated by retaliatory animus. Dkt, No. 34-1 at
11-14,
When prison officials take adverse action against
an inmate, motivated by the inmate's exercise of
constitutional rights, including the free speech provisions
of the First Amendment, a cognizable claim of liability
under section 1983 lies. SeeFriedl v. City ofN. Y., 210 F.3d
79, 85 (2d Cir. 2000) (“In general, a section 1983 claim
will lie where the government takes negative action against

WESTLAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

5

Skates v.

S,mWRS!!iflS§(!ftIilM.':»lffliePocument29 Filed 02/11/19 Page 76 of 77

2016 WL 3882530

an individual because of his exercise of rights guaranteed
by the Constitution or federal laws.”). As the Second
Circuit has repeatedly cautioned, however, because such
claims are easily incanted and prone to abuse, and inmates
often attribute adverse action, including the issuance of
misbehavior reports, to retaliatory animus, courts must
approach such claims “with skepticism and particular
care.” Dawes v. Walker, 239 F.3d 489, 491 (2d Cir. 2001),
overruled on other grounds by Swierkiewicz v. Sorema N.A.,
534 U.S. 506 (2002); accord, Davis v. Goord, 320 F.3d 346,
352 (2d Cir. 2003).
To state a prima facie claim under section 1983 for
retaliatory conduct, a plaintiff must advance nonconclusory allegations showing that (1) he engaged in
protected activity; (2) the defendants took adverse action
against him; and (3) there was a causal connection between
the protected activity and the adverse action. Mount
Healthy City Sch. Dist. Bd. of Educ. v. Doyle, 429 U.S.
274, 287 (1977); Dillon v. Morano, 497 F.3d 247, 251 (2d
Cir. 2007); Garrett v. Reynolds, No. 99-CV-2065,2003 WL
22299359, at *4 (N.D.N.Y. Oct. 3, 2003) (Sharpe, M.J.).
In this instance I assume, for the purposes of this
report, that plaintiffs amended complaint plausibly
alleges that plaintiff engaged in protected activity by
filing a grievance and that defendant Shusda's guilty
determination is sufficient to constitute adverse action.
What is lacking, however, are any allegations of fact
that link the two. To satisfy the nexus requirement for a
retaliation claim, plaintiff must show that the protected
conduct, in this case plaintiffs filing of a grievance,
was a “substantial or motivating factor” in defendant's
Shusda's disciplinary hearing determination. Bennett v.
Goord, 343 F.3d 133,137 (2d Cir. 2003); accord, Johnson v.
Burge, 506 Fed.Appx. 10, 12 (2d Cir. 2012). The amended
complaint, however, neither alleges when plaintiff filed
the grievance nor that defendant Shusda was aware of
the grievance plaintiff allegedly filed. Assuming plaintiff
filed his grievance in or around the time he was denied
his religious meal in October 2013, approximately ten
months elapsed between the filing of the grievance and the
alleged adverse activity by defendant Shudsa in August
2014. While close temporal proximity may, on its own,
be enough to prevent dismissal on the pleadings, Davis v.
Goord, 320 F.3d 346, 352-54 (2d Cir. 2003), ten months
is too attenuated to support plaintiffs retaliation claim.
See, e.g., Nicastro v. N. Y. City Dep't of Design & Constr.,
125 Fed.Appx. 357, 358 (2d Cir. 2005) (concluding that

the plaintiff could not, at the summary judgment stage,
establish even a prima facie case of retaliation where the
adverse employment action occurred “almost ten months
after” the plaintiff engaged in protected conduct and
there was no other evidence of causation); Figueroa v.
Johnson, 109 F. Supp. 3d 532, 552 (E.D.N.Y. 2015).
Accordingly, I recommend that plaintiffs retaliation claim
against defendant Shusda be dismissed.

E. Whether to Permit Amendment
*7 Ordinarily, a court should not dismiss a complaint
filed by a pro se litigant without granting leave to amend at
least once “when a liberal reading of the complaint gives
any indication that a valid claim might be stated.” Branum
v. Clark, 927 F.2d 698, 704-05 (2d Cir. 1991); see also
Fed. R. Civ. P. 15(a) (“The court should freely give leave
when justice so requires.”); see also Mathon v. Marine
Midland Bank, N.A., 875 F. Supp. 986, 1003 (E.D.N.Y.
1995) (permitting leave to replead where court could
“not determine that the plaintiffs would not, under any
circumstances, be able to allege a civil RICO conspiracy”).
An opportunity to amend is not required, however, where
“the problem with [the plaintiffs] causes of action is
substantive” such that “better pleading will not cure it.”
Cuoco v. Moritsugu, 222 F.3d 99, 112 (2d Cir. 2000);
see also Cortec Indus. Inc., 949 F.2d at 48 (“Of course,
where a plaintiff is unable to allege any fact sufficient to
support its claim, a complaint should be dismissed with
prejudice.”). Stated differently, “[w]here it appears that
granting leave to amend is unlikely to be productive, ...
it is not an abuse of discretion to deny leave to amend.”
Ruffolo v. Oppenheimer & Co., 987 F.2d 129, 131 (2d Cir.
1993); accord, Brown v. Peters, No. 95-CV-1641, 1997 WL
599355, at *1 (N.D.N.Y. Sept. 22, 1997) (Pooler, J.).
In this instance, it is feasible that plaintiff could amend
his currently operative pleading to include additional
factual allegations that would plausibly suggest both the
requisite personal involvement of the named defendants
in connection with his equal protection claim and the
missing nexus necessary to plead a cognizable retaliation
claim. Accordingly, I recommend that plaintiff be granted
leave to file a second amended complaint to cure these
deficiencies.
If plaintiff chooses to avail himself of this opportunity,
he should note that the law in this circuit clearly provides
that “ ‘complaints relying on the civil rights statutes are
insufficient unless they contain some specific allegations

WESTIAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

6

Skates v.

S»,W^mHM,:Bl«i6Pocument 29 Filed 02/11/19 Page 77 of 77

2016 WL 3882530

of fact indicating a deprivation of rights, instead of a litany
of general conclusions that shock but have no meaning.’
” Hunt v. Budd, 895 F. Supp. 35, 38 (N.D.N.Y. 1995)
(McAvoy, J.) (quoting Barr v. Abrams, 810 F.2d 358,
363 (2d Cir. 1987)); Pourzandvakil v. Humphry, No. 94CV-1594, 1995 WL 316935, at *7 (N.D.N.Y. May 22,
1995) (Pooler, J.). Therefore, in any second amended
complaint, plaintiff must clearly set forth the facts that
give rise to the claims, including the dates, times, and
places of the alleged underlying acts, and each individual
who committed each alleged wrongful act. In addition,
the revised pleading should allege facts demonstrating
the specific involvement of any of the named defendants
in the constitutional deprivations alleged in sufficient
detail to establish that they were tangibly connected to
those deprivations. Bass v. Jackson, 790 F.2d 260, 263
(2d Cir. 1986). Finally, plaintiff is informed that any
such second amended complaint \vill replace the existing
amended complaint, and must be a wholly integrated and
complete pleading that does not rely upon or incorporate
by reference any pleading or document previously filed
with the court. See Shields v. Citytrust Bancorp, Inc., 25
F.3d 1124, 1128 (2d Cir. 1994) (“It is well established
that an amended complaint ordinarily supersedes the
original, and renders it of no legal effect.” (quotation
marks omitted)).

IV. SUMMARY AND RECOMMENDATION
Plaintiffs amended complaint focuses on defendants'
alleged failure to provide him with a religious Sahoor
bag meal on October 15, 2013. When all inferences are
drawn in favor of plaintiff, his amended complaint alleges
sufficient facts plausibly suggesting that this deprivation
substantially burdened his sincerely held religious beliefs.
Accordingly, defendants' motion to dismiss should be
denied with respect to plaintiffs First Amendment claim.
Plaintiffs equal protection cause of action, however, is
End of Document

subject to dismissal in light of the fact that the amended
complaint does not allege facts plausibly suggesting that
any of the named defendants were personally involved in
the alleged deprivations. Similarly, plaintiffs retaliation
cause of action is subject to dismissal based upon his
failure to allege facts plausibly suggesting the existence
of a causal connection between his filing of a grievance
in or about October 2013 and a disciplinary hearing
determination rendered in August 2014. Accordingly, it is
hereby respectfully
*8 RECOMMENDED that defendants' motion to
dismiss (Dkt. No. 34) plaintiffs amended complaint
(Dkt. No. 33) be GRANTED, in part, and that his
equal protection and retaliation claims be DISMISSED,
with leave to file a second amended complaint within
thirty days from the date of any order adopting this
recommendation, but that the remaining portion of
the motion, addressing plaintiffs First Amendment free
exercise cause of action, be DENIED.
NOTICE: Pursuant to 28 U.S.C. § 636(b)(1), the parties
may lodge written objections to the foregoing report.
Such objections must be filed with the clerk of the
court within FOURTEEN days of service of this report.
FAILURE TO SO OBJECT TO THIS REPORT WILL
PRECLUDE APPELLATE REVIEW. 28 U.S.C. §
636(b)(1); Fed. R. Civ. P. 6(a), 6(d), 72; Roldan v. Racette,
984 F.2d 85 (2d Cir. 1993).
It is hereby ORDERED that the clerk of the court serve a
copy of this report and recommendation upon the parties
in accordance with this court's local rules.

All Citations
Not Reported in F.Supp.3d, 2016 WL 3882530

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

WESTLAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

7

